UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
■NoT20=2T*9Richard K. Cook
Appellant
v.
Todd Wasmer, Warden - TSCI, et al.
Appellees

Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:18-cv-00332-RGK)
REVISED ORDER
The petition for rehearing en banc is denied as overlength. The petition for rehearing by
the panel is also denied.
May 21,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

APPENDIX A

r
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2149

Richard K. Cook
Petitioner - Appellant
v.

Todd Wasmer, Warden - TSCI; Scott Frakes, Director - Nebraska; Department of Correctional
Services
Respondents - Appellees
Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:18-cv-00332-RGK)
JUDGMENT
Before GRUENDER, WOLLMAN, and STRAS, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
Appellant’s motion for appointment is denied as moot.
October 27, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

APPENDIX b

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 1 of 70 - Page ID # 5277

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
RICHARD K. COOK,
8:18CV332

Petitioner,
vs.
BRAD HANSEN, Warden - TSCI;
SCOTT FRAKES, Director - Nebraska;
and DEPARTMENT OF
CORRECTIONAL SERVICES,

MEMORANDUM
AND ORDER

Respondents.
This matter is before the court on Petitioner Richard K. Cook’s (“Petitioner”
or “Cook”) Petition for Writ of Habeas Corpus. (FilingNo. 1.) For the reasons that
follow, Petitioner’s habeas petition is denied and dismissed with prejudice.
I. CLAIMS
Summarized and condensed,1 and as set forth in the court’s prior progression
order (filing no. 10), Petitioner asserted the following claims2 that were potentially
cognizable in this court:
Claim One:

i

Petitioner was denied effective assistance of counsel
because trial counsel (1) failed to investigate DNA
evidence by not hiring a DNA expert and failing to file a

Petitioner did not object to the court’s summary and condensation.

2 For reference of the parties, the court cited to the pages of Petitioner’s habeas
petition from which it construed each of Petitioner’s claims.
1
APPENDIX C

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 2 of 70 - Page ID # 5278

“Motion to Produce all Physical Evidence and DNA
Material for Independent Testing” (filing no. 1 atCMZECF
pp. 25-27); (2) failed to motion the court for a continuance
in order to further investigate Mike Hombacher
(“Hornbacher”) after mixed DNA results were obtained
from Hornbacher’s DNA testing (id. at CM/ECF p. 25):
(3) failed to object to the “lack of probable cause”
testimony from Nebraska State Patrol (“NSP”) Inv.
Charlie O’Callahan (id. at CM/ECF pp. 25,36); (4) failed
to investigate and pursue evidence against Hornbacher
prior to trial (id. at CM/ECF pp. 31, 36-37): (5) failed to
move for a mistrial based on law enforcement’s improper
seizure and transportation of Petitioner from Iowa to
Nebraska at time of his arrest (id. at CM/ECF p. 34): (6)
failed to investigate or inform the trial court and
prosecution that Douglas County Sheriff Captain Dan
McGovern had discussed evidence from Petitioner’s case
in a class he taught at Iowa Western Community College
(id. at CM/ECF p. 38): (7) failed to request a mistrial or
removal of Prosecutor Leigh Ann Retelsdorf
(“Retelsdorf’) due to Retelsdorf s conflict of interest (id
at CM/ECF pp. 41-42): (8) failed to object and/or move
for a mistrial as to the prosecution’s use of Petitioner’s
invocation of his rights to remain silent and to counsel
after his arrest and to testify on his own behalf in violation
of the Fifth, Sixth, and Fourteenth Amendments (id. at
CM/ECF p. 43): (9) failed to object and/or move for a
mistrial as to Retelsdorf s misconduct in misrepresenting
the DNA evidence and calling Petitioner a “rapist” and
“manipulator” (id. at CM/ECF pp. 44, 67): (10) failed to
prepare adequately for the Rape Shield Law hearing (id at
CM/ECF pp. 45, 68): (11) utilized and failed to object or
move for mistrial as to untried, uncharged “prior bad acts”
evidence (id. at CM/ECF pp. 47-49): (12) failed to
effectively utilize investigative tools at counsel’s disposal,
such as a private investigator, and obtain missing evidence
critical to the defense (id. at CM/ECF p. 52): (13) failed to
object or move for a mistrial as to the following instances
of prosecutorial misconduct: Retelsdorf vouching for
2

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 3 of 70 - Page ID # 5279

witness Hombacher’s credibility through a leading
question, Retelsdorf eliciting testimony from Jeanette
Cook that was contrary to the evidence, and the
prosecution misstating Petitioner’s testimony, the ballistic
evidence, evidence regarding injuries to Hombacher, and
improperly instructing the jury on the law during closing
arguments (id. at CM/ECF pp. 56-57. 74): (14) failed to
make an offer of proof regarding Petitioner’s excluded
testimony about conversations he had with Hombacher
(id. at CM/ECF p. 60): (15) had Petitioner remove his suit
j acket, show the shock belt restraint system to the jury, and
explain how it worked when Petitioner took the stand to
testify in his own defense (id. at CM/ECF p. 64): (16)
withdrew from Petitioner’s case after trial on the outright
lie that counsel “was retiring from the practice of law” (id
at CM/ECF p. 66): (17) failed to show the jury an exhibit
called “23 Reasons for Reasonable Doubt” that counsel
had agreed with Petitioner to show during closing
arguments (id. at CM/ECF p. 66): (18) failed to call
multiple defense witnesses or the customer service
representative that Hombacher had lied to about his phone
being stolen (id. at CM/ECF p. 66): (19) operated under
conflicts of interest due to his prior representation of
Janelle Elster, Petitioner’s former girlfriend, and his
connections to Douglas County Sheriffs Office Crime
Scene In vestigator Commander David Koefed (“Koefed”)
and the Douglas County Sheriffs Office (id. at CM/ECF
pp. 25, 66); (20) refused Petitioner’s request to play a
videotape of Hombacher giving a videotaped statement to
NSP investigators (id. at CM/ECF p. 67); (21) stood silent
and failed to object duringthe death penalty hearing when
prosecutors did not stand silent (id. at CM/ECF p. 67): and
(22) failed to request proper jury instructions (id. at
CM/ECF pp. 71-74).
Claim Two:

Petitioner was denied effective assistance of counsel
because appellate counsel failed to raise on direct appeal
(1) Kofoed planted evidence used at Petitioner’s trial and
Petitioner’s concerns that Kofoed lied on the stand (id at
3

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 4 of 70 - Page ID # 5280

CM/ECF p. 25): (2) law enforcement's improper seizure
and transportation of Petitioner from Iowa to Nebraska at
time of his arrest (id. at CM/ECF p. 34): (3) Douglas
County Sheriff Captain Dan McGovern’s misconduct in
discussing evidence from Petitioner’s case in a class he
taught at Iowa Western Community College (id. at
CM/ECF p. 381: (4) trial counsel’s failure to seek a mistrial
or removal of Retelsdorf due to her conflict of interest (id
at CM/ECF pp. 41-42); (5) prosecution’s use of
Petitioner’s invocation of his rights to remain silent and to
counsel after his arrest and to testify on his own behalf in
violation of the Fifth, Sixth, and Fourteenth Amendments
(id. at CM/ECF p. 431; (6) Retelsdorf s misconduct in
misrepresenting the DNA evidence and calling Petitioner
a “rapist” and “manipulator” (id. at CM/ECF p. 44); (7) all
instances of improper use of untried, uncharged “prior bad
acts” evidence (id. at CM/ECF pp. 47-49); (8)
prosecution’s and law enforcement’s failure to turn over
all evidence in the case to the defense in violation of Brady
v. Maryland (id. at CM/ECF p. 52); (9) prosecution and
trial judge knowingly permitted and encouraged
Hombacher to commit perjury during his trial testimony
in violation of Petitioner’s rights under the Fifth, Sixth,
and Fourteenth Amendments (id. at CM/ECF p. 54): (10)
trial counsel’s failure to object or move for amistrial as to
the following instances of prosecutorial misconduct:
Retelsdorf vouching for witness Hombacher’s credibility
through a leading question, Retelsdorf eliciting testimony
from Jeanette Cook that was contrary to the evidence, and
the prosecution misstating Petitioner’s testimony, the
ballistic evidence, evidence regarding injuries to
Hombacher, and improperly instructing thejury on the law
during closing arguments (id. at CM/ECF pp. 56-57): (11)
ineffectiveness of trial counsel in having Petitioner reveal
and explain to the jury the shock belt restraint system
Petitioner wore during trial (id. at CM/ECF p. 64): and
(12) trial counsel’s failure to request and trial court’s
failure to give properjury instructions (id. at CM/ECF p.

21).
4

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 5 of 70 - Page ID # 5281

Claim Three:

Petitioner was denied the constitutional right to a fair trial,
due process, and effective assistance of counsel because
(1) the prosecution and trial counsel spoke to the media
about the DNA evidence in Petitioner’s case; (2) trial
counsel failed to correct the prosecution’s inaccurate
statements to themedia about theDNA evidence; and (3)
appellate counsel failed to raise on direct appeal the
ineffectiveness of trial counsel and prosecutorial
misconduct based on their statementsto the media. (Id at
CM/ECF pp. 50-51.1

Claim Four:

Petitioner was denied his right to due process because (1)
Kofoed and other law enforcement engaged in improper
collection, handling, storage, and fabrication of evidence
used at Petitioner’s trial3 (id. at CM/ECF pp. 25-271; (2)
law enforcement and prosecution committed misconduct
by failing to adequately investigate Hombacher and seek
a search warrant as to Hornbacher (id. at CM/ECF p. 361;
and (3) law enforcement violated Petitioner’s right to
remain silent and to consult with an attorney contrary to
Doyle v. Ohio, 426 U.S. 610(1976)0# at CM/ECF p. 431.

Claim Five:

Petitioner was denied his rights against unreasonable
search and seizure and to due process because law
enforcement failed to obtain valid Iowa search or arrest
warrants before arresting Petitioner in Iowa and
transporting Petitioner and his vehicle to Omaha,

3 In the preliminary review order, the court clarified that, “[t]o the extent
Petitioner frames this claim as a challenge to the Nebraska Supreme Court’s decision
affirming the state district court’s denial of an evidentiary hearing and dismissing
Petitioner’s motion for postconviction relief as to the allegations involving Kofoed
planting evidence, such a claim is not cognizable in a federal habeas action as it is
based on errors in the state postconviction proceedings. ” (TilingNo. 10 at CM/ECF
p. 6 n.2 (citing Jenkins v. Houston, 4:05CV3099,2006 WL 126632 (D. Neb. Jan.
17, 2006) (errors during state postconviction review are not cognizable in a federal
habeas corpus action).)
5

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 6 of 70 - Page ID # 5282

Nebraska without proper extradition or waiver ofThe
same. (Id. at CM/ECF p. 34.)
Claim Six:

Petitioner was denied his constitutional rights to a fair trial
and due process because: (1) Retelsdorf committed
prosecutorial misconduct because she had a conflict of
interest that she failed to disclose to the trial court and she
failed to remove herself from the prosecution once the
conflict was revealed (id. at CM/ECF pp. 41-42): (2) the
trial court abused its discretion when it failed to remove
Retelsdorf for her conflict of interest and failed to hold a
hearing to determine the impact of the conflict on the
proceedings (id. at CM/ECF p. 42); (3) Retelsdorf
committed prosecutorial misconduct in misrepresenting
the DNA evidence and calling Petitioner a “rapist” and
“manipulatof ’ and the trial court failed to give a limiting
instruction to counter Retelsdorfs unprofessional
behavior (id. at CM/ECF p. 44); (4) the prosecution
committed misconduct by using evidence at trial of
untried, uncharged “prior bad acts” alleged to have been
committed by Petitioner (id. at CM/ECF p. 47); (5) the
prosecution failed to turn over all evidence in the case to
the defense in violation of Brady v. Maryland (id. at
CM/ECF p. 52): (6) the prosecution and trial judge
knowingly permitted and encouraged Hornbacher to
commit perjury during his trial testimony (id. at CM/ECF
p. 54): and (7) the prosecution committed misconduct
because Retelsdorf vouched for witness Hornbacher’s
credibility through a leading question, Retelsdorf elicited
testimony from Jeanette Cook that was contrary to the
evidence, and the prosecution misstated Petitioner’s
testimony, the ballistic evidence, evidence regarding
injuriesto Hornbacher, andimproperly instructed thejuiy
on the law during closing arguments (id. at CM/ECF pp.
56-57).

Claim Seven:

Petitioner was denied effective assistance of counsel
because trial and appellate counsel did not object, move
6

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 7 of 70 - Page ID # 5283

tor a mistrial, nor appearthFTTiaLcourtVabuse-of-itsjudicial discretion by: (1) acting improperly and as a third
prosecutor on multiple occasions (id. at CM/ECF pp. 7576); (2) refusingto allow Petitioner’s testimony about his
conversation with Hornbacher (id. at pp. 60, 75): (3)
failing to hold hearings on the conflict of interest involving
Petitioner’s trial counsel (id. at CM/ECF p. 75): (4)
“crafting the testimony of a prosecution witness—a
Douglas County Sheriff whom had discovered the tmck
driven by the victim” (id); (5) overruling defense
counsel’s request for a continuance for production of
Hombacher’s clothing and shoes, to have forensics
examinations completed on the items, and to have the
items brought into evidence (id at CM/ECF pp. 31, 75):
(6) allowing the juryfto hear “prior bad act” evidence (id
at CM/ECF pp. 75-76): (7) failing to holdthe Rape Shield
Law hearing in camera and refusing defense counsel’s
request for a continuance (id. at CM/ECF pp. 44-45, 76);
(8) failing to grant a directed verdict on the issue of sexual
assault (id. at CM/ECF pp. 75-76); (9) suppressing the
testimony of Deputy Sellers and multiple pieces of
evidence due to its misinterpretation of the Rape Shield
Law (id. at CM/ECF pp. 45-46, 76); (10) failing to
properly instruct the jury (id. at CM/ECF pp. 7 L 75); (11)
partially excluding a letter from Jeanette Cook to
Petitioner (id. at CM/ECF p. 75); and (12) refusing to
allow up to five defense witnesses to give relevant
testimony to the jury that directly contradicted
Hornbacher’s testimony (id. at CM/ECFpp. 75-76).
Claim Eight alleges several instances of ineffective assistance of
postconviction counsel. (FilingNo. 1 at CM/ECF pp. 25. 68.) In its preliminary
review order, the court dismissed this claim because it is not cognizable in a federal
habeas corpus action. (Filing No. 10 at CM/ECF p. 9 (citing Jenkins v. Houston, No.
4:05CV3099, 2006 WL 126632, at *1 (D. Neb. Jan. 17, 2006) (noting that “claims
based on ineffective assistance of counsel and other constitutional deprivations
during state postconviction proceedings are not cognizable in a federal habeas
7

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 8 of 70 - Page ID # 5284

corpus action”).) Although Claim Eight was dismissed, the court advised'
Respondentsto “be mindful of and, if necessary, respondto Petitioner’s allegations
in his habeas petition that the ineffectiveness of his postconviction counsel excuses
any exhaustion requirements or procedural defaults.” (Filing No. 10 at CM/ECF p.
9.)
II. BACKGROUND
A. Convictions and Sentences
The court states the facts as they were recited by the Nebraska Supreme Court
on direct appeal in State v. Cook, 667 N. W.2d 201 (Neb. 2003) (filing no. 15-1). and
on interlocutory appeal from the postconviction court in State v. Cook, 860 N. W.2d
408 (Neb. 2015) (filing no. 15-21. SeeBucklew v. Luebbers, 436 F.3d 1010, 1013
(8th Cir. 2006) (utilizing state court’s recitation of facts on review of federal habeas
petition).
1. Discovery and Investigation of Crime
On the morning of April 29,2000, two men found the body of a young woman,
later identified as Amy Stahlecker, on the bank of the Elkhom River near the
intersection of West Maple Road and Highway 275 in Douglas County, Nebraska.
Stahlecker’s body had multiple gunshot wounds, including a shot to the back of the
head that exited through the face and two shots to the face that exited through the
back of the head. The men notified law enforcement officers of their discovery, and
the Nebraska State Patrol began an investigation of the crime.
The body was found at a point along the river where the river was spanned by
a bridge that was part of West Maple Road. At and near the bridge, West Maple
Road was a four-lane concrete road with two eastbound and two westbound lanes
separated by a concrete median. Investigators found a large blood smear and a trail
8

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 9 of 70 - Page ID # 5285

of blood drops on the bridge, the median, and the eastbound lanes of West Maple
Road. The trail of blood drops led from the median to the north side of the bridge
directly above where the body was found. Blood from the stain was later tested, and
the DNA was consistent with that of Stahlecker. On the median, investigators found
bullet and scalp fragments and a bracelet that had been worn by Stahlecker.
A white Ford Explorer with a blown tire was found along Highway 275 near
an intersection with West Maple Road and near the location where Stahlecker’s body
was found. It was later discovered that the Explorer was owned by Stahlecker’s
friend, Angella Dowling. On Friday evening, April 28, 2000, Stahlecker left her
mother’s home in Fremont, Nebraska, and went to her cousin’s home in Arlington,
Nebraska. Stahlecker andher cousin then joined Dowling, and the three drove in the
Explorer to Omaha for dinner. After dinner, they met other friends at a bar in Omaha
and stayed there until about 1 a.m. on April 29. Stahlecker’s cousin and Dowling
decided to stay in Omaha with their respective boyfriends, and it was determined
that Stahlecker would drive the Explorer to Fremont for thenight andthen return to
Omaha the next morning to pick up the other two women. Although Stahlecker’s
subsequent route is unknown, she was apparently heading west on Highway 275
toward Fremont when the Explorer blew a tire near the spot where the Explorer was
found that same morning.
An autopsy on Stahlecker’s body revealed various abrasions and contusions
in addition to the gunshot wounds to the head and face. Bruises were found on both
forearms andon some fingers of the left hand. Contusions and abrasions were found
on both legs, and there was a gunshot wound to the hip. The forensic pathologist
who testified at trial opined that bruises on the right knuckles could have been
“defensive” injuries sustained while Stahlecker was still alive. The pathologist also
opined that the gunshot wound to the back of the head which exited through the face
was the fatal wound and was a “distant shot” that was not fired at close range. The
two shots to the face were fired at an “intermediate” range within 2 feet of the face.
In the pathologist’s opinion, the two shots to the face were not the fatal shots and
9

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 10 of 70 - Page ID # 5286

were the result of very rapid gun discharge or were fired at a time when Stahlecker
was unconscious. The autopsy revealed that Stahleckerhad a blood alcohol content
of .156 when she died. The autopsy also revealed semen in the vaginal area,
indicating intercourse shortly before death; however, the autopsy showed no
evidence of vaginal or anal tears or bruising.
Investigators had no suspect in the killing until May 2, 2000, when a
Washington County deputy sheriff was contacted by Michael Hornbacher through a
mutual friend. The deputy was acquainted with Hornbacher as well as Cook, a friend
of Hornbacher and the defendant in this case. Hornbacher told the deputy that Cook
had confessed to killing Stahlecker. The deputy interviewed Hornbacher at his office
in Omaha, and Hornbacher later went to the Nebraska State Patrol offices where he
gave investigators oral and written statements. Based on the information provided
by Hornbacher, investigators went to the Norwest Financial branch office in Council
Bluffs, Iowa, where Cook worked. The investigators did not formally arrest Cook
but told him he needed to come with them to the State Patrol offices in Omaha to be
interviewed regarding the Stahlecker investigation. Investigators transported Cook
to Omaha and did not allowhim to drive his own vehicle, a Ford F-150 pickup truck.
Officers took Cook’s truck to the State Patrol offices while Cook was being
interviewed. They later returned the truck to Council Bluffs, obtained a search
warrant, and brought the truck back to Nebraska State Patrol headquarters in Omaha,
where the tmck was searched. The search revealed blood traces on the interior of the
driver’s side door and floormat. Later DNA tests showed that the blood traces were
consistent with Stahlecker’s blood. Clothing fibers found on thepassenger-side seat
were consistent with the fabric of underwear worn by Stahlecker. Investigators also
determined that a bloody shoeprint found on the exterior door panel of Cook’s tmck
matchedthe shoeprints found at the scene of the crime.
During the interview, investigators photographed Cook’s face and body.
Cook’s hands and forearms showed substantial scrapes and cuts. Cook’s supervisor
10

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 11 of 70 - Page ID # 5287

at Norwest Financial later testified that she had noticed the injuries to Cook’s arms
and hands on Monday, May 1, 2000, and that he had told her he was injured after
falling off his bicycle over the weekend.
David Kofoed, the chief crime scene investigator for Douglas County at the
time, assisted with the collection of evidence in this case. In 2009, it was discovered
that Kofoed had fabricated and planted evidence in at least two different murder
investigations. In both cases, it was determined that Kofoed planted evidence to
corroborate confessions made to police.4
In this case, Kofoed specifically assisted the Nebraska State Patrol by taking
castings of the shoeprints found at the scene of Stahlecker’s death. In addition,
Kofoed, along with three other Douglas County crime scene investigators, initially
processed the evidence from Cook’s truck; Kofoed and another investigator were
responsible for physically collecting evidence from the truck, while the other
investigators were responsible for note-taking and documenting and photographing
the evidence.
2. Cook’s Arrest and Trial
Cook was arrested, and on June 12, 2000, the State filed an information
charging Cook with first degree murder and use of a weapon to commit a felony.
Cook pled not guilty, and a jury trial was conducted April 16 through 26,2001.
At trial, both Hombacher and Cook testified regarding the events of April 28
and 29, 2000. Their stories were substantially similar regarding the events of the

4 State v. Kofoed, 817N.W.2d225 (Neb. 2012). See State v. Edwards, 821
N.W.2d680 (Neb. 2012).
11

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 12 of 70 - Page ID # 5288

" "evening of April 28, but their stories differed markedly regarding the events which
occurred after midnight on April 29. Cook got home from work on Friday, April 28,
at about 6:15 p.m. and soon thereafter told his wife, Jeanette Cook (Jeanette), that
he was going out. Cook and Hombacher met to work out together at a gym. The two
had been friends for several years. They both worked for Norwest Financial and
frequently worked out together. After working out, they stopped at a sandwich shop
and then went to the apartment shared by Hombacher and his girl friend, Michelle
Childs. Childs had already left the apartment to go to McCormack’s sports bar to
play volleyball. Cook and Hombacher went to McCormack’s to watch Childs’
volleyball game. They drove in Cook’s truck and arrived at McCormack’s at about
8:30p.m.
Cook and Hombacher stayed at McCormack’s after the volleyball game,
socializing with various people. Both drank several beers and some shots. After
some time, Childs and Hombacher got into an argument because she was upset that
he was getting drunk and that he did not want to leave when she was ready to go.
Childs decided to leave and asked whether Cook could give Hombacher a ride and
whether Hombacher could stay at Cook’s apartment that night. Cook agreed and
called his wife, Jeanette, at around 11:40 p.m. to let her know Hombacher would be
staying with them. Jeanette, who was angry with Cook for staying out late, did not
answer thetelephone andallowedthe answering machine to takehis message.
Hombacher and Cook stayed at McCormack’s for approximately another
hour. Hombacher’s and Cook’s stories diverge at the point when they left
McCormack’s. At trial, Hombacher testified for the State and Cook testified in his
own defense. Their differing versions of events are recounted below.

12

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 13 of 70 - Page ID # 5289

3. Jtiornbacher’s Version
Hornbacher testified that he and Cook left McCormack’s separately.
Hornbacher saw Cook leave in Cook’s truck, and Hornbacher got a ride from two
women he did not know and a man he had met that night. They drove Hornbacher
to his and Childs’ apartment, where he let himself in and passed out in bed.
Hornbacher woke up around 11 or 11:30 a.m. on Saturday, April 29, 2000.
Hornbacher argued with Childs and decided to leave the apartment. Hornbacher
could not find his keys, cellular telephone, and checkbook and realized he might
have left them in Cook’s truck the night before. Hornbacher called Cook to arrange
to pick up the items he had left in Cook’s truck. Cook did not want Hornbacher to
come to Cook’s apartment, so they arranged for Cookto pickup Hornbacher in front
of Hornbacher’s apartment. After getting off the telephone, Hornbacher told Childs
he thought Cook was “acting pretty weird.”
Cook picked up Hornbacher some time later. As they drove in the truck,
Hornbacher could tell Cook was upset, and Cook indicated that he was concerned
about something that would affect his family. Cook drove to Walnut Grove Park,
where he parked the truck, and Cook and Hornbacher talked for what Hornbacher
described as “an eternity.” Hornbacher testified that Cook told him that after he left
McCormack’s, he had driven out west on Highway 275, where he encountered a
young woman with a flat tire. Hornbacher noticed abrasions on Cook’s arms but
Cook would not tell Hornbacher how he got them. Hornbacher’s cellular telephone
rang, and he located it beneath the seat. Cook told Hornbacher that the telephone
mu st have fallen beneath the seat when he and the woman with the flat tire had sexual
intercourse in the front seat of the truck. Cook showed Hornbacher a scrap of paper
tucked into the sun visor and told Hornbacher the woman had given him her name
and telephone number. Cook then told Hornbacher that after the intercourse, the
woman had “weirded out,” and Cook thought she might try to claim that he had
raped her. Cook ordered the woman to get out of the tmck, and then he “lost it” and
13

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 14 of 70 - Page ID # 5290

grabbed his 9-mm handgun from the truck’s console and “unloaded” it on the
woman. Cook told Hornbacher he then dumped the woman’s body in a ravine.
Cook drove Hornbacher back to Hornbacher’s apartment and regained his
composure on the way. Cook told Hornbacher he had cleaned his truck twice that
m oming in order to get rid of any evidence linking h im to the woman ’ s death. Cook
left, and Hornbacher went into his apartment where Childs was still in bed
Hornbacher recounted to her his conversation with Cook. Hornbacher stayed at his
own apartmentthe rest ofthe day.
Hornbacher and Childs heard media reports about Stahlecker’s death on
Sunday, April 30,2000. Hornbacher testified that he wantedto urge Cookto confess
to authorities, but Childs objected. Hornbacher did nothing until the evening of
Monday, May 1, when he contacted the aforementioned mutual friend to get him
into contact with the Washington County sheriff’s deputy. Hornbacher spoke to the
deputy on Tuesday, May 2, and told him about Cook’s confession.
4. Cook’s Version
Cook testified in his own defense. He testified that while they were at the bar,
he drank two shots provided by Hornbacher. One was a shot of “GHB,” a substance
sometimes called the “date rape drug,” which acts as a sedative, diminishing
inhibitions and blotting out memory. Cook was drunk at the time Hornbacher gave
him the GHB and did not take it intentionally. When he and Hornbacher left
McCormack’s, Cook saw Hornbacher get into a car with some other people. Cook
decided to follow them in his truck because he had told Childs that Hornbacher could
stay at Cook’s apartment The other people took Hornbacher to Hornbacher’s
apartment. Cook saw Hornbacher at his apartment door, fumbling for his keys. Cook
pulled up and told Hornbacher he had left his keys in Cook’s truck. Hornbacher got
into Cook’s truck, and the two decided to go to a bar in Fremontthat featured female
strippers. Cook thought the bar might still be open.
14

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 15 of 70 - Page ID # 5291

While driving toward Fremont on Highway 275, Cook encountered
Stahlecker and the disabled Ford Explorer. Cook decided to stop to help her, despite
Hombacher’s protests. Cook tried to change the tire but decided he could not because
the rim was bent. He could not call for help because his cellular telephone did not
work, and he could not find Hombacher’s cellular telephone, which had fallen
beneath the seat. Cook decided they should look for an open service station to get
help. Stahlecker got into the front seat with Cook, andHornbacher got into the back
seat, where he passed out or fell asleep. Cook drove toward Omaha on West Maple
Road.
They found no open service station, and Stahlecker suggested they return to
the Explorer. Neither Cook nor Stahlecker was certain where the Explorer was, and
they had trouble finding it. Cook suggested that theyjust “chill out,” since they were
both drunk, and he pulled into an off-road area on West Maple Road. He and
Stahlecker laughed, talked, and listened to the radio while Hornbacher was passed
out or sleeping in the back seat. Cook offered to give Stahlecker a back rub, and she
agreed. Cook testified that they were soon engaged in sexual foreplay and began
undressing. They then engaged in what Cook described as consensual sexual
intercourse in the front passenger seat.
As they were dressing, Cook told Stahlecker he would like to see her again
and he gave her one of his business cards so she could give him her telephone
number. She wrote “Amie” and a Fremont telephone number on the card and gave
it back to him. At that time, Hornbacher spoke up from the back seat. Neither Cook
nor Stahlecker had realized he was awake. Hornbacher forcefully demanded that
Stahlecker perform oral sex on him. She refused, and Hornbacher began to argue
with her. The argument escalated despite Cook’s attempts to calm Hornbacher, and
Hornbacher reached over the seat to grab Stahlecker’s shoulder. She pulled away,
opened thepassenger-side door, and walked up to West Maple Road.

15

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 16 of 70 - Page ID # 5292

her a ride home. He then heard two gunshots and turned to see Hornbacher leaning
out of the driver’s side window with Cook’s gun in hishand, shooting at Stahlecker.
Cook began to run toward Stahlecker. Because it was dark, he did not see the median
on West Maple Road, and he ran into the median and tripped, scraping his arms and
hands. Cook heard the truck accelerating behindhim and saw Hornbacher drive the
truck up onto West Maple Road. When Hornbacher caught up to Stahlecker, he
parked the truck, jumped out of it with the gun, and followed her. Cook saw
Hornbacher shoot Stahlecker in the back of the head from a distance of about 10
feet. Stahlecker collapsed. Hornbacher approached her, and when he was within 5
feet, Hornbacher shot her twice in the face.
Cookranto Stahlecker and checkedforapulse. Findingno pulse, herealized
she was dead. Cook asked Hornbacher why he had killed her. Hornbacher did not
reply but instead told him to “get her off the road.” Because Hornbacher still had the
gun and Cook feared for his own safety, he did as Hornbacher directed. Together
they dragged Stahlecker’s body across the road and shoved it off the bridge. Cook
saw Hornbacher pick up Stahlecker’s keys, which Cook had dropped. Cook and
Hornbacher got into the truck to return to Omaha. They were driving east on Dodge
Street back into Omaha, and when they approached a bridge over the Elkhorn River,
Hornbacher told Cook to slow down. As they were driving over the bridge,
Hornbacher threw Stahlecker’s keys into the river. Cook speculated that Hornbacher
might also have thrown Cook’s gun into the river, because Cook did not know where
it was.
The two continued into Omaha and argued about what to do next. Cook
testified that Hornbacher threatened that if he said anything about Stahlecker’s death,
Cook “would go down, too.” Cook dropped Hornbacher off at Hombacher’s
apartment at about 3:30 a.m. and told him they should talk after they sobered up.
Hornbacher tookthe gun’s ammunition and clip with him. On his way home, Cook
stopped at a carwash where he washed blood off the seats and vacuumed the interior
16

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 17 of 70 - Page ID # 5293

of the truck. He arrived home about 4:30 a.m. He undressed and washed the scrapes
on his hands and arms and applied antibiotic ointment before going to bed. Cook’s
wife, Jeanette, was awake, and he showed her his injuries. He told her he had been
in a fight but that if anyone asked her, she should say he was injured falling off his
bicycle.
Cook slept until about 7 a.m., when he awoke and began routine Saturday
morning chores. He washed a load of laundry, including the clothes he had worn the
night before. Cook drove to Standing Bear Lake, where he rode his bicycle on the
trails. Before long, he fell off the bicycle and landed on his arms and hands. Cook
returned home around 10 a.m. Jeanette was sleeping but their daughter was awake,
and he gave her breakfast. Jeanette awoke around 12:30 p.m. and was angry with
Cook for going out the night before. She left to go study. After Jeanette left,
Hornbacher called Cook. The two decided to meet at Hombacher’s apartment, and
Cook picked him up at about 1:30 p.m. At trial, Cook attempted to give testimony
regarding his version of their conversation in the truck. However, the court sustained
the State’s hearsay objections, and Cook madeno offer of proof of the testimony he
would have given regarding the conversation.
5. Other Witnesses and Evidence
Various other witnesses testified for the State, and Cook offered other
testimony and evidence in his defense. Additional evidence and testimony which
relates to Cook’s assignments of error on appeal will be related here.
Immediately after Hornbacher testified at trial, the State called Childs as a
witness. She testified similarly to Hornbacher and Cook regarding the events of
April 28,2000. In addition, she testified that Hornbacher got home at around 12:50
a.m. and did not go out again. Childs also testified that after Hornbacher met with
Cookthe following day, he camehomeandtoldher that Cookhad told Hornbacher
that the night before, Cookhadhad consensual sex with a woman andthereafter shot
17

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 18 of 70 - Page ID # 5294

her. In most respects, Childs’ version of Cook’s statements was similar to
Hombacher’s testimony.
The State also presented the testimony of Amy Hoffmeyer. Hoffmeyer
worked with Childs and played volleyball with her at McCormack’s on April 28,
2000. After volleyball, Hoffmeyer remained at McCormack’s, socializing with
various people including Hombacher and Cook. Hoffmeyer testified that as she was
putting her keys into the ignition of her car after leaving the bar, Cook knocked on
the window. He told her he wanted her to come back into the bar to get to know him
better. She said no, but Cook persisted with his requests, at one point reaching into
the car to put his hand on her shoulder. She mentionedthat she knewhe was married
but that he said he did not care. Cook eventually gave up, and she drove home. On
cross-examination, Hoffmeyer testified that she had not felt threatened by Cook, she
just thought it odd that he wantedto get to know her better considering that he was
married.
Before Cook testified in his defense, a hearing was held outside the presence
of thejury in which Cook’s attorney saidhe anticipated that the State wouldcrossexamine Cook about an incident with “a woman named Yvette” that occurred at
McCormack’s on the evening of April 28, 2000. In the hearing, it was stated that a
woman named “Yvette Carmen” had told friends that while she was on her way to
the bathroom, Cook had grabbed her, took her to the parking lot, started to kiss her,
and put his hand down her pants. Cook also apparently tried to get her into his truck.
Cook’s attorney wanted to get any such question prohibited as improper prior bad
acts evidence. The State argued the evidence was offered for the purpose of showing
Cook’s intent to get a woman into his truckto have sex. After much discussion, the
district court stated, “The sexual acts is [sic] 403. The other, getting into the truck,
I’ll just rule when the time comes.’’SeeNeb. Rev. Stat. § 27-403 (Reissue 1995).
During cross-examination, the State asked Cook to tell about the incident
where he followed Hoffmeyer outside to her car. After Cook told his side of the
18

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 19 of 70 - Page ID # 5295

story, the State askecTabout a subsequenttime that evening that Cook had gone out
to the parking lot. Cook said that he had gone outside to get some fresh air and that
“[s]omeone did come outside with me, but I did not ask them [sic] to come outside
with me.” Upon further questioning, Cook stated that he did not know the person’s
name but that the person was female. The State asked what Cook and the female did
in the parking lot, and Cook stated, “We—again, we talked, and we kissed and that
was it. We were out there for less than five minutes andcame back in.” Throughout
this questioning, Cook’s attorney objected on the basis of relevance and the district
court overruled the objections. Finally, the State asked, “Did you ask her to get in
your truck with her [sic]?” Cook’s attorney then objected, and the court sustained
the objection. The State then moved on to a different line of questioning.
Jeanette testified for the State regarding, inter alia, her interaction with Cook
on April 29, 2000, the day following the killing of Stahlecker. During crossexamination, Cook’s attorney asked whether at about 12:30 p.m. of that day she had
gone to study but had instead written a letter to Cook. She said that she had. When
Cook’s attorney began to question Jeanette further about the letter, the State objected
on the basis of hearsay and relevance. During a side-bar conference, it was stated
that the letter was never given to Cook and that instead Jeanette had given it to the
defense attorney some time after Cook’s arrest. The court sustained the hearsay
objection but allowed Cook to make an offer of proof of the letter. In the letter,
Jeanette expressed that she was angry with Cook for having been out late with
Hornbacher the night before. She also expressed her ongoing dissatisfaction related
to Cook’s friendship with Hornbacher and recounted various incidents in which she
thought Hornbacher had a negative influence on Cook, including incidents in which
Cook covered for Hornbacher because he was cheating on his girl friend. Jeanette
expressed her desire that Cook not allow his friendship with Hornbacher to affect
his relationship with her.
Charles O’Callaghan, an investigator for the Nebraska State Patrol, testified
for the State regarding the investigation of Stahlecker’s killing. During cross19

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 20 of 70 - Page ID # 5296

a seal
— examination,
warrant on Hombacher’s residence, and O’Callaghan replied that he had not. On
redirect, in reference to the testimony that investigators had not searched
Hornbacher’s residence, the prosecutor elicited testimony that in order to get a
search warrant, investigators must have probable cause that the person committed a
crime. The prosecutor asked O’Callaghan, “At any point in time in this investigation,
did you have probable cause that Mike Hombacher committed any crime?”
O’Callaghan replied, “No.”
Michael Auten, a state patrol forensic chemist, testified for the State. Defense
counsel elicited testimony from Auten that if ordered to do so, Auten could test the
clothes worn by Hornbacher on the night of the killing to test for comparison to
fibers found in Cook’s truck and on Stahlecker’s clothing. In a side-bar conference,
defense counsel moved for an order for production of Hornbacher’s clothing for fiber
analysis. The court denied the motion, and defense counsel did not pursue the issue
further.
During Hombacher’s testimony, on cross-examination, the following
exchange occurred between defense counsel and Hornbacher:
[Defense counsel:] You had never known... Cook to be violent with a
woman before, did you, sir?
[Hornbacher:] Not until after this trial started.
[Defense counsel:] And—
[Hornbacher:] I take that back. I do.
[Defense counsel:] Excuse me, sir. At the time that you gave this
statement on May 10th, did you indicate that you had never seen him
do that to a woman?
[Hornbacher:] I’ve never seen him do it to a woman, no.
20

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 21 of 70 - Page ID # 5297

Defen se counselihemnoved^n-t-Q-other-qu-est-ioning-:
6. Motions, Verdict, and Sentencing
The State charged Cook with first degree murder under alternative theories.
In the information, the State charged that Cook “did . . . purposely and with
deliberate and premeditated malice, or during the perpetration of, or attempt to
perpetrate a First Degree Sexual Assault, kill Amy Stahlecker.” Cook was also
charged with use of a weapon to commit a felony, but Cook was not separately
charged with first degree sexual assault.
At the end of the State’s case, Cook’s attorney moved the court:
for a dismissal of these charges against the defendant for the reason that
the State has failed to meet it’s [sic] prima facie case against the
defendant. And my guess is you ’ll probably let it go to the jury on the
issue of first degree murder, but I’m going to ask the Court to consider
dismissing the action against the defendant on the first degree sexual
assault. And then in the alternative, sir, I would ask the Judge—this
Court to enter an acquittal of the defendant on those two charges, but
particularly the sexual assault charge.
The district court overruled the motion. At the end of all the evidence, Cook renewed
his motion and the district court again overruled it.
Cook’s attorney objected to the jury instruction on the count of first degree
murder, stating, “I’m going to object to this, the State being able to charge Mr. Cook
with both deliberate and premeditated malice or during the perpetration of a first
degree sexual assault.” The district court asked, “Do you think the State should be
required to elect?” When Cook’s attorney replied in the affirmative, the district court
overruled the objection. In instructing the jury on the charge of murder, the district
court gave a step instruction, in which it instructed the jury on four types of
homicide: first degree murder-felony murder, first degree murder-premeditated
21

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 22 of 70 - Page ID # 5298

-m-urder-seeondriegreeirmrderrandTiTan^slaughter. As partofthe step instruction, the
district court instructed the jury to first consider whether Cook committed felony
murder and, if it found that he had not, then to consider whether he committed
prem editated murder.
On April 26, 2001, the jury returned verdicts finding Cook guilty of first
degree murder and use of a firearm to commit a felony. The verdict form stated that
the jury found Cook guilty of “Murder in the First Degree” but did not specify
whether the jury found him guilty of “first degree murder-felonymurder” or “first
degree murder-premeditated murder.” Cook, through defense counsel, filed a motion
for new trial. Cook, pro se, filed additional motions for new trial. The district court
overruled the motions for new trial.
A presentence investigation report was prepared prior to sentencing. The
report included a probation officer ’ s report, in which the probation officer concluded
that Cook “has a very volatile temper, is a womanizer and could almost be
considered a sociopath” and that Cook is “a very dangerous individual.” The
probation officer then asked that the district court “consider life imprisonment with
an additional 50 years for the chargeofUse of a Firearm to Commit a Felony.” The
report also contained various letters written in support of Cook.
On July 20, 2001, the court sentenced Cook to life imprisonment on the first
degree murder conviction and to 49 1/2 to 50 years’ imprisonment on the weapons
conviction.
B. Direct Appeal
Cook appealed his convictions and sentences to the Nebraska Supreme Court.
(Tiling No. 15-1; Filing No. 15-4.) Cook was represented by different counsel on
appeal than at trial. (Filing No. 15-1; Filing No. 15-4.) Cook argued that the trial
court erred in (1) sustaining the State’s hearsay objection and disallowing Cook’s
22

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 23 of 70 - Page ID # 5299

testimony_regardirmJiisw^sion-of-hre-con versationwrithrHi3Tiihacher on the day
following Stahlecker’s killing, (2) overruling Cook’s motion for directed verdict on
the felony murder theory ofthe first degree murder charge, (3) allowing evidence of
prior bad acts involving Hoffmeyer and Carmen and failing to give a limiting
instruction with regard to such evidence, (4) sustaining the State’s hearsay objection
and disallowing evidence of the contents of the letter Jeanette wrote to Cook, (5)
failing to order that Cook be allowed to review the presentence investigation report
prior to sentencing, (6) imposing an excessive sentence, and (7) overruling his
motions for mistrial and for a new trial. (Filing No. 15-1 at CM/ECF p. 15: Filing
No. 15-7.)
Cook also asserted that he was denied effective assistance of counsel and that
his trial counsel was deficient in the following respects: (1) failing to object to
hearsay testimony by Childs that Hombacher told her that Cook had toldhim that he
had killed Stahlecker; (2) failing to object to the testimony of Hoffmeyer which
Cook asserted was evidence of a prior bad act; (3) eliciting testimony from
Hornbacher regarding Cook’s prior incidents of violence toward women; (4) failing
to request a limiting instmction regarding theproper use of prior bad acts evidence
involving Hoffmeyer and Carmen; (5) failing to object to O’Callaghan’s testimony
regarding a determination of probable cause when no proper foundation had been
established for such expert testimony; (6) failing to request a continuance in order
to pursue fiber evidence which might have connected Hornbacher to the crime; and
(7) failing to object to portions of the presentence investigation report which Cook
asserted contained unsupported conclusions of the probation officer. (Filing No. 151 at CM/ECF p. 15; FilingNo. 15-7.)
In a published opinion dated August 1, 2003, the Nebraska Supreme Court
affirmed Cook’s convictions and sentences. (Filing No. 15-1.) The Nebraska
Supreme Court concluded that “each of Cook’s assignments of error is either without
merit or not susceptible to review on direct appeal.” (FilingNo. 15-1 at CM/ECF p.
28.) With respect to Cook’s conversation with Hombacher, the court held that,
23

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 24 of 70 - Page ID # 5300

JD.ecause-Cook4n-a4€-n©-0#er-ofproof7itxoui'dTK3tfindTliafCoolc7s testimony would
have met an exception to the hearsay rule, and thus concluded the trial court did not
err in sustaining the State’s hearsay objection. (Filing No. 15-1 at CM/ECF pp. 1618.) The court determined that Cook waived the right to assert prejudicial error
regarding Hoffmeyer’s testimony on appeal because he did not object to the
testimony at trial (filing no, 15-1 at CM/ECF p. 20), and that any error in admitting
the potential testimony regarding Carmen was harmless because it was cumulative
of other testimony offered by Cook in his own direct examination (filing no. 15-1 at
CM/ECF pp. 20-21). The court concluded that the trial court did not err in denying
Cook’s motion for a directed verdict on the felony murder charge because the
evidence was sufficientto submit the charge to thejury (filingno. 15-1 at CM/ECF
pp. 18-20), in disallowing evidence of the contents of Jeanette Cook’s letter because
Cook demonstrated no exception to the hearsay rule which would allow admission
of the letter (filingno. 15-1 at CM/ECFpp. 21-22), and in failing to order a review
of the presentence investigation report where Cook did not request the opportunity
to review the report and the trial court did not deny such a request (filingno. 15-1 at
CM/ECF pp. 22-23). The court rejected Cook’s argument that his sentence for use
of a weapon to commit a felony was excessive. (Filing No. 15-1 at CM/ECF pp. 2324.)
The Nebraska Supreme Court did not address Cook’s ineffective assistance of
trial counsel claims because they were not raised or ruledupon at the trial court level
and the record was insufficient to adequately review them. (Filing No. 15-1 at
CM/ECF pp. 26-27.) Finally, theNebraska Supreme Court foundno merit in Cook’s
argument that the trial court erred in overruling his motions for mistrial and for new
trial based on the “‘many and varied’ evidentiary errors in this case combined with
the deficient performance of defense counsel.” (Filing No. 15-1 at CM/ECF p. 27.)
The Nebraska Supreme Court explained that, because it found no merit in Cook’s
other assignments of error and because the record on appeal did not allow the court
to determine whether Cook received ineffective assistance of counsel, Cook failed
24

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 25 of 70 - Page ID # 5301

t o e st abl i sh thatJiis_triaLwas inherently. defect!v-e,-(-Filin g44n.-i-5-4-at-€M7TGF-Qp:
27-28.)
The Nebraska Supreme Court overruled Cook’s motion for rehearing and
issued its mandateon September 26,2003. (FilingNo. 15-4 at CM/ECF p. 3; Filing
No. 15-10.)
C. Postconviction Action
On July 2,2004, Cook filed a verified motion for postconviction relief. (Filing
No. 16-1 at CM/ECF pp. 10-115.) The state district court appointed new counsel
(Mary Gryva) to represent Cook in the postconviction matter. (FilingNo. 16-2 at
CM/ECF p. 152.) At Gryva’s request, the state district court appointed Michael
Maloney as co-counsel in the postconviction proceeding. (Filing No. 16-1 at
CM/ECF p. 121.) On April 11, 2005, Cook filed a pro se amended verified motion
for postconviction relief. (FilingNo. 16-1 at CM/ECF pp. 122-263.) In July 2005,
the state district court granted Gryva and Maloney leave to withdraw as counsel.
(FilingNo. 16-2 at CM/ECF pp. 6, 8.) On August 23, 2005, the state district court
appointed the Douglas County Public Defender’s Office to represent Cook. (Filing
No. 16-2 at CM/ECF p. 9.) On September 4, 2009, Cook filed a second, and final,
amended verified motion for postconviction relief. (FilingNo. 16-2 at CM/ECF pp.
13-84.) The majority of the second amended postconviction motion was drafted by
Cook, despite Cook having been appointed counsel.5 (FilingNo. 15-42.) This is the
operative motion for the state district court orders and Cook’s subsequent
postconviction appeals.

5 Cook’s counsel explained to the court that because Cook editedthemotion
prepared by counsel, counsel did not sign it. (FilingNo. 15-42.)
25

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 26 of 70 - Page ID # 5302

Cook raised four of the same ineffective assistance of trial counsel claims as
Ke did on direct appeal,6 along with 31 new claims for postconviction relief. (Filing
No. 16-2 at CM/ECF pp. 13-84.1 On June 27, 2012, the state district court entered
an order addressing all of Cook’s claims. (Filing No. 16-2 at CM/ECF pp. 128-51.)
The court granted a hearing on Cook’s four claims of ineffective assistance of trial
counsel that were raised on direct appeal, along with three new claims. (Filing No.
16-2 at CM/ECF pp. 134-39, 142.) The court rejected the remaining claims on the
grounds that they either clearly had no merit or did not allege facts with sufficient
specificity regarding prejudice. (Filing No. 16-2 at CM/ECF pp. 139-51.) Two of the
rejected claims involved allegations that Kofoed fabricated evidence, and the
remaining claims alleged that Cook received ineffective assistance of counsel due to
his appellate counsel’s failure to make certain arguments on appeal.
On July 6,2012, Cook filed an approximately 150-page pro se motion to alter
or amend the state district court’s order. (FilingNo. 16-2 at CM/ECF pp. 158-311.)
On February 27, 2013, the state district court overruled Cook’s motion to alter or
amend.7 (FilingNo. 15-27 at CM/ECF p. 6.) On that same day, the state district court

6 Specifically, Cook alleged the following four ineffective assistance of trial
counsel claims in his second am ended postconviction motion: (1) failingto object to
hearsay testimony by Childs that Hombacher told her that Cook had told him that he
had killed Stahlecker; (2) failing to object to the testimony of Hoffmeyer which
Cook asserts was evidence of a prior bad act; (3) eliciting testimony from
Hornbacher regarding Cook’s prior incidents of violence toward women; and (4)
failing to request a limiting instmction regarding the proper use of prior bad acts
evidence involving Hoffmeyer and Carmen. (FilingNo. 16-2 at CM/ECF pp. 1320.)
7 The order was delayed because Cook filed an appeal to the Nebraska
Supreme Court while his motion to alter or amend was still pending in the state
district court. The state district court had to wait for the mandate dismissing Cook’s
appeal for lack of jurisdiction (due to the pending motion to alter or amend) to mle
26

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 27 of 70 - Page ID # 5303

found that.jiueiQ^axonfiictQfinterestAheUougfasGountyTkibticiDefender’TOlfice
could no longer represent Cook, and it appointed the Nebraska Commission on
Public Advocacy to represent Cook. (Filing No. 15-27 at CM/ECF p. 7.) Later, on
October 22,2013, Robert Kortus and his office, the Nebraska Commission on Public
Advocacy, were allowed to withdraw as Cook’s counsel and the state district court
appointed Gerald Soucie to represent Cook. (Filing No. 15-5 at CM/ECF p. 3.)
Soucie represented Cook throughout the remainder of his postconviction
proceedings in the Nebraska state courts.
Cook filed an interlocutory appeal in the Nebraska Supreme Court from the
state district court’s rejection of twenty-eight of his thirty-five claims for
postconviction relief. (Filing No. 15-5; Filing No. 15-11; FilingNo. 15-12.) Cook
filed a motion for leave to file a pro se supplemental brief in addition to his counsel’s
brief. (FilingNo. 15-13.) The Nebraska Supreme Court overruled his motion without
prejudice. (FilingNo. 15-5 at CM/ECFp. 1.) Cook, through Soucie, then filed a brief
assigning that the state district court erred when it denied an evidentiary hearing and
dismissed the motion for postconviction relief (1) on the ground that Kofoed or other
investigators planted evidence used at Cook’s trial, in violation of the Due Process
Clause of the Fourteenth Amendment to the United States Constitution, and (2) on
the grounds relating to the “layered” allegation of ineffectiveness of appellate
counsel for failure to raise and argue issues on direct appeal involving conflict of
interest, specific instances of ineffective assistance of trial counsel, and incorrect
jury instmctions, in violation ofthe Fifth, Sixth, andFourteenth Amendments to the
United States Constitution. (FilingNo. 15-12 at CM/ECF p. 4; see also FilingNo.
15-11 at CM/ECF p. 13.)

on the motion. {See FilingNo. 15-14 at CM/ECF p. 20; FilingNo. 15-27 at CM/ECF
PP-.4-S.)
27

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 28 of 70 - Page ID # 5304

_____The Nebraskai>JioremeX^Qurtaffirmed-the-ludgment-ofthedistrictcoTirt in~a~
published opinion dated March 20,2015. (FilingNo. 15-2.) The Nebraska Supreme
Court found no merit to Cook’s claims that Kofoed or other investigators planted
evidence used at Cook’s trial. ('Filing No. 15-2atCM/ECFpp. 7-8.) With respect to
Cook’s layered ineffective assistance of counsel claims, the Nebraska Supreme
Court noted that, although Cook made several conclusoiy arguments in his statement
of facts regarding the sufficiency of his allegations, he provided no explanation in
the argument section of his brief for how the district court actually erred in rejecting
his layered claims or how the claims were factually sufficient (Filing No. 15-2 at
CM/ECF p. 8.) Instead, Cook argued that the Nebraska Supreme Court should
overturn the rule that precludes review of issues which were raised on direct appeal
or were known to the defendant and could have been litigated on direct appeal.
(Filing No. 15-2 at CM/ECF p. 8.) The Nebraska Supreme Court thus declined to
consider Cook’s layered ineffective assistance of counsel claims because he failed
to argue how the state district court erred in rejecting those claims and because the
argument Cook actually advanced in his brief was not specifically assigned as an
error on appeal, nor was it raised before the state district court. (Filing No. 15-2 at
CM/ECF pp. 8-9 (citingState v. Filholm, 848N.W.2d571 (Neb. 2014).)
Soucie filed a brief in support of a motion for rehearing, and, one day later,
Cook filed a pro se brief in support of a motion for rehearing. (Filing No. 15-16;
FilingNo. 15-17.) The Nebraska Supreme Court struck Cook’s pro se brief and, on
November 18, 2015, overruled the motion for rehearing. (Filing No. 15-5 at
CM/ECF pp. 2.4.)
On November 17, 2016, the state district court conducted an evidentiary
hearing on Cook’s seven remaining ineffective assistance of counsel claims. (Filing
No. 15-28 at CM/ECF p. 13.) In an order entered May 10, 2017, the state district
court rejected all his claims on the merits and denied postconviction relief. (Filing
No. 15-28 at CM/ECF pp. 13-23.) Cook appealed the state district court’s order to
the Nebraska Supreme Court. (FilingNo. 15-6.) Cook, through Soucie, filed a brief,
28

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 29 of 70 - Page ID # 5305

assigning andarguingfhatJiie-state4istr4<a-ceurt-erredTn-denvmgrhis postconviction
motion because his trial counsel was constitutionally ineffective for (1) failing to
make an offer of proof regarding Cook’s testimony about statements made by
Hombacher that was excluded as hearsay and (2) bringing to the jury’s attention the
fact that Cook was required to wear an electric restraining device (“shock belt”)
during trial. (FilingNo. 15-18 at CM/ECF pp. 14,30-47.) On October 2,2017, Cook
filed a motion for leave to file a pro se supplemental brief and two briefs in support
of his motion, addressing all seven ineffective assistance of trial counsel claims
denied after the evidentiary hearing. (FilingNo. 15-6; FilingNo. 15-19; FilingNo.
15-20: FilingNo. 15-21.)The Nebraska Supreme Court overruled Cook’s motion to
file a pro se supplemental brief. (FilingNo. 15-6 at CM/ECF p. 2.)
In a memorandum opinion entered January 17, 2018, the Nebraska Supreme
Court affirmed the judgment of the state district court. (FilingNo. 15-3.) The
Nebraska Supreme Court determined that the two ineffective assistance of trial
counsel claims at issue in the appeal were procedurally barred under Nebraska law
because they were not raised on direct appeal. (FilingNo. 15-3 at CM/ECF pp. 7-8.)
On April 12, 2018, the Nebraska Supreme Court denied Cook’s motion for
rehearing. (FilingNo. 15-6 at CM/ECF p. 3: FilingNo. 15-24: FilingNo. 15-25.)
The mandate issued on April 30,2018. (FilingNo. 15-6 at CM/ECF p. 3.)
D. Habeas Petition
Cook timely filed his habeas Petition in this court on July 13, 2018. (Filing
No. 1.) On October 22,2018, Cook requested that the court enter a stay and abeyance
of these habeas proceedings so that he could return to state court to file a successive
postconviction action to ensure exhaustion of “any potentially unexhausted claims.”

29

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 30 of 70 - Page ID # 5306

(FilingNo. 8 at CM/BCF d. 2JJZhe-CQUrt-deMod-€ook-STeQuestTji~f~Filirig1^o79.TIn
response to the Petition, Respondents filed an Answer (filing no. 22), a Brief (filing
no. 23), and the relevant state court records (filing no. 15; filing no. 16). Respondents
argue that the claims are either procedurally defaulted and/or without merit. Cook
filed briefs in response to Respondents’ Answer and Brief. (Filing No. 32; Filing
No. 33.) Respondents filed a Reply Brief. This matter is now fully submitted for
disposition.
III. OVERVIEW OF APPLICABLE LAW
Three strands of federal habeas law intertwine in this case. They are (1)
exhaustion and procedural default; (2) the deference that is owed to the state courts
when a federal court reviews the factual or legal conclusions set forth in an opinion
of a state court; and (3) the standard for evaluating a claim of ineffective assistance
of counsel. The court elaborates upon those concepts next so that it may apply them
later in a summary fashion as it reviews Cook’s claims.
A. Exhaustion and Procedural Default
As set forth in 28 U.S.C. § 2254:

8 The court reasoned that Cook’s “claims are likely procedurally defaulted,
not merely unexhausted,” because “under Nebraska law, it is highly unlikely that
[Cook] may now return to state court in order to present these claims.” (FilingNo. 9
at CM/ECF p. 2.) The court also stated that it would “not grant a stay of this matter
based solely on [Cook’s] statement that he hopes to file a subsequent postconviction
action in order to exhaust claims that may or may not be exhausted already,
particularly where it appears from his allegations that a return to state court would
be futile.” (FilingNo. 9 at CM/ECF p. 2.)
30

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 31 of 70 - Page ID # 5307

(W P An applicatioilibiia-wr-it-Qf-habeasoor-OHS-on-beh-alfofa-person
in custody pursuant to the judgment of a State court shall not be granted
unless it appears that(A) the applicant has exhausted the remedies available in the courts of
the State; or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect
the rights of the applicant.
28 U.S.C.§ 2254(b)(1).
The United States Supreme Court has explained the habeas exhaustion
requirement as follows:
Because the exhaustion doctrine is designed to give the state courts a
full and fair opportunity to resolve federal constitutional claims before
those claims are presented to the federal courts... state prisoners must
give the state courts one full opportunity to resolve any constitutional
issues by invoking one complete round of the State’s established
appellate review process.
O’Sullivanv. Boerckel, 526U.S. 838, 845 (1999).
A state prisoner must therefore present the substance of each federal
constitutional claim to the state courts before seeking federal habeas corpus relief.
In Nebraska, “one complete round” ordinarily means that each § 2254 claim must
have been presented to the trial court, and then in an appeal to either the Nebraska
Supreme Court directly9 or to the Nebraska Court of Appeals, and then in a petition

9 Where a life sentence has been imposed in a criminal case, the appeal goes
directly to the Nebraska Supreme Court. Neb. Rev. Stat. § 24-1106 (West).
31

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 32 of 70 - Page ID # 5308

for further review to theJ^obxaska-Su-preffle-Geaft-i-f-th«-0ourt~of~Appeals rules
against thepetitioner. See Akins v. Kenney, 410F.3d451,454-55 (8th Cir. 2005).
“In order to fairly present a federal claim to the state courts, the petitioner
must have referred to a specific federal constitutional right, a particular
constitutional provision, a federal constitutional case, or a state case raising a
pertinent federal constitutional issue in a claim before the state courts.” Carney v.
Fabian, 487 F.3d 1094, 1096 (8th Cir. 2007) (internal citation and quotation
omitted). Although the language neednot be identical, “[p] resenting a claim that is
merely similar to the federal habeas claim is not sufficient to satisfy the fairly
presented requirement.” Barrett v. Acevedo, 169 F.3d 1155,1162 (8th Cir. 1999). In
contrast, “[a] claim has been fairly presented when a petitioner has properly raised
the ‘same factual grounds and legal theories’ in the state courts which he is
attempting to raise in his federal habeas petition.” Wemarkv. Iowa, 322 F.3d 1018,
1021 (8th Cir. 2003) (citation omitted).
Where “no state court remedy is available for the unexhausted claim—that is,
if resort to the state courts would be futile—then the exhaustion requirement in §
2254(b) is satisfied, but the failure to exhaust ‘provides an independent and adequate
state-law ground for the conviction and sentence, and thus prevents federal habeas
corpus review of the defaulted claim, unless the petitioner can demonstrate cause
and prejudice for the default.’” Armstrong v. Iowa, 418 F.3d 924,926 (8th Cir. 2005)
(quotingGray v. Netherland, 518U.S. 152, 162(1996)).
To be precise, a federal habeas court may not review a state prisoner’s federal
claims if those claims were defaulted in state court pursuant to an independent and
adequate state procedural rule “unless the prisoner can demonstrate cause for the
default and actual prejudice as a result of the alleged violation of federal law, or
demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991). Also, a
credible showing of actual innocence may allow a prisoner to pursue his
32

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 33 of 70 - Page ID # 5309

constitutional claims QjiJlie4^^4ts^-otwitiMllTcling~the existence of a procedural bar
to relief. McQuigginv. Perkins, 569 U.S. 383, 392 (2013). To invoke the actual
innocence exception, a petitioner “must show that in light of all the evidence, ‘it is
more likely than not that no reasonable juror would have found petitioner guilty
beyond a reasonable doubt.”’ Jennings v. United States, 696 F.3d 759, 764-65 (8th
Cir. 2012) (quoting Schlup v. Delo, 513 U.S. 298, 327, (1995)). “‘[Ajctual
innocence’ means factual innocence, not mere legal insufficiency.” Id. (quoting
Bousleyv. United States, 523 U.S. 614,623 (1998)).
B. Nebraska Law Relevant to Procedural Default
Under Nebraska law, you don’t get two bites of the postconviction apple; that
is, “[a]n appellate court will not entertain a successive motion for postconviction
relief unless the motion affirmatively shows on its face that the basis relied upon for
relief was not available at the time the movant filed the prior motion.” State v. Ortiz,
670 N.W.2d 788, 792 (Neb. 2003). Additionally, “[a] motion for postconviction
relief cannot be used to secure review of issues which were or could have been
litigated on direct appeal.” Hall v. State, 646 N. W.2d 572, 579 (Neb. 2002). See also
State v. Thorpe, 858 N.W.2d 880, 887 (Neb. 2015) (“A motion for postconviction
relief cannot be used to secure review of issues which were or could have been
litigated on direct appeal, no matter how those issues may be phrased or rephrased.”);
Filholm, 848 N. W.2d at 576 (“ When a defendant’s trial counsel is differentfrom his
or her counsel on direct appeal, the defendant must raise on direct appeal any issue
of trial counsel’s ineffective performance which is known to the defendant or is
apparent from the record. Otherwise, the issue will be procedurally barred.”)
(emphasis added).
Moreover, a person seeking postconviction reliefmust present his or her claim
to the district court or the Nebraska appellate courts will not consider the claim on
appeal. State v. Deckard, 722 N. W.2d 55, 63 (Neb. 2006) (denying postconviction
relief in a murder case and stating: “An appellate court will not consider as an
33

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 34 of 70 - Page ID # 5310

assignment of error a auestioii_n.o-t-pr-esent-ed4-Q-t-h-e-di^t-riet-coQTt~fbr~disposiIion
through a defendant’s motion for postconviction relief.”) Similarly, on appeal, the
appealing party must both assign the specific error and specifically argue that error
in the brief. Otherwise the claim is defaulted under Nebraska law. State v. Henry,
875 N. W.2d 374,407 (Neb. 2016) (stating an alleged error must be both specifically
assigned and specifically argued in the brief of the party asserting the error to be
considered by an appellate court).
Note also thatNebraskahas a statute of limitations for bringing postconviction
actions that is similar to federal law. It reads:
(4) A one-year period of limitation shall apply to the filing of a verified
motion for postconviction relief. The one-year limitation period shall
run from the later of:
(a) The date the judgment of conviction became final by
the conclusion of a direct appeal or the expiration of the
time for filing a direct appeal;
(b) The date on which the factual predicate of the
constitutional claim or claims alleged could have been
discovered through the exercise of due diligence;
(c) The date on which an impediment created by state
action, in violation of the Constitution of the United States
or the Constitution of Nebraska or any law of this state, is
removed, if the prisoner was prevented from filing a
verified motion by such state action;
(d) The date on which a constitutional claim asserted was
initially recognized by the Supreme Court of the United
States or the Nebraska Supreme Court, if the newly
recognized right has been made applicable retroactively to
cases on postconviction collateral review; or
(e) August27,2011.
34

r

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 35 of 70 - Page ID # 5311

Neb. Rev. Stat. $ 29-3001(4) (West).

%

C. Deferential Standard Under 28 U.S.C. § 2254(d)
When a state court has adjudicated a habeas petitioner’s claim on the merits,
there is a very limited and extremely deferential standard of review both as to the
law and the facts. See 28 U.S.C. § 2254(d). Section 2254(d)(1) states that a federal
court may grant a writ of habeas corpus if the state court’s decision “was contraiy
to, or involved an unreasonable application of, clearly established Federal law, as
determined by the SupremeCourt ofthe United States.” 28 U.S.C. § 2254(d)(1). As
explained by the Supreme Court in Williamsv. Taylor, 529 U.S. 362 (2000), a state
court acts contrary to clearly established federal law if it applies a legal rule that
contradicts the Supreme Court’s prior holdings or if it reaches a different result from
one of that Court’s cases despite confronting indistinguishable facts. Id. at 405-06.
Further, “it is not enough for [the court] to conclude that, in [its] independent
judgment, [it] would have applied federal law differently from the state court; the
state court’s application must have been objectively unreasonable.” Rousan v.
Roper, 436 F.3d 951,956 (8th Cir. 2006).

i

•i

ri

With regard to the deference owed to factual findings of a state court’s
decision, section 2254(d)(2) states that a federal court may grant a writ of habeas
corpus if a state court proceeding “resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d)(2). Additionally, a federal court must
presume that a factual determination made by the state court is correct, unless the
petitioner “rebut[s] the presumption of correctness by clear and convincing
evidence.”28U.S.C. § 2254(e)(1).
As the Supreme Court noted, “[i]f this standard is difficult to meet, that is
because it was meant to be.” Harrington v. Richter, 562 U.S. 86, 102 (2011). The
deference due state court decisions “preserves authority to issue the writ in cases

.s;

1

35

1

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 37 of 70 - Page ID # 5313

D. The Especially Deferential Strickland Standard
When a petitioner asserts an ineffective assistance of counsel claim, thetwopronged standard of Stricklands. Washington, 466 U.S. 668 (1984), must be applied.
The standard is very hard for offenders to satisfy.
Strickland requires that the petitioner demonstrate both that his counsel’s
performance was deficient, and that such deficient performance prejudiced the
petitioner’s defense. Id. at 687. The first prong of the Strickland test requires that the
petitioner demonstrate that his attorney failed to provide reasonably effective
assistance. Id. at 687-88. In conducting such a review, the courts “indulge a strong
presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance.” Id. at 689.
The second prong requires the petitioner to demonstrate “a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. Further, as set forth in Strickland, counsel’s
“strategic choices made after thorough investigation of law and facts relevant to
plausible options are virtually unchallengeable” in a later habeas corpus action. Id
at 690.
Additionally, the Supreme Court has emphasized that the deference due the
state courts applies with special vigor to decisions involving ineffective assistance
of counsel claims. Knowles v. Mirzayance, 556 U.S. Ill (2009). In Knowles, the
Ju stices stressed that under the Strickland standard, the state courts have a great deal
of “latitude” and “leeway,” which presents a “substantially higher threshold” for a
federal habeas petitioner to overcome. As stated in Knowles-.
The question is not whether a federal court believes the state court’s
determination under the Strickland standard was incorrect but whether
that determination was unreasonable—a substantially higher threshold
And, because the Strickland standard is a general standard, a state court
37

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 38 of 70 - Page ID # 5314

.has even morelatitude-t-o-reasonablydetei'mmeThat a defendanThas not
satisfied that standard.
Id. at 123 (internal quotation marks and citations omitted).
Strickland applies equally to appellate counsel, and appellate counsel is
entitled to the “benefit of the doubt.” Woods v. Etherton, 136 S. Ct. 1149, 1153
(2016) (a “fairmindedjurist” couldhave concluded that repetition of anonymous tip
in state-court cocaine-possession trial did not establish that the uncontested facts it
conveyed were submitted for their tmth, in violation of the Confrontation Clause, or
that petitioner was prejudiced by its admission into evidence, precluding federal
habeas relief under AEDPA; Petitioner could not establish that Petitioner’s appellate
counsel was ineffective, as appellate counsel was entitled to the “benefit of the
doubt”). To demonstrate prejudice on account of appellate counsel’s failure to raise
a claim on appeal, a petitioner must show a “reasonable probability that an appeal of
[the] issue would have been successful and that the result of the appeal would
thereby have been different.” Pryor v. Norris, 103 F.3d 710, 714 (8th Cir. 1997).
The petitioner must show more than that the alleged error had some conceivable
effect on the outcome of the proceeding. Id. at 713. “ ‘Virtually every act or omission
of counsel would meet that test, and not every error that conceivably could have
influenced the outcome undermines the reliability of the result of the proceeding.’”
Id. (quoting Strickland, 466 U.S. at 693).
IV. DISCUSSION
A. Claim One
In Claim One, Cook asserts multiple instances of ineffective assistance of trial
counsel.
Cook’s trial counsel was different from his counsel on direct appeal, and
therefore he was required to raise on direct appeal any issue of trial counsel’s
38

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 39 of 70 - Page ID # 5315

in effective perform an r p wWh waeknxn^-4:rUwTvr>r wtre-app^rtan t frrmT-fhr* renorH~

See Filholm, 848 N. W.2d at 576. Cook raised seven ineffective assistance of trial
counsel claims on direct appeal. {See Filing No. 15-1 atCM/ECFp. 15; Filing No.
15-7 at CM/ECF pp. 62-68.) Claim One, Subparts (2)-(4), (11),10 and (22)11 of the
Petition include five of the seven claims that were raised on direct appeal.12 The
Nebraska Supreme Court con eluded that the record was insufficient to review them.
(Filing No. 15-1 at CM/ECF pp. 26-27.1 The claims in the remaining subparts of

10 In Claim One, Subpart (11), Cook argues that trial counsel was ineffective
for utilizing and failingto object or move for mistrial as to untried, uncharged “prior
bad acts” evidence. (Filing No. 1 at CM/ECF pp. 47-49). On direct appeal, Cook
claimed that trial counsel was ineffective for failing to object to Hoffmeyer’s
testimony and for eliciting testimony from Hombacher about Cook’s prior instances
of violence toward women. Therefore, these are the only ineffective assistance of
trial counsel claims regarding prior bad act evidence that are not procedurally
defaulted for failing to raise on direct appeal. See Filholm, 848 N. W.2d at 576. See
also Abdullah v. Groose, 75 F.3d408,412-13 (8th Cir. 1996).
11 In Claim One, Subpart (22), Cook asserts that trial counsel was ineffective
for failingto request properjury instructions. (FilingNo. 1 at CM/ECF pp. 71-74).
On direct appeal, Cook argued that trial counsel was ineffective for failing to request
a limiting instruction regarding the proper use of prior bad acts evidence involving
Hoffmeyer and Carmen. (FilingNo. 15-1 at CM/ECF p. 15.) Therefore, this is the
only ineffective assistance of trial counsel claim regarding jury instructions that is
not procedurally defaulted for failingto raise on direct appeal.
12 The five claims raised on direct appeal included allegations that trial counsel
was ineffective for (1) failing to object to the testimony of Hoffmeyer which Cook
asserted was evidence of a prior bad act; (2) eliciting testimony from Hombacher
regarding Cook’s prior incidents of violence toward women; (3) failing to request a
limiting instmetion regarding the proper use of prior bad acts evidence involving
Hoffmeyer and Carmen; (4) failingto object to O’Callaghan’s testimony regarding
a determination of probable cause when no proper foundation had been established
for such expert testimony; and (5) failing to request a continuance in order to pursue
fiber evidence which might have connected Hombacher to the crime. (FilingNo. 151 at CM/ECF p. 15: FilingNo. 15-7 at CM/ECF pp. 62-68.)
39

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 40 of 70 - Page ID # 5316

known to Cook or would have been apparent from the record (and because Cook’s
trial counsel was different from his counsel on direct appeal), Cook was required to
raise them on direct appeal. Thus, Claim One, Subparts (1), (5)-(10), (12)-(21), are
procedurally defaulted because Cook failed to raise them on direct appeal. See
Filholm, 848 N. W.2d at 576. See also Abdullah v. Groose, 75 F.3d 408,412-13 (8th
Cir. 1996).
Alternatively, Claim One, Subparts (14) and (15), are procedurally barred
from review by the adequate and independent state law ground doctrine. Although
Cook failed to raise these claims on direct appeal, he did raise them in his second
amended postconviction motion, and the state district court granted an evidentiary
hearing on the claims. (Filing No. 16-2 at CM/ECF pp. 138-39, 42.) After the
evidentiary hearing, the state district court denied the claims. (Filing No. 15-28 at
CM/ECF pp. 17-21,22-23.) In his final postconviction appeal, Cook assigned these
claims as error and argued them in hisbriefto theNebraska SupremeCourt. (Filing
No, 15-18.) The Nebraska Supreme Court determined that both claims were
procedurally barred under Nebraska law because they were not raised on direct
appeal. (FilingNo. 15-3 at CM/ECF pp. 7-8.) In light of theNebraska Supreme
Court’s “plain statement” that it was rejecting these claims on an independent and
adequate state procedural ground, the court is barred from reviewing these issues in
this habeas proceeding. See Clay v. Norris, 485 F.3d 1037, 1039 (8th Cir. 2007);
Shaddyv. Clarke, 890 F.2d 1016,1018 (8th Cir. 1989).
The court also finds that there are alternative grounds for the procedural
default of Claim One, Subparts (1), (5)-(10), (12), (13), and (16)-(21). With respect
to Subpart (20), although Cook failed to raise this claim on direct appeal, he did raise
it in his second am ended postconviction motion, and the state district court granted
an evidentiary hearing on the claim. (FilingNo. 16-2 at CM/ECF p. 139.) After the
evidentiary hearing, the state district court denied the claim. (FilingNo. 15-28 at
CM/ECF pp. 21-22.) Cook did not assign as error, argue and briefthis claim in the
40

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 41 of 70 - Page ID # 5317

Nebraska Supreme Court in the final postconviction appeal. Therefore, the claim
would be procedurally barred because it was not raised in the final postconviction
appeal. To the extent Subparts (1), (5)-(10), (12), (13), (16)-(19), and (21), were
raised in the second postconviction motion and denied without an evidentiary
hearing, Cook did not assign and argue any ineffective assistance of trial counsel
claims in the interlocutory postconviction appeal before the Nebraska Supreme
Court. Thus, these claims would be procedurally defaulted.
With respect to the claims included in Subparts (2)-(4), (11), and (22), which
Cook raised on direct appeal but the Nebraska Supreme Court declined to review
because of insufficiency of the record, Cook was requiredto reassert these claims in
his second amended postconviction motion to preserve them for federal habeas
review. See Sims v. Houston, 562 F. Supp. 2d 1066,1072 n.4 (D. Neb. 2008) (“If the
record is not sufficient to decide the claim on direct appeal, the defendant must
litigate the claim that his trial counsel was ineffective in a separate state post­
conviction action so that a proper record can be made.”); State v. Bennett, 591
N.W.2d 779,782-83 (Neb. 1999) (“Although an appellate court will not address an
ineffective assistance of counsel claim on direct appeal when the matter necessitates
an evidentiary hearing, an appellate court’s refusal to do so does not bar a later
motion for postconviction relief.”) (internal citation omitted)).
In his second amended postconviction motion, Cook reasserted the claims
included in Claim One, Subparts (11) and (22). Specifically, Cook argued that trial
counsel was ineffective for: (1) failing to object to Hoffmeyer’s testimony as
inadmissible evidence of a prior bad act and for eliciting Hombacher’s testimony
about Cook’s violence against other women; and (2) failing to request a limiting
instruction regarding the proper use of prior bad acts evidence involving Carmen.

41

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 42 of 70 - Page ID # 5318

(Filing No. 16-2 at CM/ECF pp. 15-20.)13 After an evidentiary hearing on these
claims, the state district court concluded that they were without merit. (Filing No.
15-28 at CM/ECF pp. 13-23.) Cook did not specifically assign and argue these errors
in his final postconviction appeal before the Nebraska Supreme Court. (See Filing
No. 15-18; FilingNo. 15-3.) Thus, these claims areprocedurally defaulted. Although
it is unclear whether Cook raised the issues in Subparts (2)-(4) as distinct claims in
the second postconviction motion, it is clear he never properly presented them to the
Nebraska Supreme Court on postconviction appeal. Therefore, these claims are now
procedurally defaulted.
B. Claim Two
In Claim Two, Cook asserts multiple grounds of ineffective assistance of
appellate counsel.
1. Subpart (1)
In Claim Two, Subpart (1), Cook alleges that appellate counsel was
ineffective for failing to raise on direct appeal that Kofoed planted evidence used at
Cook’s trial and Cook’s concerns that Kofoed lied on the stand. (FilingNo. 1 at
CM/ECF p. 25.) With respect to that part of the claim regarding Kofoed planting
evidence used at Cook’s trial, appellate counsel could not have been ineffective for
failing to raise this issue on direct appeal, because the evidence that Kofoed had

13 Cook did not allege trial counsel’s failure to request a limiting instruction
regarding Hoffmeyer’s testimony. (See FilingNo. 16-2 at CM/ECF pp, 15-16) As
such, that portion of Claim One, Subpart (22), is procedurally defaulted because
Cook failed to raise it in his second am ended postconviction motion. Alternatively,
the claim is procedurally barred because, even assuming this claim was raised in
some fashion in the second postconviction motion, it was never properly presented
to the Nebraska Supreme Court on postconviction appeal.
42

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 43 of 70 - Page ID # 5319

planted evidence in other investigations was not known until after Cook’s trial and
direct appeal. See State v. Edwards, 919 N.'W.2d 530 (Neb. 2018) (investigation into
Kofoed for falsifying reports and fabricating evidence began in 2008); Livers v.
Schenck, 700 F.3d 340 (8th Cir. 2012) (the FBI informed the Sheriff of Douglas
County, Nebraska in 2008 that it was investigating allegations that Kofoed was
tampering with evidence). Indeed, Cook acknowledges in his habeas Petition that
this information had not yet been discovered at the time of the direct appeal. (Tiling
No. 1 at CM/ECF p.25.1 Presumably, that is why, in the interlocutory postconviction
appeal, the Nebraska Supreme Court addressed the merits of Cook’s claim regarding
Kofoed’s alleged fabrication of evidence instead of finding that the claim was
procedurally barred because it was not raised on direct appeal.14 (Filing No. 15-2 at
CM/ECF pp. 7-8.) Accordingly, Cook’s claim that appellate counsel was ineffective
for failing to raise the issue of Kofoed planting evidence is without merit.
Cook did not raise that portion of Subpart (1) regarding Cook’s “concerns that
Kofoed lied on the stand” in his second amended postconviction motion, and he
never properly presented this issue to the Nebraska Supreme Court on
postconviction appeal. Therefore, this portion of Subpart (1) is procedurally
defaulted.
2. Subparts (3), (7), and Portions of (10)
In his second amended postconviction motion, Cook did not raise Subpart (3),
Subpart (7),15 or the portions of Subpart (10) regarding trial counsel’s failure to

14 Cook raised this claim in Claim Four, Subpart (1), which the court will
address below.
15 In Claim Two, Subpart (7), Cook alleges that appellate counsel was
ineffective for failing to raise on direct appeal all instances of improper use of
untried, uncharged “prior bad acts” evidence. (FilingNo. 1 at CM/ECF pp. 47-49.)
43

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 44 of 70 - Page ID # 5320

object or move for a mistrial when Retelsdorfelicited testimony from Jeanette Cook
that was contrary to the evidence and when the prosecution misstated the ballistic
evidence. Moreover, Cook never properly presented these claims to the Nebraska
Supreme Court on postconviction appeal. Therefore, these claims are procedurally
defaulted.
3. Subpart (5)
In. Claim Two, Subpart (5), Cook alleges that appellate counsel was
ineffective for failing to argue on direct appeal that the prosecution’s use of Cook’s
invocation of his rights to remain silent and to counsel after his arrest and to testify
on his own behalf violated the Fifth, Sixth, and Fourteenth Amendments. /Filing No.
1 at CM/ECF n. 43.)
In his second amended postconviction motion, Cook raised the underlying
issue in the context of ineffective assistance of trial counsel, not ineffective
assistance of appellate counsel. (See Filing No. 16-2 at CM/ECF pp. 29-30, 140.)
Specifically, he asserted that trial counsel was ineffective for failing to move for a
mistrial based on the prosecution’s use of Cook’s invocation of his right to remain
silent. (See Filing No. 16-2 at CM/ECF p. 140.) Ineffective assistance of appellate
counsel claims are based on different facts and law than ineffective assistance of trial
counsel claims. Therefore, Cook has not “fairly presented” Claim Two, Subpart (5),
to the Nebraska state courts, and the claim is now procedurally defaulted.
Furthermore, even assuming Subpart (5) was raised in the second postconviction and
rejected by the state district court, it was never properly presented to the Nebraska
Supreme Court in the interlocutory postconviction appeal.

Cook acknowledges that appellate counsel did raise on direct appeal that the trial
court erred in admitting the prior bad act evidence involving Hoffmeyer and Carmen.
(FilingNo. 1 at CM/ECF p. 49.)
44

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 45 of 70 - Page ID # 5321

4. Subpart (11)
In Claim Two, Subpart (11), Cook asserts that appellate counsel was
ineffective for failing to argue on direct appeal that trial counsel was ineffective for
having Cook reveal and explain to the jury the shock belt restraint system he wore
during trial. (Filing No. 1 at CM/ECF p. 64.)
In his second am ended post conviction motion, Cook raised this claim, along
with the claim that trial counsel was ineffective for having Cook show the jury his
shock belt during his direct examination of Cook (see Claim One, Subpart (15)), and
the state district court granted an evidentiary hearing “to determine whether this was
trial strategy.” (Filing No. 16-2 at CM/ECF p. 142.) After the evidentiary hearing,
the state district court denied the claim, fmdingthat trial counsel’s performance was
not deficient and that counsel’s trial strategy did not prejudice Cook. (Filing No. 1528 at CM/ECF pp. 22-23.) Cook did not raise any ineffective assistance of appellate
counsel claim related to the shock belt in the final postconviction appeal before the
Nebraska Supreme Court. (See Filing No. 15-3; FilingNo. 15-18.) Therefore, Claim
Two, Subpart (11), is procedurally defaulted.
5. Subpart (12)
In Claim Two, Subpart (12), Cook argues that appellate counsel was
ineffective for failing to raise on direct appeal trial counsel’s failure to request, and
the trial court’s failure to give, properjury instructions. (FilingNo. 1 at CM/ECF p.
71.) According to Cook, those jury instructions include an accomplice instruction,
limiting instructions involving the “prior bad act” evidence,16 possession of a

16 In his Petition, Cook acknowledges that appellate counsel did raise on direct
appeal that trial counsel was ineffective for failing to request a limiting instruction
regarding the proper use of prior bad acts evidence involving Hoffmeyer and
Carmen. (FilingNo. 1 at CM/ECF p. 49.)
45

8.18-CV-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 46 of 70 - Page ID # 5322

weapon instruction, and mental state/sexual assault/unanimous verdict instructions.
(FilingNo. 1 at CM/ECFpp. 71-74.)
In his second amended postconviction motion, Cook argued that appellate
counsel rendered ineffective assistance for failing to raise on direct appeal trial
counsel’s failure to request, and the trial court’s failure to give, an accomplice
instruction, a unanimous verdict instruction, and possession of a weapon instruction.
(Filing No. 16-2 at CM/ECF pp. 26-27. 75, 77.) The state district court denied an
evidentiary hearing on these claims. (Filing No. 16-2 at CM/ECF pp. 140,147,14849.) Cook failed to properly assign and argue these claims in the interlocutory
postconviction appeal before the Nebraska Supreme Court in violation of an
independent and adequate state procedural rule consistently applied. Therefore, they
are procedurally defaulted. Cook’s ineffective assistance of appellate counsel claims
regarding any additional jury instructions are procedurally defaulted because they
were not raised in the second am ended post conviction motion or properly presented
to the Nebraska Supreme Court on postconviction appeal.
6. Remaining Subparts of Claim Two
The state district court denied an evidentiary hearing on the remaining
subparts of Claim Two. (Filing no. 16-2 at CM/ECF pp. 128-50). These subparts are
procedurally defaulted because Cook failed to properly assign and argue these
claims in the interlocutory postconviction appeal before the Nebraska Supreme
Court in violation of an independent and adequate state procedural rule consistently
applied.

46

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 47 of 70 - Page ID # 5323

C. Claim Three
In Claim Three, Cook contends that he was denied the constitutional right to
a fair trial, due process, and effective assistance of counsel because (1) the
prosecution and trial counsel spoke to the media about the DNA evidence in Cook’s
case; (2) trial counsel failed to correct the prosecution’s inaccurate statements to the
media about the DNA evidence; and (3) appellate counsel failed to raise on direct
appeal the ineffectiveness of trial counsel and prosecutorial misconduct based on
their statementsto the media. (FilingNo. 1 atCM/ECF pp. 50-51.)
Claim Three, Subparts (1) and (2), could have been raised on direct appeal but
were not, and therefore, they are procedurally defaulted. Claim Three, Subpart (3),
is procedurally defaulted because Cook did not raise this claim in his second
amended postconviction motion before the state district court or in his briefs on
post conviction appeal to the Nebraska Supreme Court.
D. Claim Four
In Claim Four, Cook argues that he was denied his right to due process
because (1) Kofoed and other law enforcement engaged in improper collection,
handling, storage, and fabrication of evidence used at Cook’s trial (Tiling no. 1 at
CM/ECF pp. 25-33); (2) law enforcement and prosecution committed misconduct
by failing to adequately investigate Hornbacher and seek a search warrant as to
Hornbacher (filing no. 1 at CM/ECF p. 361; and (3) law enforcement violated Cook’s
right to remain silent and to consult with an attorney, contrary to Doyle v. Ohio, 426
U.S. 610 (1976) (filingno. 1 at CM/ECFp. 43).
Subparts (2) and (3) could have been raised on direct appeal but were not, and
therefore, they are procedurally defaulted. Subpart (1) was presented in one
complete round in Nebraska’s state courts. In rejecting the claim in the interlocutory
postconviction appeal, the Nebraska Supreme Court wrote:
47

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 48 of 70 - Page ID # 5324

Fabricated Evidence Claims.
Cook seeks an evidentiary hearing to prove that Kofoed fabricated
DNA evidence found in Cook’s truck. If Kofoed did indeed fabricate
evidence, that would constitute a violation of Cook’s right to due
process. A due process violation occurs when a law enforcement officer
who participated in the investigation or preparation of the prosecution’s
case fabricates evidence or gives false testimony against the defendant
at trial on an issue material to guilt or innocence.
In his motion for postconviction relief, Cook makes allegations that
Kofoed or unnamed Nebraska State Patrol investigators either crosscontaminated evidence from the crime scene into the truck or actually
planted evidence in the truck. Cook alleges that blood traces, later
determined to match Stahlecker’s DNA, and a fiber from Stahlecker’s
underwear were somehowplaced in Cook’s truck by the investigators.
He also alleges in his motion, without any factual support, that Kofoed
purchased a pair of shoes to create a bloody footprint in the tmck that
matched a footprint found at the scene of the crime.
An evidentiary hearing is not required when a motion for
postconviction relief alleges only conclusions of fact or law. We agree
with the district court that the claim of fabricated evidence is “only an
allegation involving a conclusion without any supporting facts.” As the
district court also noted, all of the evidence found inside Cook’s tmck
is easily explainable by Cook’s own version of the events. Cook
admitted that Stahlecker was inside his truck shortly before her death
and that he had sexual intercourse with Stahlecker. This would explain
the fiber from Stahlecker ’ s underwear that was found in the truck. Cook
also testified that he checked Stahlecker’s pulse after she was shot and
that he was forced to help move Stahlecker’s body across the road and
dump it over the bridge. This places Cook near the body and would
explain the bloody footprint found on the outside of the truck, along
with the traces of blood in the truck’s interior.
In State v. Edwards, a case involving a Kofoed investigation, we stated
that the allegations “would be too conclusory if [the defendant] had
simply alleged in a vacuum that a law enforcement officer fabricated
evidence to be used against him at trial without any factual allegations
48

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 49 of 70 - Page ID # 5325

upon which to base such a claim.” But we determined in that case that
the defendant’s claims warranted an evidentiary hearing when the
allegations made by the defendant were similar to Kofoed’s unlawful
conduct in two prior investigations:
[The defendant] alleged that as in the 2006 investigation
of the... murders, Kofoed found blood in an obscure part
of [the defendant’s] car after other [crime scene]
investigators had examined the car and failed to find this
evidence. The facts alleged in [the defendant’s] petition
also appear similar to the 2003 investigation in that
Kofoed allegedly submitted swabs of evidence for DNA
testing instead of submitting the evidence itself. And the
allegations suggest that Kofoed may have held physical
evidence for several days before having another
investigator test it, a pattern that is similar to his conduct
during the 2006 investigation in which he fabricated
evidence.
In this case, Kofoed and his team discovered all of the evidence during
the initial search of the truck. The blood was found on the floormat of
Cook’s truck and also on the inside and outside door panels of the
driver’s-side door, all areas of the truck which could not be classified
as “obscure.” Additionally, Kofoed had no involvement with the
investigation after he and his team completed the initial search of the
vehicle. Simply alleging Kofoed’s involvement in the investigation and
his history of fabricating evidence is not sufficient on its own to support
a claim for postconviction relief. Without more, there is no basis to
conclude, based on the record in this case, that Kofoed or any other
investigator placed this evidence in Cook’s truck, through either cross­
contamination or fabrication. The district court did not err in dismissing
these claims. Cook’s assignment of error is withoutmerit.
(TilingNo. 15-2 at CM/ECF pp. 7-8 (footnotes omitted).)
It is well established that “a conviction obtained through use of false evidence,
known to be such by representatives of the State,” violates the defendant’s right to
due process undertheFourteenth Amendment. Napue v. Illinois, 360 U.S. 264,269
49

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 50 of 70 - Page ID # 5326

(1959). See also Livers, 700 F.3d at 351 (manufacturing false evidence may shock
the conscience and can violate the Fourteenth Amendment’s due process clause);
Winslow v. Smith, 696 F.3d 716, 735 (8th Cir. 2012) (theuse of false evidence to
obtain a conviction violates due process).
Applying AEDPA’s extremely stringent standard to Claim Four, Subpart (1),
the court concludes that the Nebraska Supreme Court’s decision was not contrary to,
or an unreasonable application of, clearly established federal law, as determined by
the Supreme Court of the United States. 28 U.S.C. § 2254(d)(1). The court also finds
that the Nebraska Supreme Court’s decision was not based on an unreasonable
determination of the facts in light of the evidence presented in the state court
proceeding. As the Nebraska Supreme Court determined, Cook’s own testimony
explains the fiber and blood evidence. Specifically, Cook admitted that Stahlecker
was inside his truck shortly before her death and that he had sexual intercourse with
Stahlecker, which would explain the fiber from Stahlecker’s underwear that was
found in the truck Cook also testified that he checked Stahlecker’s pulse after she
was shot and that he was forced to help move Stahlecker’s body across the road and
dump it over the bridge. This established that Cook was near the body and would
explain the bloody footprint found on the truck’s exterior and the traces of blood
found in the tmck’s interior. The Nebraska Supreme Court also noted the distinctions
between Kofoed’s conduct in Cook’s case and Kofoed’s unlawful conduct in prior
investigations. Cook has failed to rebut the factual determinations made by the
Nebraska Supreme Court by clear and convincing evidence. Giving the deference
that is due the Nebraska Supreme Court, the court concludes there is no basis to grant
habeas relief on Claim Four, Subpart (1).

50

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 51 of 70 - Page ID # 5327

E. Claim Five
In Claim Five, Cook argues that he was denied his rights against unreasonable
search and seizure and to dueprocess because law enforcement failedto obtain valid
Iowa search or arrest warrants before arresting him in Iowa and transporting him and
his vehicle to Omaha, Nebraska without proper extradition or waiver of the same.
(Tiling No. 1 at CM/ECF p. 34.)
The Supreme Court has held that Fourth Amendment claims are not
cognizable in a federal habeas action unless the petitioner did not receive a full and
fair opportunity to litigate theFourth Amendment claim in the state courts. Stone v.
Powell, 428 U.S. 465, 494 (1976); see also Willett v. Lockhart, 37 F.3d 1265,1273
(8th Cir. 1994). Because the record shows that the Nebraska courts provided Cook
with a full and fair hearing on the matter (filing no. 15-26 at CM/ECF pp. 22-23,4749,75-76: filing no. 15-29 at CM/ECF pp. 46-94,229-244).17 and there is absolutely
no evidence to establish or reason to believe that there was an unconscionable
breakdown in the state-court mechanism for considering Cook’s Fourth Amendment
claim, this part of Claim Five is not cognizable. Alternatively, his Fourth
Amendment claim is procedurally defaulted because he could have raised it on direct
appeal but did not. Likewise, Cook’s due process claim is procedurally defaulted
because he could have raised it on direct appeal but did not.

17 Cook litigated the validity of his arrest and the search of his truck in the
state district court during a hearing on his motion to suppress and motion to quash.
(TilingNo. 15-26 at CM/ECF pp. 22-23.47-49.75-76: FilingNo. 15-29 at CM/ECF
pp. 46-94,229-244). Although Cook did not raise this claim on direct appeal, he had
the opportunity to do so, which satisfies the requirements of Stone v. Powell, 428
U.S. 465,494 (1976).
51

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 52 of 70 - Page ID # 5328

F. Claim Six
In Claim Six, Cook alleges multiple instances in which he was denied his
constitutional rights to a fair trial and due process. Cook did not raise any of these
claims in his direct appeal. As such, Cook’s grounds for relief in Claim Six are
procedurally barred in federal court.
G. Claim Seven
Claim Seven consists of multiple ineffective assistance of trial and appellate
counsel claims related to trial court error.
1. Subpart (1)
In Subpart(l), Cook argues that he was denied effective assistance of counsel
because trial andappellale counsel did not object, move for a mistrial, nor appeal the
trial court’s abuse of its judicial discretion by acting improperly and as a third
prosecutor on multiple occasions. (Filing No. 1 at CM/ECF pp. 75-76.)
The ineffective assistance of trial counsel claim is procedurally defaulted
because Cook did not raise the claim on direct appeal. Alternatively, the claim is
procedurally defaulted because, although Cook raised it in his second amended
postconviction motion and the district court denied it without an evidentiary hearing
(filing no. 16-2 at CM/ECF p. 150), Cook failed to assign and argue it in the
interlocutory postconviction appeal before the Nebraska Supreme Court.
The ineffective assistance of appellate counsel claim is procedurally defaulted
because Cook did not raise it in his second amended postconviction motion.
Moreover, even assuming the claim was asserted in the second amended
postconviction motion and denied without an evidentiary hearing, Cook failed to
properly assign and argue this claim in his brief in the interlocutory postconviction
52

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 53 of 70 - Page ID # 5329

appeal before the Nebraska Supreme Court. Because the claim was not properly
presented under state law in violation of an independent and adequate state
procedural rule consistently applied, it is procedurally defaulted.
2. Subpart (2)
In Claim Seven, Subpart (2), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by refusing to
allow Cook’s testimony about his conversation with Hombacher concerning
Stahlecker’s murder. (Filing No. 1 at CM/ECF pp. 60.75.)
Appellate counsel did raise this trial court error on direct appeal. The
Nebraska Supreme Court rejected the claim, stating that “[bjecause Cook made no
offer of proof,” it could not “find that his testimony would have met an exception to
the hearsay rule.” (Filing No. 15-1 at CM/ECF p. 16.) As such, Cook’s appellate
counsel claim is an inaccurate statement about what occurred on direct appeal, and
thus is without merit.
In his second amended postconviction motion, Cook argued that trial counsel
was ineffective for failing to make an offer of proof after the trial court refused to
allow testimony from Cook about an alleged conversation he had with Hornbacher
the day following the murder. (Filing No. 16-2 at CM/ECF pp. 20-23.1 The state
district court granted an evidentiary hearing on the issue. (Filing No. 16-2 at
CM/ECF pp. 138-39.) After the evidentiary hearing, the state district court denied
the claim. (Filing No. 15-28 at CM/ECF pp. 17-21.) Cook appealed the issue to the
Nebraska Supreme Court in the final postconviction appeal, and the Nebraska
Supreme Court concluded that the claim was procedurally barred under Nebraska
law because it was not raised on direct appeal. (Filing No. 15-3 at CM/ECF pp. 78.) Because the Nebraska Supreme Court plainly stated that it would not consider
Cook’s ineffective assistance of trial counsel claim based on an independent and
53

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 54 of 70 - Page ID # 5330

issue-in-this.
habeas proceeding. See Clay, 485 F.3d at 1039.
3. Subpart (3)
In Claim Seven, Subpart (3), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by failing to hold
hearings on the conflict of interest involving Cook’s trial counsel. (Filing No. 1 at
CM/ECFn. 75.)
The ineffective assistance of trial counsel claim is procedurally defaulted
because Cook did not raise it on direct appeal. Alternatively, the claim is
procedurally defaulted because, to the extent the claim was raised in the second
amended postconviction motion and rejected without an evidentiary hearing (filing
no. 16-2 at CM/ECF pp. 32-37). Cook did not assign and argue this claim in the
interlocutory postconviction appeal before the Nebraska Supreme Court.
To the extent that Cook raised the ineffective assistance of appellate counsel
claim in his second amended postconviction motion and that it was denied without
an evidentiary hearing (see filing no. 16-2 at CM/ECF pp. 32-37, 141-41), Cook
failed to properly assign and argue this claim in his brief in the interlocutory
postconviction appeal before the Nebraska Supreme Court. Because the claim was
not properly presented understate law in violation of an independent and adequate
state procedural rule consistently applied, it is procedurally defaulted.
4. Subpart (4)
In Claim Seven, Subpart (4), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by “crafting the
54

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 55 of 70 - Page ID # 5331

testimony of a prosecution witness—a Douglas County Sh eriff_whjom—had,
discovered the truck driven by the victim” the night she died. (Filing No. 1 at
CM/ECF p. 75.)
Cook did not raise this ineffective assistance of trial counsel claim on direct
appeal, and therefore the claim is procedurally defaulted. The ineffective assistance
of appellate counsel claim is also procedurally defaulted because it was not raised in
the second amended postconviction motion in the district court, and, alternatively,
even if it were raised in the district court, it was never presented to the Nebraska
Supreme Court on postconviction appeal.
Notwithstanding the procedural default of both claims, the court finds that
Cook’s allegation regarding the trial court “crafting” the deputy’s testimony to be
inaccurate. The record reflects that, before the deputy was called to testify, the trial
court granted the prosecutor’s oral motion in limine to exclude testimony about
certain items found in Stahlecker’s purse. (Filing No. 15-32 at CM/ECF pp. 101105.) When Cook’s trial counsel asked the deputy during cross-examination to “give
an idea of some of the personal items” found in Stahlecker’s purse, the prosecutor
objected based on the motion in limine order, and the trial court sustained the
objection and instructed the deputy that he could not testify about certain items he
found in Stahlecker’s purse. (Filing No. 15-32 at CM/ECF p. 143.) Cook’s
ineffective assistance of counsel claims are based on a mischaracterization of the
record and are without merit.
5. Subpart (5)
In Claim Seven, Subpart (5), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by overruling
defense counsel’s request for a continuance for production of Hornbacher’ s clothing
55

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 56 of 70 - Page ID # 5332

and shoes, to have forensics examinations_aompleted-on-the-items^aa44-Q4^ave4heitems brought into evidence. (FilingNo. 1 at CM/ECF pp. 31, 75.)
As Respondents point out, trial counsel did not request a continuance for
production of Hombacher’s clothing and shoes. (Filing No. 23 at CM/ECF p. 29.)
Rather, trial counsel requested that the trial court authorize the State to locate
Hornbacher’s clothes from the night of Stahlecker’s murder for Michael Auten, a
chemist from the Nebraska State Patrol Crime Lab, to compare them to the trace
evidence from Cook’s truck. (Filing No. 15-34 at CM/ECF pp. 72-73.) The trial
court denied the request. (Filing No. 15-34 at CM/ECF p. 73.) In light of the trial
court record, Respondents constme Cook’s allegation to be that the trial court abused
its discretion by denying trial counsel’s request for authorization. (Filing No. 23 at
CM/ECF p. 29.) The court agrees with this interpretation of Cook’s habeas claim.
On direct appeal, Cook raised the claim that trial counsel was ineffective for
failing to request a continuance in order to pursue fiber evidence which might have
connected Hornbacher to the crime. (FilingNo. 15-1 at CM/ECF p. 15.) This claim
is different than the claim assertedhere—that trial counsel was ineffective for failing
to object or move for a mistrial after the trial court denied his request for
authorization. Because the ineffective assistance of trial counsel claim asserted in
Subpart (5) was not raised on direct appeal, it is procedurally defaulted.
Alternatively, the claim is procedurally defaulted because, even assuming it is the
same claim that was asserted on direct appeal and again in the second amended
postconviction motion and denied without an evidentiary hearing (see filing no. 162 at CM/ECF pp. 68.145), Cook failed to assign and argue this claim in his brief in
the interlocutory postconviction appeal before theNebraska Supreme Court.
To the extent Cook alleged in his second amended postconviction motion that
appellate counsel was ineffective for failing to raise on direct appeal that the trial
court abused its discretion in denying his request for authorization (see filing no. 162 at CM/ECF p. 68), the claim is procedurally barred because he failed to assign and
56

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 57 of 70 - Page ID # 5333

argue it in the interlocutoiy postconviction appeal before the Nebraska Supreme
Court.
6. Subpart (6)
In Claim Seven, Subpart (6), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by allowing the
jury to hear “prior bad act” evidence. (FilingNo. 1 at CM/ECF pp. 75-76.)
The ineffective assistance of trial counsel claim is procedurally defaulted
because, depending on the specific prior bad act evidence, Cook either did not raise
it on direct appeal (see filingno. 15-1) or did not specifically assign and argue it in
his final postconviction appeal before the Nebraska Supreme Court (see filing no.
1548).:18
Cook’s ineffective assistance of appellate counsel claim related to the prior
bad act evidence19 is also procedurally defaulted becausehe did not raise the claim
in the second am ended postconviction motion. Moreover, even assuming the claim
was raised in the second amended postconviction motion and denied without an
evidentiary hearing, it was not properly assigned as error and argued and briefed in
the interlocutory postconviction appeal before the Nebraska Supreme Court.
Therefore, the claim is procedurally defaulted because it was not properly presented
under state law in violation of an independent and adequate state procedural mle
consistently applied.

18 See also Claim One, Subpart (11), supra.
19 See footnote 15, supra.
57

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 58 of 70 - Page ID # 5334

7. Sub part (71
In Claim Seven, Subpart (7), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by failing to hold
the Rape Shield Law hearing in camera and refusing defense counsel’s request for a
continuance. (Filing No. 1 at CM/ECF pp. 44-45,76.)
Cook did not raise the ineffective assistance of trial counsel claim on direct
appeal. Therefore, the claim is procedurally defaulted. Alternatively, the claim is
procedurally defaulted because, to the extent it was raised in the second amended
postconviction motion and rejected without an evidentiary hearing (see filing no. 162 at CM/ECF pp. 78-79,149), it was not properly assigned as error and argued and
briefed in the interlocutory postconviction appeal before the Nebraska Supreme
Court.
Cook raised a layered ineffective assistance of counsel claim on this issue in
his second amended postconviction motion,20 but he did not allege ineffective
assistance of appellate counsel regarding trial court error on this issue. (Filing No.
16-2 at CM/ECF pp. 78-79.) Therefore, this claim is procedurally defaulted.
Alternatively, this claim is procedurally defaulted because, even assuming the same
ineffective assistance of appellate counsel claim was raised in the second amended
postconviction motion and denied without an evidentiary hearing, it was not properly

20 The court is prohibited from reviewing any layered ineffective assistance of
counsel claim regarding the Rape Shield hearing because the Nebraska Supreme
Court refused to consider any of Cook’s layered ineffective assistance of counsel
claims in the interlocutory postconviction appeal based on an adequate and
independent state law ground (filing no. 15-2 at CM/ECF p. 8). See Clay, 485 F.3d
at 1039.
58

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 59 of 70 - Page ID # 5335

assignjsd^as.erroiiand-ai^ued-and-briefed-inTheinterlocPtory postconviction appeal
before the Nebraska Supreme Court.
8. Subpart (8)
In Claim Seven, Subpart (8), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuseof its judicial discretion by failing to grant
a directed verdict on the issue of sexual assault. (Filing No. 1 at CM/ECF pp. 7576.)
Cook’s claims seem to ignore or mischaracterize what occurred during the
trial and appellate proceedings. During trial, at the end of the State’s case, Cook’s
counsel moved the court for dismissal of “the action against the defendant on the
first degree sexual assault,” which was not a separate charge but, instead, the
underlying felony for the first degree murder charge under the alternative felony
murder theory. (FilingNo. 15-35 at CM/ECF pp. 142-43.) The trial court overruled
the motion. (FilingNo. 15-35 at CM/ECF p. 143.) At the end of all the evidence,
Cook renewed his motion and the trial court again overruled it. (FilingNo. 15-36 at
CM/ECF p. 83.) On direct appeal, appellate counsel argued that the trial court erred
when it denied trial counsel’s motion for a directed verdict. (FilingNo. 15-1 at
CM/ECF pp. 18-20.) The Nebraska Supreme Court rejected the claim on the merits.
As trial and appellate counsel did in fact raise the issue that Cook claims they did
not, Cook’s ineffective assistanceof counsel claims are without merit. Furthermore,
because Cook was not separately charged with first degree sexual assault, trial
counsel was not ineffective for failing to move for a directed verdict on a non­
existent charge, and appellate counsel was not ineffective for failing to raise this
meritless issue on direct appeal.
In his Petition, Cook did not assert an independent constitutional claim based
on the trial court’s denial of his motion for a directed verdict. Nonetheless, in his
59

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 60 of 70 - Page ID # 5336

response to ResDondentslAn-SW-er-v-CQok-aBBeafs-t-o-be-chaHeTTgiTigthe Nebraska state courts’ rulings on this issue. (See Filing No. 32 at CM/ECF pp. 45-46.) Out of
an abundance of caution, the court will address whether the Nebraska Supreme
Court ’ s decision was contrary to, or involved an unreasonable application of, clearly
established federal law, or involved an unreasonable determination of the facts in
light of the evidence.
In its opinion on direct appeal, the Nebraska Supreme Court wrote:
For his second assignment of error, Cook asserts that the district court
erred in denying his motion for a directed verdict on a portion of the
State’s charges against him. In particular, Cook argues that the evidence
with respect to sexual assault as a predicate for felony murder was not
sufficient to establish that sexual penetration was without consent. We
conclude that the evidence was sufficient to submit the charges to the
jury and that therefore, the district court did not err in overruling Cook’s
motion for directed verdict.
Cook argues that the district court should have directed a verdict on the
felony murder theory of first degree murder because the State failed to
put on evidence that Cook’s sexual intercourse with Stahlecker was
without consent The State argues that there was sufficient evidence to
support submitting an instruction on felony murder based on sexual
assault to the jury and notes evidence that Cook had numerous scrapes
on his arms and hands and that in addition to the gunshot wounds,
Stahlecker had numerous injuries, some defensive, on her hands, arms,
legs, and toes. The State also notes that Cook gave differing stories as
to how he received his wounds. He told Jeanette that he sustained the
injuries in a fight but told her to tell others that he sustained the injuries
in a fall from his mountain bike. Further, Cook testified at trial that he
sustained the injuries when he tripped over a median on Highway 275
while fleeing from Hombacher. The State argues that the wounds to
both Cook and Stahlecker and Cook’s attempts to cover up the cause of
his injuries could lead a jury to infer that there was a struggle between
Cook and Stahlecker and a sexual assault.

60

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 61 of 70 - Page ID # 5337

In a criminal
a
verdict only"when there hTa"
complete failure of evidence to establish an essential element of the
crime charged or the evidence is so doubtful in character, lacking
probative value, that a finding of guilt based on such evidence cannot
be sustained. State v. Segura, 265 Neb. 903,660 N. W.2d512 (2003). If
there is any evidence which will sustain a finding for the party against
whom a motion for directed verdict is made, the case may not be
decided as a matter of law, and a verdict may not be directed. Id.
We conclude that the evidence in the present case was sufficient to
prevent a directed verdict on the felony murder charge. The evidence
noted by the State with respect to the element that sexual penetration
be without consent was sufficient to support a jury finding that sexual
intercourse was without consent and was instead a product of sexual
assault, thus precluding a directed verdict. The jury could reasonably
infer that the injuries indicated that the sexual intercourse between
Cook and Stahlecker was without Stahlecker’s consent. There was not
a complete failure of evidence to establish the underlying felony of
sexual assault as an element of felony murder, and the jury could
reasonably have found Cook guilty of first degree murder under a
felony murder theory. The district court therefore did not err in rejecting
Cook’s motion for directed verdict, and we reject Cook’s second
assignment of error.
(TilingNo. 15-1 atCM/ECFpp. 18-20.)
In this case there was more than sufficient evidence to deny a motion for a
directed verdict and submit the question to the jury. As the United States Supreme
Court stated in Jackson v. Virginia, 443 U.S. 307, 319 (1979), the governing
standard for this claim is “whether after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.” That standard was met by the
Nebraska Supreme Court in this case. Its decision was not contrary to, and did not
involve an unreasonable application of, clearly established federal law, as
determined by the Supreme Court of the United States; nor was its decision based
61

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 62 of 70 - Page ID # 5338

on an unxeasQnable-dctenninatronmfthTrfaets~in Fight of the evidence presehted’in
the state court proceeding. See 28 U.S.C. § 2254(d).
9. Subpart (9)
In Claim Seven, Subpart (9), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by suppressing
the testimony of Deputy Sellers and multiple pieces of evidence due to its
misinterpretation of the Rape Shield Law. (FilingNo. 1 at CM/ECF pp. 45-46, 76.)
Cook did not raise the ineffective assistance of trial counsel claim on direct
appeal, and therefore this claim is procedurally defaulted
Cook did raise the ineffective assistance of appellate counsel claim in his
second amended postconviction motion (filing no. 16-2 at CM/ECF pp. 27-28), and
the state district court denied the claim without an evidentiary hearing ((filing no.
16-2 at CM/ECF p. 140). Cook failed to properly assign and argue this claim in the
interlocutory postconviction appeal before the Nebraska Supreme Court. Therefore,
this claim is procedurally defaulted because it was not properly presented under state
law in violation of an independent and adequate state procedural rule consistently
applied.
10. Subpart (10)
In Claim Seven, Subpart (10), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by failing to
properly instruct the jury. (FilingNo. 1 at CM/ECF pp. 71. 75.)

62

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 63 of 70 - Page ID # 5339

_____ As-previously-set forthin CiainrOnerSubparr(22),lhe ineffective assistance
of trial counsel claim is procedurally defaulted because, depending on the specific
jury instmction, Cook either did not raise it on direct appeal (see filing no. 15-D, in
his second amended postconviction motion, or in his final postconviction appeal
before the Nebraska Supreme Court (see filing no. 15-18).
As previously set forth in Claim Two, Subpart (12), the ineffective assistance
of appellate counsel claim is procedurally defaulted because, depending on the
specific jury instruction, Cook either did not raise the claim in his second amended
postconviction motion or did not properly assign and argue the claim in the
interlocutory postconviction appeal before the Nebraska Supreme Court in violation
of an independent and adequate state procedural rule consistently applied
11. Subpart (11)
In Claim Seven, Subpart (11), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by partially
excluding a letter from Jeanette Cookto Cook. (FilingNo. 1 at CM/ECF p. 75.)
Trial counsel attempted to introduce the contents of Jeanette’s letter into
evidence at trial, but the trial court sustained the State ’ s obj ection to the letter on the
grounds of hearsay and irrelevance. (TilingNo. 15-33 at CM/ECF pp. 174-76.185;
FilingNo. 15-41 at CM/ECF p. 101.) On direct appeal, appellate counsel argued that
the trial court erred in excluding the letter, but the Nebraska Supreme Court rejected
the claim on themerits. (FilingNo. 15-1 at CM/ECF pp. 21-22.) Cook’s ineffective
assistance of counsel claims seem to ignore or mischaracterize what occurred during
the trial and appellate proceedings. Because trial and appellate counsel did in fact
raise the issue that Cook claims they did not, Cook’s ineffective assistance of counsel
claims are without merit.

63

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 64 of 70 - Page ID # 5340

_____ In-his-PetitioHrGook-didTiot'assert arrin dependent constitutional claim based'
on the trial court’s exclusion of Jeanette Cook’s letter. Nonetheless, in his response
to Respondents’ Answer, Cook argues that he “was entitled to explore this evidence
under his right to dueprocessandrighttopresentadefense [under] the 5th, 6th and
14th Amendments ofthe U. S. Con stitution.”(S'ee Filing No. 32 at CM/ECF pp. 4950.) Cook did not raise at trial or on direct appeal any independent federal
constitutional claim withrespectto Jeanette Cook’s letter.21 Rather, Cook raised the
issue understate law hearsay and relevancy grounds. The Nebraska Supreme Court
resolved the claim as follows:
As his fourth assignment of error, Cook asserts that the district court
erred in disallowing evidence of the contents of the letter written to
Cook by Jeanette. We conclude that Cook has demonstrated no
exception to the hearsay rule which would allow admission ofthe letter.
Cook argues it was error to refuse to admit the letter into evidence
because the letter was relevant to assess Jeanette’s credibility and it
gave evidence of Cook’s relationship and history with Hombacher
which would explain Cook’s actions in covering up for Hombacher
after Hombacher allegedly killed Stahlecker. Cook argues that the letter
was not hearsay because it was not offered to prove the truth of the
matters asserted but to prove that the statements were made.
We agree with the State’s argument that the letter was hearsay and that
Cook has demonstrated no exception to the hearsay rule that would
allow its introduction into evidence. “Hearsay” is defined in § 27801(3) as “a statement, other than one made by the declarant while
testifying at the trial or hearing, offered in evidence to prove the truth
of the matter asserted,” and Neb. Rev. Stat. § 27-802 (Reissue 1995)
provides that hearsay is not admissible except as provided by other
rules. Although Cook argues the letter was not hearsay, the only

21 Such federal claim is arguably procedurally defaulted because it was not
“fairly presented” to the Nebraska state courts. See Wemarkv. Iowa, 322 F.3d 1018,
1021 (8th Cir. 2003).
64

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 65 of 70 - Page ID # 5341

^paren t-purpose-for-admittingfheTefter as evidence was to prove the
truth of the matters asserted regarding the nature and history of Cook’s
friendship with Hombacher. There was no apparent purpose in proving
the mere fact that Jeanette was the author of the letter, particularly
considering that the letter was never given to Cook and therefore could
not have affected his actions. Further, the letter does not appear relevant
to assessing Jeanette’s credibility because Cook has demonstrated no
inconsistency between statements she made in the letter and statements
she made at trial. We therefore conclude the district court did not err in
sustaining the State’s objection to the letter, and we reject Cook’s fourth
assignment of error.
(Tiling No. 15-1 at CM/ECFpp. 21-22.1
The Nebraska Supreme Court’s resolution of Cook’s claim was not based on
an unreasonable determination ofthe facts in light of the evidence or an unreasonable
application of clearly established federal law. 28 U.S.C. § 2254(d)(1) and (2). See
Ellis v. Norris, 232 F.3d 619, 622 (8th Cir. 2000) (federal habeas court must defer
to state court’s interpretation of state law), cert, denied, 532 U.S. 935 (2001);
Richardson v. Bowersox, 188 F.3d 973, 979-81 (8th Cir. 1999) (state court’s
“holding on a matter of state evidentiary law is not grounds for federal habeas relief
unless it was so unfair as to constitute a denial of due process”), cert, denied, 529
U.S. 1113 (2000). Accordingly, Cook is entitled to no relief based on the claims he
presented to the Nebraska Supreme Court.
12. Subpart (12)
In Claim Seven, Subpart (12), Cook argues that he was denied effective
assistance of counsel because trial and appellate counsel did not object, move for a
mistrial, nor appeal the trial court’s abuse of its judicial discretion by refusing to
allow up to five defense witnesses to give relevanttestimony to thejury that directly
contradictedHornbacher’s testimony. (FilingNo. 1 atCM/ECF pp. 75-76.)

65

8:18-cv-00332-RGK-PRSE Doc #42 Filed: 05/18/20 Page 66 of 70 - Page ID # 5342

_____Cook-did-n-ot-raise-t-h-e-ineffective^assiEtaiTCe^flria] counsel claim on direct
appeal, and therefore this claim is procedurally defaulted. Alternatively, the claim is
procedurally defaulted because, to the extent Cook raised it in his second amended
postconviction motion and it was denied without an evidentiary hearing (filing no.
16-2 at CM/ECF pp. 56-60, 1451, he failed to properly assign and argue it in the
interlocutory postconviction appeal before the Nebraska Supreme Court.
Cook raised the ineffective assistance of appellate counsel claim in his second
amended postconviction motion. (FilingNo. 16-2 at CM/ECF pp. 56-60.)However,
Cook failed to properly assign and argue this claim in the interlocutory
postconviction appeal before the Nebraska Supreme Court. Therefore, this claim is
procedurally defaulted because it was not properly presented under state law in
violation of an independent and adequate state procedural rule consistently applied.
H. Motion to Alter or Amend
Cook asserts that his claims are not procedurally defaulted because most of
the claims were raised in his motion to alter or amend the June 27,2012 state district
court order denying an evidentiary hearing on most of his postconviction claims.
(See generally FilingNo. 32; FilingNo. 33.) The state district court overruled
Cook’s motion to alter or amend. (FilingNo. 15-27 at CM/ECF p. 6.) Thus, Cook’s
motion to alter or amend does not save the procedural default of any of Cook’s
habeas claims.
I. Pro Se Supplemental Briefs in Postconviction Appeals
Cook argues that his claims are not procedurally defaulted because they were
raised in his pro se supplemental briefs in the postconviction appeals. (See, e.g.,
FilingNo. 1 at CM/ECF pp. 22. 24.)

66

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 67 of 70 - Page ID # 5343

____ In theinterlocutoiy postcon victton appealTCookneverpFoperlyTiled a pro se
supplemental brief. Rather, Cook filed a motion for leave to file a pro se
supplemental brief (filingno. 15-13), and the Nebraska Supreme Court overruled his
motion without prejudice (filing no. 15-5 at CM/ECF p. 1). Despite an opportunity
to do so, Cook never filed a pro se supplemental brief or filed another request to file
such brief before the Nebraska Supreme Court issued its opinion in the interlocutoiy
postconviction appeal. Instead, Cook attached a copy of his pro se supplemental brief
to his pro se brief in support of a motion for rehearing of the Nebraska Supreme
Court’s decision. (Filing No. 15-17.) The court struck Cook’s pro se brief and
overruled the motion for rehearing. (Filing No. 15-5 at CM/ECF pp. 2, 4.) In the
final postconviction appeal, the Nebraska Supreme Court overruled Cook’s motion
for leave to file a pro se supplemental brief. (Filing No. 15-6 at CM/ECF p. 2.)
Thus, the record demonstrates that the claims in Cook’s pro se supplemental
briefs were never properly presented to, or considered by, the Nebraska Supreme
Court in the postconviction appeals. Accordingly, Cook cannot rely on his pro se
supplemental briefs to overcome the procedural default of any habeas claims.
J. Cause and Prejudice
1. Ineffective Assistance of Appellate Counsel
To the extent Cook argues that the procedural default should be excused
because counsel was deficient in failing to raise the constitutional claims on direct
appeal, “[a] claim of ineffective assistanceof counsel must be presented to the state
court as an independent claim before it may be used to establish cause for procedural
default or denominated as a ground for habeas relief.” Leggins v. Lockhart, 822 F.2d
764,768 n.5 (8th Cir. 1987). An ineffective assistanceof counsel claim asserted as
cause for another procedurally defaulted federal claim can itself be procedurally
defaulted, and, unless the state prisoner can satisfy the cause and prejudice standard
for the procedurally defaulted ineffective assistance of counsel claim, that claim
67

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 68 of 70 - Page ID # 5344

•r-eanft-ot-serve-as-caiise~for another procedurally defaulted claim. Edwards v.
Carpenter, 529U.S. 446,451-53 (2000).
As discussed above, Cook did not properly present any ineffective assistance
of appellate counsel claims to the Nebraska Supreme Court in either postconviction
appeal. Therefore, Cook cannot establish cause for the procedural default of any of
his claims based on ineffective assistance of appellate counsel.
2. Ineffective Assistance of Postconviction Counsel
Cook argues that the ineffectiveness of his postconviction counsel excuses
any procedural defaults pursuant to Martinezv. Ryan, 566U.S. 1 (2012). {See, e.g.,
Filing No. 1 at CM/ECF pp. 20-23: Filing No. 32 at 4-6. 10,18, 20-29. 33, 38-41,
44,47-48, 51, 53: FilingNo. 33 at CM/ECF p. 2; see also Filing No, 10 at CM/ECF
ILi.)
Martinez's narrow exception to the procedural default doctrine does not save
any of Cook’s defaulted claims. In Martinez, the Supreme Court held that
“[inadequate assistance of counsel [or the absence of counsel] at initial-review
collateral proceedings may establish cause for a prisoner’s procedural default of a
claim of ineffective assistance at trial.” 566 U.S. at 9. However, the Martinez
exception applies only to defaulted claims of in effective assistance of trial counsel,
not to any other kind of trial error or to ineffective assistance of direct-appeal
counsel. Davilav. Davis, 137 S. Ct. 2058,2065 (2017) (emphasizing that Martinez
“provides no support for extending its narrow exception to new categories of
procedurally defaulted claims”); Dansby v. Hobbs, 766 F.3d 809, 832-34 (8th Cir.
2014). Furthermore, the Supreme Court’s Martinez decision regarding ineffective
assistance of postconviction counsel and the fact that under limited circumstances
the ineffectiveness of postconviction counsel may provide cause for a default does
not apply here because Nebraska’s collateral review process was not the first
opportunity Cook had to raise the ineffective assistance of trial counsel claims as
68

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 69 of 70 - Page ID # 5345

Cook hadjSjepar-ate^oHnsef-en-t-h^-direct-nppeffl^^nD^mT^v, 706 F.3d at. 834; Pigep.
v. Frakes, No. 4:17CV3157,2018 WL 2120326, at *6 & n.3 (D. Neb. May 8,2018).
K. Fundamental Miscarriage of Justice
Finally, Cook has failed to excuse his defaulted claims by showing that there
would be a fundamental miscarriage of justice if the court does not consider the
claims.
To establish a fundamental miscarriage of justice, a petitioner must “show,
based on new evidence, that a constitutional violation has probably resulted in the
conviction of one who is actually innocent.” Brownlow v. Groose, 66 F.3d 997, 999
(8th Cir. 1995) (quoting Schlup, 513 U.S. at 327). To obtain review of an otherwise
procedurally barred claim based on actual innocence, a petitioner must satisfy a twopart test: (1) the “allegations of constitutional error must be supported with new
reliable evidence not available at trial”; and (2) “it is more likely than not that no
reasonable juror would have convicted him in light of the new evidence.” Nash v.
Russell, 807 F.3d 892, 899 (8th Cir. 2015) (citingSchlup, 513 U.S. at 327-28);
accordAmrine v. Bowersox, 238 F.3d 1023,1029 (8th Cir. 2001). Actual innocence
means factual innocence, not legal innocence or legal insufficiency. Narcisse v.
Dahm, 9 F.3d 38, 40 (8th Cir. 1993). The Eighth Circuit has determined that the
actual innocence “standard is strict; [and] a party generally cannot demonstrate
actual innocence where there is sufficient evidence to support a conviction.”
Wadlington v. United States, 428 F.3d 779, 783 (8th Cir. 2005).
Cook has presented no new, reliable evidence of actual innocence in this case.
He provides no “exculpatory scientific evidence, trustworthy eyewitness accounts,
or critical physical evidence,” Schlup, 513 U.S. at 324, to demonstrate his claim’s
credibility. Moreover, there is no indication that any of the evidence he has presented
is new information that “was not available at trial and could not have been
discovered earlier through the exercise of due diligence.” Amrine, 238 F.3d at 1028.
69

8:18-cv-00332-RGK-PRSE Doc # 42 Filed: 05/18/20 Page 70 of 70 - Page ID # 5346

Indeed,- Cook does nothing more tJian rehash the evidence and arguments presented
at trial. The court has carefully examined the record; the evidence was sufficient to
convict Cook beyond a reasonable doubt. Thus, the court finds Cook has not satisfied
the requisite elements to excuse his procedurally defaulted claims through any
“gateway” claim of actual innocence.
V. CERTIFICATE OF APPEALABILITY
A petitioner cannot appeal an adverse ruling on his petition for writ of habeas
corpus under § 2254 unless he is granted a certificate of appealability. 28 U.S.C. §
2253(c)(1); 28 U.S.C. § 2253(c)(2); Fed. R. App. P. 22(b)(1). The standards for
certificates (1) where the district court reaches the merits or (2) where the district
court rules on procedural grounds are set forth in Slack v. McDaniel, 529 U.S. 473,
484-85 (2000). The court has applied the appropriate standard and determined that
Cook is not entitled to a certificate of appealability.
IT IS THERFORE ORDERED that:
1. The Petition for Writ of Habeas Corpus (filing no. II is denied and
dismissed with prejudice. No certificate of appealability has been or will be issued.
2. Petitioner’s pending motion for discovery (filing no. 41) is denied as moot.
3. Judgment will be issued by separate document.
Dated this 18th day of May, 2020.
BY THE COURT:
&A

Richard G. Ko
Senior United States District Judge
70

8:18-cv-00332-RGK-PRSE Doc # 43 Filed: 05/18/20 Page 1 of 1 - Page ID # 5347

FOR THE DISTRICT OF NEBRASKA
RICHARD K. COOK,
Petitioner,

8:I8CV332

vs.
JUDGMENT
BRAD HANSEN, Warden - TSCI;
SCOTT FRAKES, Director - Nebraska;
and DEP ARTMENT OF
CORRECTIONAL SERVICES,
Respondents.
Pursuant to the Memorandum and Order entered this date, the Petition for Writ
of Habeas Corpus is denied and dismissed with prejudice, and the court will not issue
a certificate of appealability in this matter.
Dated this 18th day of May, 2020.
BY THE COURT:

j

Richard G. Ko
Senior United States District Judge

appendix d

1

JAN 17 2flig
State

of Nphr-asJca-r

)
)

No. S-17-567.

)
)
)

Memorandum Opinion
and
Judgment on Appeal

Appellee,

v.
Richard K. Cook,
Appellant.

Heavican, C.J., Miller-Lerman, Cassel, Stacy, Kelch and Funke, JJ.

Stacy, J.
After an evidentiary hearing, the district court for Douglas
County denied Richard Cook's motion for postconviction relief.
Cook appeals, assigning it was error to deny two of his claims of
ineffective assistance of trial counsel.
claims

are

procedurally

barred,

we

Because we find both

affirm

the

denial

of

postconviction relief.
BACKGROUND
In 2001, a jury found Cook guilty of first degree murder and
use of a firearm to commit a felony. The district court sentenced
him to

life

imprisonment

on

the murder

consecutive term of 49.5 to 50 years'
conviction.

conviction,

and

to

a

imprisonment on the use

This court affirmed his conviction and sentence on

direct appeal.1 The facts regarding Cook's crimes were detailed in
our opinion on direct appeal.
relevant

We set out here only the

facts

to the two claims of ineffective assistance of trial

State v. Cook, 266 Neb. 465, 667 N.W.2d 201 (2003).
1

LU
X
Q
Z
111
Q.
D.
<

CertifieW^psWQl

.counsel

at

issue

in this appeal:

(1)

Cook's

claim that trial

counsel was ineffective for bringing to the jury's attention the
fact that Cook was required to wear an electric restraining device
("shock belt")
counsel was

during

trial;

and

(2)

Cook's

claim that

trial

ineffective for failing to make an offer of proof

regarding testimony that was excluded as hearsay.
Both these claims of ineffective assistance of counsel were
raised in Cook's operative postconviction motion, which was filed
on his behalf by appointed counsel. The operative postconviction
motion was 71 pages long and presented 35 separate claims.
The trial court granted an evidentiary hearing on some of
Cook's 35 claims, including the two at issue in this appeal, but
denied a hearing on the remaining postconviction claims.

Cook

appealed the denial of an evidentiary hearing on some claims, and
this court affirmed.2 The district court then held an evidentiary
hearing on Cook's remaining claims of ineffective assistance of
counsel.

What

follows

is

the

evidence

and procedural

history

related to the two claims at issue in this appeal.
Shock Belt
During his criminal trial, Cook was required to wear a shock
belt while he was in the courtroom. Near the beginning of Cook's

2 State v. Cook, 290 Neb. 381, 860 N.W.2d 408 (2015).
2

Certified Page 2 of 11

-y—br-ough-fe—the—sh-oe-k—be-l-t

te^irrmorryT—eook/-s-

attention of the jury in the following colloquy:
Q-

I want to ask you, sir, are you slightly nervous here

today.
A.

Yes, I am.

In addition to the ordinary nervousness of testifying in
Q.
a case like this, are there some other reasons why you're
nervous, sir?
A.

Yes.

Q.

Are you restrained right now, sir?

A.

Yes, I am.

Q.

Can you show the jury what you mean by restrained?

A.

Yeah. I need to get up to do that and take my coat off.

This

is

a

restraining

device

that

has

50, 000

amps

of

electricity that can be pumped through me if I make any sudden
movements.
Q.

All right. Is that a comfortable thing to wear, sir?

A.

Not at all.

Q.

Since your arrest on May 2nd, have you been at liberty,

sir,

or have you been at the Douglas County Correctional

Center?
A.

I have been at the Douglas County Correctional Center

for the past almost one year.

In Cook's postconviction motion,

he alleged trial counsel

provided ineffective assistance by having him show the shock belt
to the jury. Although Cook was represented by different counsel on

3

Certified Page 3 of 11

-appea-l-—clalm_of ineffective assistance of trial counsel
was raised in Cook's direct appeal.
At the evidentiary hearing on Cook's postconviction motion,
Cook's trial counsel explained that his trial strategy turned on
Cook's credibility. To help explain why Cook might appear nervous
while testifying at trial, he had Cook show the jury his shock
belt.

Specifically,

trial

counsel

testified that

"if the jury

believes Mr. Cook, we win the case. And I wanted the jury to know
that there is a reason why Mr. Cook might appear to be fidgeting,
that he might not be comfortable . .

. that he might be nervous."

Cook's trial counsel testified that Cook was fully aware of and
agreed with the plan to show the shock belt to the jury.
The district court denied postconviction relief on Cook's
claim that trial counsel was ineffective for showing the jury his
shock belt. The court found this was a reasonable trial strategy,
and further found that even if it could be considered deficient,
Cook "did not

suffer any prejudice on this

issue because the

observation of his shock belt was very brief and he was otherwise
dressed in street clothes during the course of the trial."
Offer
During his criminal trial,

of

Proof
Cook wanted to testify about a

conversation he had with Michael Hornbacher on the morning after
the murder. Hornbacher was one of the State's key witnesses. Cook
and Hornbacher had been together on the evening of the murder, and
4

Certified Page 4 of 11

■ea-ek—eiaj-mpd fhp other was responsible for killing the victim.
When Cook's counsel attempted to elicit testimony from Cook about
the trial

Hornbacher's statements the morning after the murder,
court

the

sustained

State's

hearsay

objection.

Cook's

trial

counsel did not make an offer of proof regarding the excluded
testimony.
On direct appeal, represented by different counsel, Cook did
not claim that trial counsel was ineffective for failing to make
an offer of proof.

However, Cook did assign error to the trial

court's exclusion of his conversation with Hornbacher, arguing the
testimony was not hearsay and should have been received,

Cook

conceded on direct appeal that his trial attorney had not made an
offer

of

proof,

but

argued

this

court

could

review

the

admissibility of the testimony anyway because the substance of the
proposed

testimony

was

apparent

from

the

context

of

the

questioning. This court disagreed, and found that without an offer
of proof, we could not determine whether Cook's proposed testimony
would have satisfied any exception to the hearsay rule.3
At the evidentiary hearing on Cook's postconviction motion,
his trial counsel conceded that when Cook's proposed testimony
regarding

his

conversation

with

Hornbacher

was

excluded

3 See Cook, supra note 1.

5

Certified Page 5 of 11

as

hearsay; h e" -d-i'd-n'O-t—m-a-k-e-an-o-M-ei:—o^—p^-e-of-.-No-sfie c-i-fcl-c-e^pl-aJiaJ:±Q-Q
was given for this decision.
The district court resolved this claim under the prejudice
prong of the Strickland v.

Washington4 test,

finding that Cook

suffered no prejudice from his trial counsel's failure to make an
offer of proof. The court concluded that Cook's testimony would
have been admissible,
which

testimony,
examination.
have

been

was

only to impeach Hornbacher's

if at all,

accomplished

already

through

cross-

It also reasoned that the contested evidence would

cumulative,

and noted

Cook was

allowed

to

testify

extensively about his version of events, which included testimony
that

Hornbacher

committed

the

statements made by Hornbacher.

murder

and

included

certain

Only Cook's testimony about his

conversation with Hornbacher the day after the murder was excluded.
The district court ultimately denied postconviction relief on
all of Cook's claims. Cook timely appealed.
ASSIGNMENTS OF ERROR
Cook assigns the district court erred in failing to grant
postconviction relief based on: (1) "the ineffective assistance of
counsel in failing to make an offer of proof regarding Mr. Cook's
testimony

about

statements

made

by

Hornbacher

after

hearsay

-1 Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d

674 (1984) .
6

Certified Page 6 of 11

■efe-j-ee-t-i-o-n-s—by—

!' .

■o-f-

counsel in directing Mr. Cook to expose the shock belt restraint
to the jury during his testimony."
STANDARD OF REVIEW
On appeal from a proceeding for postconviction relief,

the

trial court's findings of fact will be upheld unless such findings
are clearly erroneous,5 while an appellate court

independently

resolves questions of law.6
Whether a claim raised in a postconviction proceeding is
procedurally barred is a question of law, which an appellate court
reviews de novo.7
ANALYSIS
' The trial court resolved all of Cook's claims of ineffective
assistance of counsel on their merits, including the two claims at
issue in this appeal. We do not reach the merits of either claim,
however, because we find both are procedurally barred.
When a defendant's trial counsel is different from his or her
appellate counsel, all issues of ineffective assistance of trial

5 State v. Dunkin, 283 Neb. 30, 807 N.W.2d 744 (2012); State v. Hessler,
282 Neb. 935, 807 N.W.2d 504 (2011).
6 State v. Robinson, 287 Neb. 606, 843 N.W.2d 672 (2014); State v. Baker,
286 Neb. 524, 837 N.W.2d 91 (2013).
7 State v. Dubray, 294 Neb. 937, 885 N.W.2d 540 (2016) .
7

Certified Page 7 of 11

rnnn.qp 1

that

arp

-fe-h-e

knoui]—to—the

record must be raised on direct appeal. 8 If the issues are not
raised, they are procedurally barred.9
Because Cook was represented by different counsel on direct
appeal,

he

was

required

to

raise

all

claims

of

ineffective

assistance of trial counsel that were known to him or apparent
from the record.

In Cook's direct appeal he presented several

claims that his trial counsel provided ineffective assistance, but
he did not raise either of the two claims at issue here. Because
both claims were known and apparent from the record,

they are

procedurally barred.
Cook attempts to overcome this procedural bar by making two
arguments. Neither has merit. First, he argues that the State did
not

argue

to

the postconviction court

that

these claims

were

procedurally barred, and thus waived the argument. But whether a
claim raised in a postconviction proceeding is procedurally barred
is a question of law, which an appellate court reviews de novo.10
It is thus immaterial whether the issue of procedural bar was
addressed

in

the

district

court,

and

Cook

cannot

avoid

the

procedural bar by arguing the issue was not raised earlier.

8

Id.

9 Id.

10 Id.

.8

Certified Page 8 of 11

V

Second, Cook argues that his first opportunity to raise the
offer of proof claim was on postconviction review.

He contends

that although he knew, at the time of his direct appeal, that trial
counsel had been deficient in failing to make an offer of proof,
he was not aware any prejudice would result from that failure until
this court concluded the absence of an offer of proof prevented
appellate

review

of his

assigned

error

regarding

the

hearsay

exclusion. Thus, Cook suggests that because the prejudice from his
trial counsel's deficient performance had not yet occurred,

he

could not have raised the ineffective assistance claim on direct
appeal and should not be barred from raising it for the first time
on postconviction. We disagree.
Under the Strickland v. Washington11 framework for claims of
ineffective

assistance
that

of

counsel,

counsel's

a

defendant must

performance

was

show two

deficient

and,

things:

first,

second,

that the deficient performance prejudiced the defense.12

But to avoid procedural bar, all a defendant must raise on direct
appeal

is

"trial

counsel's

ineffective performance. "13 We have

rejected the proposition that an appellant is required, on direct

11 Strickland, supra note 4.

12 See id.; Dubray, supra note 7.
13 State v. Mora, 298 Neb. 185, 199, 903 N.W.2d 244, 257 (2017).

9

Certified Page 9 of 11

whpn

aEBMl/_t-Q

riai.TiiiDg—wieiieetive—ch&s4s-fea«ee

of trial counsel.14
It has

been our

longstanding

rule that

a

defendant with

different counsel on direct appeal must raise any issue of trial
counsel's deficient performance which is known to the defendant or
is apparent from the record in order to avoid procedural bar, even
if the prejudice
contingent,

resulting from that deficient performance is

unknown,

or has not yet occurred.15 If a defendant

knows of the deficient performance,

he must raise it on direct

appeal, otherwise it will be procedurally barred.16
An offer of proof serves two primary purposes:

(1)

informing

the trial court about the proof the party is seeking to offer, and
(2) creating a meaningful record so an appellate court can review
the trial court's decision.17 Cook knew of his trial counsel's
failure to make an offer of proof,

but he did not raise it as

ineffective assistance on direct appeal. Cook cannot avoid the

14 State v. Abdullah,

289 Neb. 123,

853 N.W.2d 858

(2014); State v.

Filholm, 287 Neb. 763, 848 N.W.2d 571 (2014).
15 See id.
16 See id.
17 75 Am. Jur. 2d Trial § 353. Accord, State v. Williams, 269 Neb. 917,
697 N.W.2d 273 (2005).
10

Certified Page 10 of 11

procedural _b_aj^bi/_cXaiminq—t:
counsel's failure to make an offer of proof had not yet occurred.18
Finally,

for the sake of completeness, we note that Cook's

assigned errors relate only to claims that his trial counsel was
ineffective. Cook's briefing on appeal makes it clear he is not
presenting a layered claim of ineffective assistance involving his
appellate counsel on direct appeal,19 nor does he assign error to
any ruling of the trial court rejecting or misconstruing a layered
claim of

ineffective

possible

to

have

a

assistance.

Consequently,

postconviction

case

where

although
an

it

is

ineffective

assistance claim involving trial counsel is procedurally barred
while the layered claim is not,20 we are not presented in this
appeal with such a claim.
CONCLUSION
Cook

presents

two

that

claims

his

trial

counsel

was

ineffective, and both are procedurally barred. We therefore affirm
the district court's denial of postconviction relief.

Affirmed.
Wright, J., not participating.

18 See Abdullah, supra note 14; Filholm, supra note 14.

19 Reply Brief for Appellant at 3.
20 See, e.g., Dubray, supra note 7.
11

Certified Page 11 of 11

Nebraska Advance Sheets
STATE v. COOK

381

Cite as 290 Neb. 381

habitual criminal charge, the presentence investigation report
reveals more than two dozen misdemeanors. We also find it
pertinent that this is not his first conviction for escape.
CONCLUSION
For the foregoing reasons, we affirm the judgment of the
trial court.
Affirmed.

State of Nebraska, appellee, v.
Richard K. Cook, appellant.
___N.W.2d___
Filed March 20, 2015.

j

No. S-13-271.

1. Postconviction: Constitutional Law: Appeal and Error. In appeals from post­
conviction proceedings, an appellate court reviews de novo a determination that
the defendant failed to allege sufficient facts to demonstrate a violation of his or
her constitutional rights or that the record and files affirmatively show that the
defendant is entitled to no relief.
2. Postconviction: Constitutional Law. The Nebraska Postconviction Act, Neb.
Rev. Stat. § 29-3001 et seq. (Reissue 2008 & Cum. Supp. 2014), is available to
a defendant to show that his or her conviction was obtained in violation of his or
her constitutional rights.
3. Postconviction: Constitutional Law: Judgments: Proof. An evidentiary hear­
ing on a motion for postconviction relief is required on an appropriate motion
containing factual allegations which, if proved, constitute an infringement of the
movant’s rights under the Nebraska or federal Constitution, causing the judgment
against the defendant to be void or voidable.
4. Postconviction: Effectiveness of Counsel: Proof: Appeal and Error. When
a court denies relief without an evidentiary hearing, an appellate court must
determine whether the petitioner has alleged facts that would support a claim of
ineffective assistance of counsel and, if so, whether the files and records affirma­
tively show that he or she is entitled to no relief.
5. Trial: Due process: Police Officers and Sheriffs: Witnesses. A due process
violation occurs yyhen a law enforcement officer who participated in the investi­
gation or preparation of the prosecution’s case fabricates evidence or gives false
testimony'against the defendant at trial on an issue material to guilt or innocence.
6. Postconviction. An evidentiary hearing is not required when a motion for post­
conviction relief alleges only conclusions of fact or law.
7. Appeal and Error. An alleged error must be both specifically assigned and spe­
cifically argued in the brief of the party asserting the error to be considered by an
appellate court.

APPENDIX F

Nebraska Advance Sheets
382

290 NEBRASKA REPORTS

Appeal from the District Court for Douglas County: J
Russell Derr, Judge. Affirmed.
Jerry L. Soucie for appellant.
Jon Bruning, Attorney General, and Erin E. Tangeman for
appellee.
Heavican, C.J., Wright, Connolly, Stephan, McCormack,
Miller-Lerman, and Cassel, JJ.
Heavican, C.J.
NATURE OF CASE
Richard K. Cook was convicted of first degree murder and
use of a firearm to commit a felony. Cook’s conviction was
affirmed. Cook now seeks postconviction relief. He appeals
the district court’s rejection of 28 of his 35 claims for post­
conviction relief. We conclude that the district court did not
err when it denied an evidentiary hearing on the grounds that
investigators fabricated evidence used at Cook’s trial and that
he received ineffective assistance of counsel from his appellate
counsel’s failure to raise certain issues related to his trial coun­
sel’s performance on direct appeal.

BACKGROUND
This case is an interlocutory appeal from the district court’s
order denying some of Cook’s claims for postconviction relief
of his convictions for first degree murder and use of a weapon
to commit a felony. A full recitation of the facts can be found
in State v. Cook} Below is a summary of the relevant facts
related to this appeal.
Amy Stahlecker’s Death.
On April 29, 2000, Amy Stahlecker’s body was found on the
banks of the Elkhom River near the intersection of Highway
275 and West Maple Road in Douglas County, Nebraska.
Witnesses last saw Stahlecker alive around 1 a.m. on April 29,
when she left Omaha to drive back to Fremont, Nebraska. The
State v. Cook, 266 Neb. 465, 667 N.W.2d 201 (2003).

Nebraska Advance Sheets
STATE v. COOK

383

Cite as 290 Neb. 381

white Ford Explorer Stahlecker was driving was found with a
blown tire on the side of Highway 275.
Stahlecker’s body was found underneath a bridge that was
a part of West Maple Road. Stahlecker had been shot multiple
times, including once to the back of the head and twice to
the face. An autopsy revealed multiple contusions and abra­
sions on Stahlecker’s body. The autopsy also found semen in
the vaginal area, but no specific evidence of sexual assault.
DNA testing of the semen revealed that it was consistent with
Cook’s DNA.
On May 2, 2000, Michael Hornbacher, a friend of Cook,
contacted a Washington County deputy sheriff and told him
that Cook had confessed to Hornbacher that Cook killed
Stahlecker. Hornbacher also later gave statements to Nebraska
State Patrol investigators. Hornbacher and Cook gave conflict­
ing accounts as to what happened the night Stahlecker was
killed and what happened the following day.
Hornbacher’s Version.
Hornbacher testified at trial that Cook and Hornbacher
were at a bar the night of Stahlecker’s death. Hornbacher saw
Cook leave in Cook’s truck, and Hornbacher later got a ride
home from three people he had met at the bar. Hornbacher’s
girlfriend, with whom he shared an apartment, testified that
she waited up for Hornbacher and that he arrived home at
12:50 a.m. After Hornbacher arrived back at his apartment,
he passed out in his bed and did not wake up until 11 or
11:30 a.m.
Believing he left personal items in Cook’s truck, Hornbacher
called Cook about picking up the items. Cook did not want
Hornbacher to come to Cook’s residence, so they arranged
for Cook to pick up Hornbacher in front of Hornbacher’s
residence. After Hornbacher got in the truck, Cook said that he
was concerned about something that might affect his family.
Cook then drove to a park and confessed to killing a
woman the night before. Hornbacher testified that Cook told
him that after Cook left the bar, Cook drove west on Highway
275 toward Fremont, where he saw a woman on the side of
the road with a flat tire on her vehicle. Cook stated that he

Nebraska Advance Sheets
384

290 NEBRASKA REPORTS

picked the woman up and that they had sexual intercourse in
the front seat of the truck. After the intercourse, Cook said the
woman had “‘weirded out’” and Cook feared the woman may
claim that he raped her.2 According to Hornbacher, Cook said
he “ordered the woman to get out of the truck, and then he
‘lost.it’ and grabbed his 9-mm handgun from the truck’s con­
sole and ‘unloaded’ it on the woman.”3 Cook told Hornbacher
that that he dumped the body in a ravine.
Cook's Version.
Cook testified at his own trial and presented a different
version of events the night of Stahlecker’s death. According
to Cook, shortly after leaving the bar, Cook and Hornbacher
decided to drive to a bar in Fremont that featured female strip­
pers. While driving along Highway 275, Cook testified that
they encountered Stahlecker and her vehicle on the side of the
highway. Cook decided he would stop to help change the tire.
Cook attempted to change the tire, but was unable to do so.
Cook testified that he could not call for help because his cell
phone was not working and they could not find Hombacher’s
cell phone. Cook decided that they should find an open serv­
ice station to get help. After finding no open service station,
Stahlecker suggested they return to the Explorer. They were
unable to find the vehicle and decided to pull over into an off­
road area on West Maple Road and “‘chill out. f 5 >4
Cook testified that Hornbacher was either passed out or
sleeping in the back seat of Cook’s truck at this time. According
to Cook, he and Stahlecker then had consensual sexual inter­
course in the front passenger seat. After Cook and Stahlecker
finished and began dressing, Hornbacher spoke up from the
back seat. Cook stated that neither he nor Stahlecker were
aware Hornbacher was awake in the back seat. Cook testified
that Hornbacher forcefully demanded that Stahlecker perform
oral sex on him and that she refused. An argument ensued, and
Hornbacher reached to grab Stahlecker’s shoulder. According
2 Id. at 471, 667 N.W.2d at 209.
3 Id.
4 Id. at 472, 667 N.W.2d at 209.

Nebraska Advance Sheets
STATE v. COOK
Cite as 290 Neb. 381

385

to Cook, it was at this time that Stahlecker exited the truck and
began to walk away. Cook then got out of the truck to give
Stahlecker her keys or offer her a ride.
Cook testified that he heard two gunshots and then saw
Hombacher leaning out of the driver’s-side window with
Cook’s gun in his hand. Hombacher exited the vehicle and
approached Stahlecker, and then Cook saw Hombacher shoot
Stahlecker in the back of the head. After Stahlecker collapsed,
Hombacher then shot Stahlecker in the face two times. Cook
testified that he ran to Stahlecker’s body to check for a pulse.
Cook stated that he was forced at gunpoint by Hombacher to
help drag the body across the road and dump it off the bridge.
Cook also testified that Hombacher threatened to kill him if
Cook said anything about the murder.
Investigation and Forensic Evidence.
At the scene of the crime, investigators found a blood smear
on the bridge, with a trail of blood drops leading from the
bridge, across the median, and to the eastbound lane of West
Maple Road. DNA tests determined that the blood was con­
sistent with Stahlecker’s DNA. Investigators also made cast­
ings of a shoeprint located on the bridge and another shoeprint
left in a pool of blood.
After Hombacher’s statements to law enforcement, inves­
tigators from the Nebraska State Patrol went to Cook’s place
of employment in Council Bluffs, Iowa, and told Cook that
they needed to speak with him at their Omaha office. The
Nebraska State Patrol transported Cook’s truck to the Omaha
office, then returned it to Council Bluffs and, after obtaining a
search warrant, brought the truck back to the Nebraska State
Patrol headquarters in Omaha. Investigators discovered traces
of blood and fibers from Stahlecker’s clothes on the inside of
Cook’s truck. DNA tests revealed that Stahlecker could not
be excluded as the contributor of the blood. Investigators also
determined that a bloody shoeprint found on the exterior door
panel of Cook’s truck matched the shoeprints found at the
scene of the crime.
David Kofoed, the chief crime scene investigator for
Douglas County at the time, assisted with the collection of

Nebraska Advance Sheets
386

290 NEBRASKA REPORTS

evidence in this case. In 2009, it was discovered that Kofoed
had fabricated and planted evidence in at least two different
murder investigations. In both cases, it was determined that
Kofoed planted evidence to corroborate confessions made
to police.5
In this case, Kofoed specifically assisted the Nebraska
State Patrol by taking castings of the shoeprints found at the
scene of Stahlecker’s death. In addition, Kofoed, along with
three other Douglas County crime scene investigators, ini­
tially processed the evidence from Cook’s truck; Kofoed and
another investigator were responsible for physically collecting
evidence from the truck, while the other investigators were
responsible for note-taking and documenting and photograph­
ing the evidence.
Trial and Direct Appeal.
On April 26, 2001, the jury found Cook guilty of first degree
murder and use of a firearm to commit a felony. On July 20,
the court sentenced Cook to life imprisonment on the first
degree murder conviction and 49'/2 to 50 years’ imprisonment
on the weapons conviction.
Cook appealed his convictions. Cook alleged seven claims
of trial court error and seven different claims of ineffective
assistance of counsel by Cook’s trial attorney. In case No.
S-12-681, this court rejected all of Cook’s claims of trial court
error, determining that there was an insufficient record to
decide each of Cook’s ineffective assistance of counsel claims,
and dismissed the appeal on September 13, 2012.
Cook filed his initial pro se motion to vacate his convictions
on July 2, 2004. On April 11, 2005, Cook filed an amended
pro se motion for postconviction relief. On September 4, 2009,
Cook filed a second, and final, amended motion for postcon­
viction relief. The majority of the second amended motion
was drafted by Cook, despite Cook’s having been appointed
a lawyer. Cook raised four of the same claims of ineffective
5 State v. Kofoed, 283 Neb. 767, 817 N.W.2d 225 (2012). See State v.
Edwards, 284 Neb. 382, 821 N.W.2d 680 (2012).

Nebraska Advance Sheets
STATE v. COOK
Cite as 290 Neb. 381

387

assistance of counsel as he did on direct appeal, and 31 new
claims for postconviction relief.
On June 27, 2012, the district court entered an order
addressing all of Cook’s claims. The district court granted
a hearing on Cook’s four claims of ineffective assistance of
counsel that were raised on direct appeal, along with three
new claims. The remaining claims were rejected by the dis­
trict court on the grounds that the claims either clearly had no
merit or did not allege facts with sufficient specificity regard­
ing prejudice. Two of the rejected claims involve allegations
that Kofoed fabricated evidence, and the rest of the claims
allege that Cook received ineffective assistance of counsel due
to his appellate counsel’s failure to make certain arguments
on appeal.
ASSIGNMENTS OF ERROR
Cook assigns that the district court erred in (1) denying
an evidentiary hearing and dismissing the motion for post­
conviction relief on the ground that Kofoed or other investi­
gators planted evidence used at Cook’s trial, in violation of
the Due Process Clause of the 14th Amendment to the U.S.
Constitution, and (2) denying an evidentiary hearing and dis­
missing the motion for postconviction relief on the grounds
relating to the “layered” allegation of ineffectiveness of appel­
late counsel for failure to raise and argue issues on direct
appeal involving conflict of interest, specific instances of inef­
fective assistance of trial counsel, and incorrect jury instruc­
tions, in violation of the 5th, 6th, and 14th Amendments to the
U.S. Constitution.
STANDARD OF REVIEW
[1] In appeals from postconviction proceedings, an appel­
late court reviews de novo a determination that the defendant
failed to allege sufficient facts to demonstrate a violation of his
or her constitutional rights or that the record and files affirma­
tively show that the defendant is entitled to no relief.6
6 State v. Baker, 286 Neb. 524, 837 N.W.2d 91 (2013).

Nebraska Advance Sheets
388

290 NEBRASKA REPORTS

ANALYSIS
[2,3] The Nebraska Postconviction Act, Neb. Rev. Stat.
§ 29-3001 et seq. (Reissue 2008 & Cum. Supp. 2014), is
available to a defendant to show that his or her convic­
tion was obtained in violation of, his or her constitutional
rights,’. An ..evidentiary hearing..o_n.a motion for postcony iction relief is required on an appropriate motion containing
factual allegations which, if proved, constitute an infringe­
ment of the movant’s rights under the Nebraska or federal
Constitution, causing the judgment against the defendant to
be void or voidable.8
[4] Cook assigns that the. district court erred in denying an
evidentiary hearing and dismissing his motion for postconvic­
tion relief on the grounds that an investigator fabricated evi­
dence and that his counsel on direct appeal was ineffective for
failing to raise certain issues on direct appeal. .When a court
denies relief without an evidentiary hearing, an appellate court
must determine whether the petitioner has alleged facts that
would support a claim of ineffective assistance of counsel and,
if so, whether the files and records affirmatively show that he
or she is entitled to no relief.9
1

Fabricated Evidence Claims. ,
,
[5] Cook seeks an evidentiary hearing to prove that Kofoed
fabricated DNA evidence found in Cook’s truck. If Kofoed
did indeed fabricate evidence, that would constitute a viola­
tion of Cook’s right to due process. A due process violation
occurs when a law enforcement officer who participated in the
investigation or preparation of the prosecution’s case fabricates
evidence or gives false testimony against the defendant at trial
orfarrisSuernaterial to guilt or innocence.10
(\ ~ f
In his motion for postconviction relief, Cook makes allega­
tions that Kofoed or unnamed Nebraska State Patrol inves­
tigators either cross-contaminated evidence from the crime
7
8
9
,0

State v. Sims, 277 Neb. 192, 761 N.W.2d 527 (2009).
State v. Branch, 286 Neb. 83, 834 N.W.2d 604 (2013).
State v. Yos-Chiguil, 281 Neb. 618, 798 N.W.2d 832 (2011).
Edwards, supra note 5.

Nebraska Advance Sheets
390

290 NEBRASKA REPORTS

investigators had examined the car and failed to find
this evidence. The facts alleged in [the defendant’s]
petition also appear similar to the 2003 investigation in
that Kofoed allegedly submitted swabs of evidence for
DNA testing instead of submitting the evidence itself.
And the allegations suggest that Kofoed may have held
physical evidence for several days before having another
investigator test it, a pattern that is similar to his con­
duct during the 2006 investigation in which he fabri­
cated evidence.13
In this case, Kofoed and his team discovered all of the
evidence during the initial search of the truck. The blood
was found on the floormat of Cook’s truck and also on the
inside and outside door panels of the driver’s-side door, all
areas of the truck which could not be classified as “obscure.”
Additionally, Kofoed had no involvement with the investi­
gation after he and his team completed the initial search of
the vehicle. Simply alleging Kofoed’s involvement in the
investigation and his history of fabricating evidence is not
sufficient on its own to support a claim for postconviction
relief. Without more, there is no basis to conclude, based on
the record in this case, that Kofoed or any other investigator
placed this evidence in Cook’s truck, through either cross­
contamination or fabrication. The district court did not err in
dismissing these claims. Cook’s assignment of error is with­
out merit.
Layered Ineffective Assistance
of Counsel Claims.
Cook assigns that the district court erred in failing to grant
an evidentiary Hearing for several of Cook’s layered ineffec­
tive assistance of counsel claims. This appeal is limited solely
to the question of whether Cook failed to allege sufficient
facts to demonstrate a violation of his constitutional rights or
whether the record affirmatively shows that he is entitled to
no relief.14
13 Id.
14 See Baker, supra note 6.

. i

Nebraska Advance Sheets
STATE v. COOK
Cite as 290 Neb. 381

391

[7] Although Cook makes several conclusory arguments in
his statement of facts regarding the sufficiency of his allega­
tions, he gives no explanation in the argument section of his
brief for how the district court actually erred in rejecting his
layered claims or how the claims were factually sufficient.
Instead, Cook argues that this court should overturn the rule
that precludes review of issues which were raised on direct
appeal or were known to the defendant and could have been
litigated on direct appeal.15 An alleged error must be both
specifically assigned and specifically argued in the brief of
the party asserting the error to be considered by an appellate
court.16 Because Cook failed to argue how the district court
erred in rejecting his layered ineffective assistance of coun­
sel claims for postconviction relief, we will not consider his
assignment of error. Conversely, the argument Cook actually
makes in his brief was not specifically assigned as an error on
appeal, nor was it raised before the district court. We therefore
decline to address it.
CONCLUSION
We conclude that the district court did not err in denying
Cook’s request for a hearing for 28 of his 35 grounds for post­
conviction relief. We affirm the district court’s order.
Affirmed.
15 See, e.g., State v. Lee, 282 Neb. 652, 807 N.W.2d 96 (2011).
16 State v. Filholm, 287 Neb. 763, 848 N.W.2d 571 (2014).

K,

• P

£

IN THE DISTRICT COURT OF DOUGLAS COUNTY, NEBRASKA
STATE OF NEBRASKA,

CASE NO. CR10-9042817
DOC. 150-539
Plaintiff,

ORDER

#44tNWS7fe?f^UnT
DOUGLAS COUNTY NEBRASKA

v.

MAY 1 0 2017

RICHARD COOK,

JOHN M. FRIEND
CLERK DISTRICT COURT

Defendant.

THIS MATTER CAME before the Court on the Motion for Postconviction Relief
filed by Defendant, Richard K. Cook. An evidentiary hearing was held on November 17,
2016. Upon receipt of the final written argument of the parties on or about April 11,
2017, the Court took the matter under advisement,
The State appeared through Deputy Douglas County Attorney, Katie Benson.
Throughout these proceedings Defendant appeared through two counsel, first, Assistant
Douglas County Public Defender Kelly Steenbock and most recently by Gerald Soucie.
The Court previously entered an Order dated June 26, 2012 which is
incorporated by reference into this Order.
In the Order of June 26,2012, the Court sustained the State’s Motion to Dismiss
in all respects with the exception of the following seven claims:
• Counsel's failure to object to the testimony of Michelle Childs and Ann
Hoffmeyer
•

Counsel's failure to request a limiting instruction relating to the testimony
of Yvette Carmen

•

Counsel eliciting testimony from Michael Hombacher

•

Counsel’s failure to prohibit Defendant from testifying about his
conversation with Michael Hombacher

•

Counsel’s failure to introduce videotaped interview with Michael
Hombacher

•

Counsel’s failure to challenge use of shock belt on Defendant during trial
l

Page 12 of 26
v

.

APPENDIX G

Failing to object to the testimony of Michelle Childs
Defendant claims his trial counsel was ineffective for failing to object to testimony
from Michelle Childs regarding a conversation she had with Michael Hombacher where
he relayed statements made by Defendant to her. Defendant brought this claim of
ineffectiveness on direct appeal, but the Nebraska Supreme Court determined the record
was insufficient to address the issues. State v. Cook. 266 Neb. 465, 490-491 (2003).
The testimony that Defendant believes his trial counsel should have objected to at
trial is that Ms. Childs was allowed to testify that Mr. Hombacher told her that Defendant
had consensual sex with Ms. Stahlecker. Defendant also testified at trial that he had
consensual sex with Ms. Stahlecker.
Defendant’s trial counsel, Steve Lefler, testified at the evidentiary hearing. Mr.
Letter's stated his trial strategy was that anything that would corroborate Defendant's
testimony would be good evidence and he would object to anything that detracted from
Defendant s credibility. Mr. Lefler testified that he did not object to the testimony of Ms.
Childs because he (1) wanted to bring out more inconsistencies between Ms. Childs and
Mr. Hombacher testimony, (2) wanted to emphasize that Mr. Hombacher had to convince
Ms. Childs that he was innocent, and (3) because her testimony added into the overall
trial strategy of establishing that the sex was consensual between Defendant and Ms.
Stahlecker.
A decision by trial counsel as a matter of trial strategy, even if that choice proves
unproductive, will not, without more, sustain a finding of ineffective assistance of trial
counsel. State v. Robinson. 287 Neb. 606 (2014). Mr. Letter's overall trial strategy
appears to be sound and reasonable and not deficient.
Even if, arguendo, counsel was somehow deficient for not making a hearsay
objection, the record refutes any allegation that Defendant suffered any prejudice. Mr.
Hombacher testified to the identical information provided by Ms. Childs during trial and
Defendant also testified to the fact he had consensual sex with the victim, so the evidence
is cumulative and Defendant did not suffer any prejudice. Wong v. Belmontes. 130 S. Ct.
383 (2009) (noting a defendant does not suffer prejudice when the evidence is merely
2

Page 13 of 26

cumulative); State v. Williams. 259 Neb. 234 (2000) (“[w]here the evidence is cumulative
and there is other competent evidence to support the conviction, the improper admission
or exclusion of evidence is harmless beyond a reasonable doubt.").
Failing to object to Amy Hoffmeyer’s testimony
Defendant claims his trial counsel was ineffective for failing to object under Rule
404 to Amy Hoffmeyer’s testimony about Defendant’s making advances towards her at a
bar the evening of, but prior to, the murder of Ms. Stahlecker. Defendant brought this
claim of ineffectiveness on direct appeal, but the Nebraska Supreme Court found the
record was insufficient to address the claim. A similar 404 argument was addressed in
the direct appeal relating to Defendant’s action that same evening with another female
and the Nebraska Supreme Court held:
Whether or not the testimony regarding Cook's kissing an unnamed woman
was evidence of an act admitted to prove his character, we conclude that
any error in admitting the evidence was harmless error. To the extent the
testimony regarding kissing an unnamed woman proved anything about
Cook's character, it was cumulative of other testimony which Cook offered
in his own direct examination, including Cook's testimony that he had had
sexual intercourse with Stahlecker.
Cook, supra at 485.
Similarly, Ms. Hoffmeyer’s testimony, even if it was about Defendant’s character,
was merely cumulative to evidence offered by Defendant in his own testimony. Defendant
was not prejudiced in the event counsel was deficient in not making the objection. See
Wona. supra.
Additionally, trial counsel, Mr. Lefler, testified as to his strategy in not objecting
under Rule 404 to this testimony during the evidentiary hearing. He explained that he did
not want to object to this testimony, as Ms. Hoffmeyer’s testimony aided in the defense
strategy of demonstrating Defendant was merely a philanderer, not a violent person.
Further, he explained that he did not feel such testimony would even qualify as falling
under Rule 404 and that he was trying to turn what could appear to be bad evidence into
good evidence for Defendant. Such strategy is reasonable and should not to be secondguessed in a postconviction, even if it is ultimately unproductive. State v. Rocha. 286
Neb. 256 (2013) (“Trial counsel is afforded due deference to formulate trial strategy and
3

Page 14 of 26

tactics, and we are not to second-guess trial counsel's reasonable strategic decisions
when reviewing claims of ineffective assistance of counsel.").
Failing to request limiting instruction relating to Yvette Carmen testimony
Defendant argues trial counsel was ineffective in not requesting a “limiting
instruction” relating to the State’s cross-examination of Yvette Carmen surrounding
details of her testimony regarding Defendant following a woman out to her car where they
briefly talked and kissed. While not a limiting instruction, the record does show trial
counsel adamantly objecting to this line of questioning based on Rule 403. (BOE 1746:1
-1749:16). The Court noted in its Order of June 26,2012 granting an evidentiary hearing
that this claim was “vague" and the evidence produced at the evidentiary has done little
to shed light onto this claim. Defendant has not provided any tangible suggestion as to
what the limiting instruction should have been or any law as to why such instruction
should have been provided in the jury instructions. Further, and as noted above, the
record refutes Defendant suffered any prejudice even if trial counsel did not make such a
request since the Nebraska Supreme Court found that such evidence was harmless and
cumulative to Defendant’s own testimony on direct examination. Cook, supra at 485.
Mr. Lefler also explained that even if there were a specific limiting instruction he
should have requested, he does not regularly request limiting instructions, as they just
draw more attention to issues he does not want the jury to focus on. Also, he stated
that Ms. Carmen’s testimony ultimately aided in the overall defense of showing
Defendant was just looking for consensual sex that evening. The Court finds no
deficiency in trial counsel’s performance in this issue nor did Defendant suffer any
prejudice.
Eliciting testimony from Michael Hombacher
Defendant claims trial counsel was ineffective for eliciting testimony from Mr.
Hornbacher that Defendant had been violent with a woman. Defendant brought this claim
of ineffectiveness on direct appeal, but the appellate court determined the record was
insufficient to address the issue. A review of the record reveals Defendant suffered no
prejudice, because while Mr. Hornbacher initially stated he had known Defendant to be
4

Page 15 of 26

N.

violent with women prior to the murder, at trial Mr. Hornbacher testified “I’ve never seen
him do it to a woman, no.” (BOE 983:18). Even during a hearing outside the presence
of the jury, trial counsel noted that Mr. Hornbacher "caught himself." The record further
refutes Defendant suffered any prejudice or that the outcome of the trial would have been
different without this testimony when considered with the other evidence adduced at trial.
In addition, trial counsel testified at the evidentiary hearing that Mr. Hornbacher had been
deposed and stated that he had not been aware of Defendant previously being violent
towards women. Trial counsel testified that he questioned Mr. Hornbacher on this issue
to aid in the overall strategy of demonstrating Defendant was not violent and then was
initially surprised by Mr. Hornbacher’s answer, but then noted, however, that Mr.
Hornbacher was rehabilitated. The Court finds that trial counsel employed a reasonable
strategy on this issue that should not be second-guessed and Defendant did not suffer
any prejudice. See Rocha, supra.
Prohibiting Defendant from testifying about his conversation with Michael
Hornbacher
Defendant argues that his trial counsel was ineffective for not making an offer of
proof after the trial court refused to allow’testimony from Defendant about an alleged
conversation he had with Mr. Hornbacher the day following the murder. Trial counsel
tried to elicit testimony from Defendant about these statements, at which time the State
made a hearsay objection that was sustained. (BOE 1720:9-20). On direct appeal,
counsel argued that these statements would have fallen within Neb. Rev. Stat. § 27-613,
as prior inconsistent statements, but the Nebraska Supreme Court found it could not
review the matter without an offer of proof.
At the evidentiary hearing, Mr. Lefler explained that overall. Defendant was one of
the more difficult client’s he has worked with in his years as a defense counsel and that
no client has ever required more of his time during preparation of a case. Mr. Lefler
testified that the defense was focused on attacking Mr. Hornbacher’s credibility through
cross-examination, portraying Defendant’s character as a non-violent womanizer, and in
having Defendant testify as to his account as to what occurred the night of the murder.
Mr. Lefler testified that in preparing for this defense, he noted that Defendant had multiple
5

Page 16 of 26

I

versions as to the events that occurred on the night of the murder before he settled on
the “truth," which was the version he testified to at trial. Considering the totality of the
defense, the proposed testimony that would have been offered by Defendant by way of
the offer of proof was of limited value, if any, to Defendant and it would not have come in
as substantive evidence, but only to impeach Mr. Hornbacher, which was already
accomplished through a thorough cross-examination at trial by Mr. Lefler. Thus, this
limited testimony would have been merely cumulative evidence to attack Mr.
Hornbacher’s credibility and Defendant did not suffer any prejudice due to the lack of an
offer of proof. The record further establishes Defendant did not suffer prejudice in that
while those particular statements that Defendant wanted to testify about (or make a part
of an offer of proof) were not admitted, Defendant was able to testify as to his version of
events of the murder, including statements made by Mr. Hornbacher, which pointed to
Mr. Hornbacher as the murderer. (BOE 1683:2-1692:25). Defendant testified in his
deposition that he wanted the following to be part of an offer of proof:
“Well, he (Hornbacher) reiterated to me that I better not say anything to
anybody..... And he threatened me repeatedly if I said anything that I would go
down, too. And he kept saying I would go down, too. He kept repeating that
phrase....
I asked him what he had told Michelle as to why we came back so late. And
told him that I had just told Jeanette that two guys got into a fight, meaning he
and I, but hadn’t elaborated any more on it. I also told him about the bike
accident I had that morning at Standing Bear Lake and told him if anybody asked
when we go to work, just to mention die bike accident........
Hornbacher said he had just told Michelle Childs that we had gone to a juice
bar called Shakers in Waverly. And I said to him, what are you going to do? To
which he replied, "Nothing. What can I do? I'm not - I'm sure not going to turn
myself in. Hopefully they’ll never find out about it. I don't know what happened. I
just snapped.”
Hornbacher said that my gun case had been laying on the floor of the back
seat of my truck and he had gotten the gun out at some point, was messing
around with it. And after Amy had refused to give him a blow job and pushed or
slapped him away from her, he got pissed off and just went off. (Cook depo at
39:3-40:25)
“He (Hornbacher) said that actually Amy had scratched him just a little bit when
she kind of pushed and slapped him away from her. And he said that "I just
6

Page 17 of 26

i

wanted to kill that bitch all of a sudden. I don't know if it was because I was so
wasted or the fact that Michelle and I had been fighting already earlier that night,
but it just sent me over the edge. I still can't believe I did it." (Cook depo at 41:19)
I was telling Hombacher that there is ho way I was going to go back out to the
crime scene with him because I had Opal (Mr. Cook's daughter) with me and I
needed to get her back home and feed her. He said, "Okay, I understand. I'm
just freaking out and I don't know how I'm going to get out of this one if they find,
something of mine out there." He thought that his checkbook might be out there.
And he said he still might try to drive out there himself. (Cook depo at 43:21-44:6)
*****

He said, "Okay, I understand. I'm just freaking out and I don't know how I'm
going to get out of this one if they find something of mine out there." He thought
that his checkbook might be out there. And he said he still might try to drive out
there himself. (Cook dep at 44:19-23)
He said, "Okay, I understand. I'm just freaking out and I don't know how I'm
going to get out of this one if they find something of mine out there." He thought
that his checkbook might be out there. And he said he still might try to drive out
there himself. (Cook depo at 45:4-14)
Well, Hombacher said he was sorry about giving me the GHB shot, but it
was the least of our problems right now. He said he wished he could take back
everything that happened that night. And if he just had a chance to do it over
again, he wouldnt have given me the GHB or been so aggressive with her.
He said he didn’t know why he just started shooting at her but once he
started, something just took over and all he wanted to do was finish her off
because she had made him so mad by rejecting his requests for a blow job and
then slapping him after he grabbed her shoulder.
He told me that we had to wait, lay it down for a while until things cooled off. I
just listened and didn't really say much. I did ask him what he thought I should do
with Amy’s number on the back of my business card. And he said, get rid of it.
And once we got back to his apartment building, he got out of my truck, turned
around, stood inside the open door on the passenger side of my truck and said to
me, "You need to go wash your truck, you know, three or four times and vacuum
it out real good." (Cook depo at 46:3-47:4) Note:[Compare BOE at 1017 201018:1]
I said, "Okay, I'll just call you later then." He said, "No, don't call me for a
while and don't speak about this on the phone at all. Don't even call me at work
this week if you have any questions or anything, just call Mark (Imm, bank branch
7

Page 18 of 26

manager and Hornbacher’s mentor)."... And I just said, "All right, later, man."
And that was it. (Cook depo at 47:9-48:1)
In reviewing this claim it is important to keep in mind that the remainder of
Defendant’s testimony as to the events of the night of the murder were almost certainly
rejected by the jury, making it unlikely that any of these statements would have been
believed either.
Defendant cites to some legal authority in support of this claim, particularly State v.
Owens, 257 Neb. 832 (1999) which he describes as “directly on point”. In Owens, the
Nebraska Supreme Court held that it was error for the district court to refuse to allow the
defendant's mother to testify that the driver (defendant’s ex-girlfriend) had said to her
that defendant said after the shooting, “I hope I didn’t shoot somebody” as they drove
off. At trial, defendant’s ex girlfriend testified that Defendant said “I hope I shot
somebody as they drove off1. The Court in Owens held that it was error to exclude such
testimony but that the error was harmless and not prejudicial.

The record demonstrates that Owens was able to introduce the same evidence
Carey was not permitted to offer. During his own testimony, Owens stated that he
said, "I hope I didn't shoot somebody" as they drove off. Further, issues of
Jaderborg's credibility were properly laid before the jury during Jaderborg's
cross-examination. The defense questioned JaderbOrg about several
inconsistencies between her statements to officers at the time of the incident and
her testimony at trial. The defense also questioned her about her own interest in
avoiding prosecution for accessory to a felony charges. Finally, the jury was
specifically instructed to "closely examine" Jaderborg's testimony in light of her
possible motives to be untruthful. Any prejudice which could have resulted from
Owens' inability to impeach Jaderborg regarding her testimony as to what Owens
said is harmless beyond a reasonable doubt. Carey's testimony was at best
cumulative of Owens' own testimony and, further, the issue of Jaderborg's
credibility was aggressively attacked before the jury during her crossexafnination. Where the evidence is cumulative and there is other competent
evidence to support the conviction, the improper admission or exclusion of
evidence is harmless beyond a reasonable doubt. State v. Hartmann. 239 Neb.
300, 476 N.W:2d 209 (1991).......
While the trial court erred in excluding Carey's testimony concerning Jaderborg's
prior inconsistent statement, we determine that this error was harmless beyond a
reasonable doubt.
8

Page 19 of 26

i

Id. at 840-84.
Even, if, arguendo, the trial court erred by not allowing Defendant’s testimony
about Mr. Hombacher, Defendant did not suffer any prejudice by this error or by trial
counsel’s failure to make an offer of proof.
As to prejudice, the Nebraska Supreme Court has repeatedly “observed that it is
unlikely that the outcome of the proceedings would have been different where properly
introduced evidence against a defendant is overwhelming." See State v. Jim. 278 Neb.
238, (2009). Even if, arguendo, trial counsel should have made this offer proof, Defendant
was not prejudiced by this failure because Defendant was able to testify that Mr.
Hombacher killed Ms. Stahlecker and Defendant was also able to cross-examine Mr.
Hornbacker. And, there was substantial competent evidence in the record to support
Defendant’s conviction. In his brief, Defendant state’s the “trial boiled down to
Hombacher’s version of events," but there was significantly more evidence than Mr.
Hornbacher's testimony to establish Defendant’s guilt, such as (1) the victim’s blood and
clothing fibers found in Defendant’s vehicle, (2) injuries to Defendants; arms and hands
immediately after the murder, (3) Defendant’s DNA was found in the victim, (4) an
independent witness placed Mr. Hombacher at his home during the time of the murder,
(5) the casting done of a shoe print at the murder scene that matched a shoe print in
Defendant's vehicle, (6) Defendant’s actions towards other women that evening, and (7)
the business card hidden at Defendant’s work with the victim’s name and number
handwritten on the back. Based on this evidence, in combination with the limited purpose
of the testimony Defendant argues should have been the subject of an offer of proof,
Defendant did not suffer any prejudice by trial counsel’s failure to make an offer of proof.
Failing to introduce videotaped interview of Mr. Hombacher
Defendant has failed to offer any evidence, or cite to any law, to show that the
videotape interview of Mr. Hombacher would be admissible or that it would have impacted
the outcome of the trial. In Defendant’s brief, he suggests the videotape could be offered
for impeachment, but fails to ever state which of Mr. Hombacher’s statements were
inconsistent or which portions of the tape would have shown those inconsistencies.

Page 20 of 26

As to this claim, Defendant’s request for postconviction relief is denied because
the record refutes Defendant suffered any prejudice by trial counsel not offering Mr.
Hornbacher’s videotaped interview since the jury had an opportunity to assess Mr.
Hombacher’s credibility during his lengthy trial testimony, including impeachment during
cross-examination.

Additionally, Defendant suffered no prejudice, because such

evidence is inadmissible hearsay and even if it was not, it is cumulative to Mr.
Hornbacher’s trial testimony. See State v. Anderson. 245 Neb 237

rhnHing trial

court did not err for not allowing videotaped testimony when person was testifying at trial
because the videotape statement would have been cumulative testimony). Trial counsel
also testified that he did not feel Mr. Hornbacher’s demeanor was inappropriate or
noteworthy on the videotaped interview. Trial counsel did not think the videotape was
admissible, but, arguendo, even if it was, he would not play the videotape for the jury to
see the entirety of Mr. Hombacher’s testimony a second time and emphasize all of the
testimony that was damaging to Defendant. Trial counsel is afforded due deference to
formulate trial strategy, and the Court will not second-guess trial counsel’s reasonable
strategic decisions when reviewing claims of ineffective assistance Of counsel. See
Rocha, supra.
Failing to challenge use of shock belt during trial
Defendant seeks postconviction relief because his trial counsel allowed the jury to
see the shock belt he was wearing. During the evidentiary hearing, trial counsel, Mr.
Lefler, testified regarding his trial strategy to allow the jury to see the shock belt because
he was concerned Defendant would appear nervous during his trial and the jury could
connect that with Defendant lying. His strategy was to have another explanation for any
perception that Defendant was nervous while testifying. Again, trial counsel is afforded
due deference to formulate trial strategy, and the Court will not second-guess trial
counsel’s reasonable strategic decisions when reviewing claims of ineffective assistance
of counsel. See Rocha, suora.
The Court also finds that Defendant did not suffer any prejudice on this issue
because the observation of Defendant’s shock belt was very brief and Defendant was
otherwise dressed in street clothes during the course of the trial. While not addressing
10

Page 21 of 26

* .*

claims of ineffective assistance, case law supporting that brief observations of Defendants
in shackles or other security measures do not result in automatic prejudice or a due
process violation are helpful in the prejudice analysis. See State v. Mata. 266 Neb. 668,
(2003) (the defendant was not prejudiced in having to wear leg shackles given the
strength of the evidence adduced during trial). See also, Overstreet v. State. 877 N.E.2d
144 (Ind. 2007) (provides overview of case law addressing brief observations of
defendants in shackles). The brief observation of Defendant’s shock belt, accompanied
by an explanation of trial strategy, combined with case law and the strength of the
evidence in this case and Mr. Letter's trial strategy, did not result in prejudice to
Defendant.

CONCLUSION
For the foregoing reasons, Defendant’s Motion for Postconviction Relief is denied
v
in all respects. y
/
/P dav '5f:Mav. 2017.
DATED* this
< />•

/} . X-•>

V

/

:T:

DERR
DISTRICT COURT JUDGE

li

Page 22 of 26

i

y.

OPINION OF THE SUPREME COURT OF NEBRASKA

Case i itle
State of Nebraska, appellee,
v.
Richard K. Cook, appellant.

Case Caption
State v. Cook

Filed August 1.2003. No. S-01 -951.

Appeal from the District Court for Douglas County: Stephen A. Davis, Judge.
Affirmed.
■?

Clarence E. Mock III and Denise E. Frost, of Johnson & Mock, for appellant.
Don Stenberg, Attorney General, and Kimberly A. Klein for appellee.

appendix h

A

STATE V. COOK
Filed August 1,2003.

No. S-01-951.

1. Rules of Evidence: Appeal and Error. In proceedings where the Nebraska Evidence Rules
apply, the admissibility of evidence is controlled by the Nebraska Evidence Rules; judicial discretion
is involved only when the rules make such discretion a factor in determining admissibility. Where the
Nebraska Evidence Rules commit the evidentiary question at issue to the discretion of the trial court,
the admissibility of evidence is reviewed for an abuse of discretion.
2. Judges: Appeal and Error. The exercise of judicial discretion is implicit in determinations of
relevancy, and a trial court's decision regarding it will not be reversed absent an abuse of discretion.
3. Convictions: Evidence: Appeal and Error. Regardless of whether the evidence is direct,
circumstantial, or a combination thereof, and regardless of whether the issue is labeled as a failure
to direct a verdict, insufficiency of the evidence, or failure to prove a prima facie case, the standard
is the same: In reviewing a criminal conviction, an appellate court does not resolve conflicts in the
evidence, pass on the credibility of witnesses, or reweigh the evidence; such matters are for the
finder of fact, and a conviction will be affirmed, in the absence of prejudicial error, if the evidence
admitted at trial, viewed and construed most favorably to the State, is sufficient to support the
conviction.
4. Criminal Law: Directed Verdict. In a criminal case, a court can direct a verdict only when there
is a complete failure of evidence to establish an essential element of the crime charged or the
evidence is so doubtful in character, lacking probative value, that a finding of guilt based on such
evidence cannot be sustained. If there is any evidence which will sustain a finding for the party
against whom a motion for directed verdict is made, the case may not be decided as a matter of law,
and a verdict may not be directed.
5. Evidence: Waiver: Appeal and Error. A party who fails to make a timely objection to evidence
waives the right on appeal to assert prejudicial error concerning the evidence received without
objection.
6. Trial: Evidence: Appeal and Error. The erroneous admission of evidence is harmless error and
does not require reversal if the evidence is cumulative and other relevant evidence, properly
admitted, supports the finding by thejrier of fact.
7. Presentence Reports: Waiver. A defendant has a qualified right to review his or her
presentence report, and the defendant may, with his or her attorney, examine the presentence
report subject to the court's supervision. However, the defendant waives that qualified right by not
notifying the trial court that he or she has not personally reviewed the report and that he or she
wishes to do so.
8. Sentences: Appeal and Error. Sentences within statutory limits will be disturbed by an appellate
court only if the sentences complained of were an abuse of judicial discretion.
9. Effectiveness of Counsel: Proof: Convictions: Words and Phrases: Appeal and Error. To
establish a right to relief because of a claim of ineffective counsel at trial or on direct appeal, the
defendant has the burden first to show that counsel's performance was deficient; that is, counsel's
performance did not equal that of a lawyer with ordinary training and skill in criminal law in the area.

«'

The defendant must a I so_showJhatoounsete-def4eient-perform3nceprejadicgd1he defensein his or
hercase. To prove prejudice, the defendant must show that there is a reasonable probability that but
for counsel's unprofessional errors, the result of the proceeding would have been different. A
reasonable probability is a probability sufficient to undermine confidence in the outcome. When a
defendant challenges a conviction, the question is whether there is a reasonable probability that
absent the errors, the fact finder would have had a reasonable doubt concerning guilt.
10. Effectiveness of Counsel: Records: Appeal and Error. A claim of ineffective assistance of
counsel need not be dismissed merely because it is made on direct appeal. The determining factor
is whether the record is sufficient to adequately review the question. If the matter has not been
raised or ruled on at the trial level and requires an evidentiary hearing, an appellate court will not
address the matter on direct appeal.
11. Motions for Mistriah.Appeal and Error. The decision whether to grant a-motion for mistrial-is- within the discretion of the trial court and will not be disturbed on appeal in the absence of an abuse
of discretion.

X—•

Hendry, C.J., Wright, Connolly, Gerrard, Stephan JMcCoBMAQc^aad-Mij-i-FB-i-FnMAftH
tWt

Miller-Lerman, J.
I. NATURE OF CASE
Richard K. Cook was convicted in the district court for Douglas County of first degree murder
and use of a weapon to commit a felony. Cook was sentenced to life imprisonment on the murder
conviction and 491/2 to 50 years' imprisonment on the weapons conviction. Cook appeals his
convictions and sentences. We affirm.
II. STATEMENT OF FACTS
1. Discovery and Investigation of Crime
On the morning of April 29,2000, two men found the body of a young woman, later identified
as Amy Stahlecker, on the bank of the Elkhorn River near the intersection of West Maple Road and
Highway 275 in Douglas County, Nebraska. Stahlecker's body had multiple gunshot wounds,
including a shot to the back of the head that exited through the face and two shots to the face that
exited through the back of the head. The men notified law enforcement officers of their discovery,
and the Nebraska State Patrol began an investigation of the crime.
The body was found at a point along the river where the river was spanned by a bridge that
was part of West Maple Road. At and near the bridge, West Maple Road was a four-lane concrete
road with two eastbound and two westbound lanes separated by a concrete median. Investigators
found a large blood smear and a trail of blood drops on the bridge, the median, and the eastbound
lanes of West Maple Road. The trail of blood drops led from the median to the north side of the
bridge directly above where the body was found. Blood from the stain was latertested, and the DNA
was consistent with that of Stahlecker. On the median, investigators found bullet and scalp
fragments and a bracelet that had been worn by Stahlecker.
A white Ford Explorer with a blown tire was found along Highway 275 near an intersection
with West Maple Road and near the location where Stahlecker's body was found. It was later
discovered that the Explorer was owned by Stahlecker's friend. Angella Dowling. On Friday evening
April 28, 2000, Stahlecker left her mother's home in Fremont, Nebraska, and went to her cousin's
home in Arlington, Nebraska. Stahlecker and her cousin then joined Dowling, and the three drove in
the Explorer to Omaha for dinner. After dinner, they met other friends at a bar in Omaha and stayed
there until about 1 a.m. on April 29. Stahlecker's cousin and Dowling decided to stay in Omaha with
their respective boyfriends, and it was determined that Stahlecker would drive the Explorer to
Fremont for the night and then return to Omaha the next morning to pick up the other two women.
Although Stahlecker's subsequent route is unknown, she was apparently heading west on Highway
275 toward Fremont when the Explorer blew a tire near the spot where the Explorer was found that
same morning.

r-.......

An autopsy on Stahlecker's body revealed various abrasions and contusions in addition to
the gunshot wounds to the head and face. Bruises were found on both forearms and on some
fingers of the left hand. Contusions and abrasions were found on both legs, and there was a
gunshot wound to the hip. The forensic pathologist who testified at trial opined that bruises on the
right knuckles could have been "defensive" injuries sustained while Stahlecker was still alive The
pathologist also opined that the gunshot wound to the back of the head which exited through the

-1 -

faee was the fatal wound and was a "distant shot" that was.notiired-at^lQsft^f>n^-7--h^-hWn ^c-t^
-the4acc wcroTtred <*l an Intermediate" range within 2 feet of the face. In the pathologist's opinion,
the two shots to the face were not the fatal shots and were the result of very rapid gun discharqe or
were fired at a time when Stahlecker was unconscious. The autopsy revealed that Stahlecker had a
blood alcohol content of .156 when she died. The autopsy also revealed semen in the vaginal area
ana^tearsorbri/11^36 Sh°rtly before death-' however, the autopsy showed no evidence of vaginal or
Investigators had no suspect in the killing until May 2, 2000, when a Washington County
deputy sheriff was contacted by Michael Hornbacher through a mutual friend. The deputy was
acquainted with Hornbacher as well as Cook, a friend of Hornbacher and the defendant in this case.
Hornbacher told the deputy that Cook had confessed to killing Stahlecker. The deputy interviewed
Hornbacher at his office in Omaha, and Hornbacher later went to the Nebraska State Patrol offices
where he gave investigators oral and written statements. Based on the information provided by
Hornbacher, investigators went to the Noiwest Financial branch
in Council Bluffs, Iowa where
Cook worked. The investigators did not formally arrest Cook but told him he needed to come with
S^ns^
own vehicle, a Ford

F-150 pickup truck.

t0ffiC!?,t0°k 9°°^trUCk t0 the State Patral offices while Cook was being interviewed They
Nebra^^toP^^h0 ^ounci1 Bluff?;obta,ned a search warrant, and brought the truck back to
Nebraska State Patrol headquarters in Omaha, where the truck was searched. The search revealed
b ood traces on the interior of the driver's side door and floormat. Later DNA tests showed that the

During the interview, investigators photographed Cook's face and body. Cook's hands and
hofITh w°W6t Swfantia'SCrap6S and CUts‘ Cook's suPerv|sor at Norwest Financial later testified
L J f ,! badunot,ced the mJur|es to Cook's arms and hands on Monday, May 1,2000, and that he
had told her he was injured after falling off his bicycle over the weekend.
2. Cook's Arrest and Trial
firQt Homl°k W3h arres*ed’and on June 12- 2000>the State filed an information charging Cook with

was

° °°n1m'i 3 fe,0ny- C°°k PlSd n°'9Uilty'and a ^ trial

smmmmgs

The two had been friends for several years. They both worked for Norwest Financial and frequently
worked out together. After working out, they stopped at a sandwich shop and then wenUo the
apartment shared by Hornbacher and his girl friend, Michelle Childs. Childs had already left the
apartment to go to McCormack's sports bar to play volleyball. Cook and Hornbache/went to
McCormacks to watch Childs' volleyball game. They drove in Cook's truck
and arrived at
McCormack's at about 8:30 p.m.

-2-

Cook and Hornbacherstaye^aUylcCormack's.after-the-volleyba^-gamersocralizinq'witlT
-uamus-peoplerBoth-dranK several Deers and some shots. After some time, Childs and Hombacher
go into an argument because she was upset that he was getting drunk and that he did not want to
leave when she was ready to go. Childs decided to leave and asked whether Cook could qive
Hombacher a ride and whether Hornbacher could stay at Cook's apartment that night. Cook agreed
an called his wife, Jeanette, at around 11:40 p.m. to let her know Hornbacher would be staying with

sere^gwr=r

oui ,a,e'did not — ,he *eieph°"e -

Q. r H°rn^acherand Cook stayed at McCormack's for approximately another hour. Hombacher's
S
?'Vert9® ?tha Point when theyleft McCormack's. At trial, Hornbacher testified for
below
d C°0k teStlf'ed ,n hlS own defense- Their differing versions of events are recounted

3. Hornbac'her’s'Version
i
•
cher testified that he and Cook left McCormack's separately. Hornbacher saw Cook
hTm!Hh°fS hfUTh ar!? Hornbacher 90t a ride from two women he did not know and a man he
1 f n'S ^ uey dr0Vf Hornbacher t0 his and Childs' apartment, where he let himself in and
passed out in bed Hornbacher woke up around 11 or 11:30 a.m. on Saturday, April 29 2000
Hornbacher argued with Childs and decided to leave the apartment. Hornbacher couki not findhis
S S nrf h Ph h’ and cbeakb°ok and realized he might have left them in Cook's truck the
H°r?uaChr Cu 6d C°0k t0 arrange t0 P'ck UP the items he had left in Cook's truck.
Homharhp? i!'? Hornbacher to come to Cook's apartment, so they arranged for Cook to pick up

tafkeTf^wh°a°t^HomhVrh^ HPUt
P«Wh®re he parked the truck’and Cook and Hombacher
i
m n
PtieudeuSCr,bed 33 an eternity-" Hombacher testified that Cook told him that

wnrnan ufjT and tatepb?ne ™mber: Cook then told Hornbacher that after the intercourse, the
we,rded out’ and Cook thought she might try to claim that he had raped her Cook
the tmck'^ non^n w® T °!lth®.trUCk' and then he "lost if and Sobbed his g-mrrfhandgun from
woman's bo“y in a ra"L“

wev
H.ombacber ba<*
eviLce^

°"

W°ma"- C°°k '°ld Hornbacher he <ba"

the

Hombacher's apartment and regained his composure on the

stayed at his own apartment

‘° "" ^ C°nVeraa,i°n ^ ^ H°mba°her

2000. t^<^hdcheartesdf!eci'jhatehedw^ndedTo,<urg^^oo^toba>rifessdtoaauttIoritiIedabu^ChiWs

-3-

objected. Hornbacher did nothing until the evening of Monday, May 1, when he contacted-the.
_afoxeinenlioned-rout«aJ4fiend-to-get-hirn-iritoxontact with the Washington County sheriff's deputy.
Hornbacher spoke to the deputy on Tuesday, May 2, and told him about Cook's confession.
4. Cook's Version
Cook testified in his own defense. He testified that while they were at the bar, he drank two
shots provided by Hornbacher. One was a shot of "GHB," a substance sometimes called the "date
rape drug," which acts as a sedative, diminishing inhibitions and blotting out memory Cook was
drunk at the time Hornbacher gave him the GHB and did not take it intentionally. When he and
Hornbacher left McCormack's, Cook saw Hornbacher get into a car with some other people Cook
decided to follow them in his truck because he had told Childs that Hornbacher could stay at Cook's
apartment. The other people took Hornbacher to Hornbacher's apartment. Cook saw Hornbacher at
his apartment door, fumbling for his keys. Cook pulled up and told Hornbacher he had left his keys
in Cooks truck. Hornbachergotinto-Cook's truck, and the two decided to goto a bar in Fremont that
featured female strippers. Cook thought the bar might still be open.
w u, ^r-hile, ?iving t0ward Fremont on Highway 275, Cook encountered Stahlecker and the
disabled Ford Explorer. Cook decided to stop to help her, despite Hornbacher's protests. Cook tried
to change the tire but decided he could not because the rim was bent. He could not call for help
because his cellular telephone did not work, and he could not find Hornbacher's cellular telephone
which had fallen beneath the seat. Cook decided they should look for an open service station to get
help. Stahlecker got into the front seat with Cook, and Hornbacher got into the back seat
where he
passed out or fell asleep. Cook drove toward Omaha on West Maple Road.
•«,
foun(ln° open service station, and Stahlecker suggested they return to the Explorer.
Neither Cook nor Stahlecker was certain where the Explorer was, and they had trouble findinq it.
Cook suggested that they just "chill out," since they were both drunk, and he pulled into an off-road
area on West Maple Road. He and Stahlecker laughed, talked, and listened to the radio while
Hornbacher was passed out or sleeping in the back seat. Cook offered to give Stahlecker a back
rub, and she agreed. Cook testified that they were soon engaged in sexual foreplay and began
undressing. They then engaged in what Cook described as consensual sexual intercourse in the
front passenger seat.
m

As they were dressing, Cook told Stahlecker he would like to see her again and he gave her
one of his business cards so she could give him her telephone number. She wrote "Amie" and a
Fremont tetophone number on the card and gave it back to him. At that time, Hornbacher spoke up
from the back seat. Neither Cook nor Stahlecker had realized he was awake. Hornbacher forcefully
demanded that Stahlecker perform oral sex on him. She refused, and Hornbacher began to argue
with her. The argument escalated despite Cook's attempts to calm Hornbacher, and Hornbacher
door, and0walkeedSupalo0Weast Maple*fita'd Sh°U'der' ^ PU"ed ^ °Pe"ed 'he pas8en9er-8ide
Cook got out of the truck, intending to either give Stahlecker her keys or offer her a ride
ome. He then heard two gunshots and turned to see Hornbacher leaning out of the driver's side
window with Cook's gun in his hand, shooting at Stahlecker. Cook began to run toward Stahlecker
Because it was dark, he did not see the median on West Maple Road, and he ran into the median
and tnpped, scraping his arms and hands. Cook heard the truck accelerating behind him and saw
Hornbacher drive the truck up onto West Maple Road. When Hornbacher caught up to Stahlecker
he parked the truck, jumped out of it with the gun, and followed her. Cook saw Hornbacher shoot

-4-

j^ahleckeLin.lhe-back £>f-t-he-bead- from^a distance of about 10 feet. Stahlecker collapsed.
Hornbacher approached her, and when he was within 5 feet, Hornbacher shot her twice in the face.
Cook ran to Stahlecker and checked for a pulse. Finding no pulse, he realized she was
dead. Cook asked Hornbacher why he had killed her. Hornbacher did not reply but instead told him
to get her off the road." Because Hornbacher still had the gun and Cook feared for his own safety
he did as Hornbacher directed. Together they dragged Stahlecker's body across the road and
shoved it off the bridge. Cook saw Hornbacher pick up Stahlecker's keys, which Cook had dropped
Cook and Hornbacher got into the truck to return to Omaha. They were driving east on Dodge Street
back into Omaha, and when they approached a bridge over the Elkhorn River, Hornbacher told
Cook to slow down. As they were driving over the bridge, Hornbacher threw Stahlecker's keys into
the river. Cook speculated that Hornbacher might also have thrown Cook's gun into the river
because Cook did not know where it was.
’
The two continued into Omaha and argued about what to do next. Cook testified that
Hornbacher threatened that if he said anything about Stahlecker's death, Cook "would go down
too. Cook dropped Hornbacher off at Hornbacher's apartment at about 3:30 a.m. and told him they
should talk after they sobered up. Hornbacher took the gun's ammunition and clip with him On his
way home Cook stopped at a carwash where he washed blood off the seats and vacuumed the
interior of the truck. He arrived home about 4:30 a.m. He undressed and washed the scrapes on his
hands and arms and applied antibiotic ointment before going to bed. Cook's wife, Jeanette was
awake, and he showed her his injuries. He told her he had been in a fight but that if anyone asked
her, she should say he was injured falling off his bicycle.
Cook slept until about 7 a.m., when he awoke and began routine Saturday morning chores.
He washed a load of laundry, including the clothes he had worn the night before. Cook drove to
Standing Bear Lake, where he rode his bicycle on the trails. Before long, he fell off the bicycle and
landed on his arms and hands. Cook returned home around 10 a.m. Jeanette was sleeping but their
daughter was awake, and he gave her breakfast. Jeanette awoke around 12:30 p.m. and was anqry
w'th Cook for going out the night before. She left to go study. After Jeanette left, Hornbacher called
Cook The two decided to meet at Hornbacher's apartment, and Cook picked him up at about 1:30
p.m At trial, Cook attempted to give testimony regarding his version of their conversation in the
truck. However, the court sustained the State's hearsay objections, and Cook made no offer of proof
ot the testimony he would have given regarding the conversation.
5. Other Witnesses and Evidence
Various other witnesses testified for the State, and Cook offered other testimony and

and ,estimony which rela,es 10 Co*s assignments °<
♦
!mm®difte|y after Hornbacher testified at trial, the State called Childs as a witness She
testified thTt H^
al°°r re9a!,di[15g()the even^s °f APril 28> 2°00.In addition, she

thereafter shot her. In most respects,hchilds^versiof of

to

Hornbachers testimony.
The State also presented the testimony of Amy Hoffmeyer. Hoffmeyer worked with Childs
and played volleyball with her at McCormack's on April 28, 2000. After volleyball, Hoffmeyer

-5-

Which <S"S^saW £'^SS ?haftnS heldSUteide ,he presen0e * th* toin

^ippi^sHHSSSSSfS
SS^SasSSSSSSiSS^SS
a woman

HoffmayeSerhoTc^rAtoS fo^h,?0^'° 'f' ^ *" *«*“«-»•» followed

mmmwm
^LTJeS

court sustained the objection. The State then moved on io a different llSfo^Tstaing “* ^

SSHSsrs'S'HS"'^™^
SSSSSsSsSrsSiElIP
«w~«wS5»2S5g^l£^23SK^ S™8*3s,a,e p,atro1:,es,i,ied <°r »» s«o

SSSSBSSSKWSS-ESaSSS
-6-

i

elicited tesSmonytom Auten S°iJ orde"red HT*

^ ^ De,ense “unset

worn by
s truck and on
n order for production
not pu“e?^Serr.f'ber ’"**■ ^ °°M de"ied ,he
motion, and defense counsel did

^^jassssfjSSEssr^

between def^tse°^ns^and^piTibacher: Cr0SS-examination' *• following exchange
[Defense counsel:] You had never known
before, did you, sir?
[Hornbacher:] Not until after this trial started.
[Defense counsel:] And -[Hornbacher:] I take that back. I do
10th,

occurred

. Cook to be violent with a woman

di^o'uS

a woman?
[Hornbacher:] I've never seen him do it to a woman, no.
Defense counsel then moved on to other questioning.

nt on May

6. Motions, Verdict, and Sentencing
information, the State charged<thatCookfl,'didde9rMe mur[ier JJnder alternative theories. In the

separately

*° °°™“ a <a'ony, but Cook was not

At the end of the State’s case, Cook's attorney moved the courtfailed'Te? & SSse ao de,?"dan'
,ha reaa°" tha**ba State has
probably let it go to the jury on the issue oSfril™ defendant And my guess is you'll
Court to consider dismissing the action against the^efendanton the fimtvr9 t0 3Sk the

■I'm going°°,o oCcT oy hiHhl Ste e beTna aSe to" T? "* ™ ** daSrea ™*ar. stating,
premeditated uie or during the pemeSnot nrfth'9* Mr' C°°,k with bo,h delibarata and
asked, "Do you think the StateZ^befeZej,o
The dis“ °°urt

.tzScr“r,;:rhrwS^^

degree murder-felony murder first
iUry °" f°Ur ^ of hom<cide: first
and manslaughter. As part of the step instruction, thedistrictcoiTrt instructed ttteju^rtofirefconsitter

-7-

whethfr Cook c°mmittelteLonyrnurder-afldn^t-fnfinH-th^t^yK5rf
not, then to consider whether he
uunimlTted premeditated murder.

^H£^=»»-3E:ssaM£!

SSSSSSSSSSSsgSg
conviction and to^49J4to*50
convictions and sentences

'° * imPrisonmem °" •» *>* degree murder
""Pnsonment on the weapons conviction. Cook appeals his
III. ASSIGNMENTS OF ERROR

sum'Sm.

and

Cook also asserts that he was

sSsSsSSS^aSsSsa*
SSE^isSsSSsSSa^SSSS:

asserts contained unsupported conclusions of the probation officer.

report which Cook

IV. STANDARDS OF REVIEW

sg'mmsmmm
-8-

_g^ence is reviewed for an abuseMiscretioa.-State^rBrowtlette72Q5-NeU. 214 655 N W 2d

876
y, and a trial court's

^SSSSSSS•—#
,662

...............

V..ANALYSIS

.....................

—

.............

1. Testimony by Cook Regarding Conversation With Hornbacher

^gj^aaaaias!=a

=lls£=SS5r^KS=S
With

unless the

§ssgs=—srss

rSUSSiM
-9-

3=slgsss£pis
Juhsete^

what he would have testified in responseto *6 ?^^
make an offer of proof.CookctesX^R^v6^^^ PjVmn WR °R appeal desPlte his failure fo

CookalSS5^:^S^Sto,he ^ bV 0ffe™
apparent from context within which question was aekertl J*'h'?,her subs'ance of evidence was

sriHS
the context in which the questions were asked TheP™
test,mony was not apparent from
regarding the content of the^conversation ^but J^ 9enera"y Ca,led for testimonV
testified was not apparent. It would require speculation on
wfJ.,ch Cook would have
testimony would have met either of the categories of admi^ihio?0'?S P
° f'nd that SUch ProP°sed
We therefore reject Cook's first assignmen?o! error
Oniony urged by Cook on appeal.
2. Directed Verdict on Felony Murder
motion for a directed^e^

the district court erred in denying his

Jeanette that he sustained the injuries in a fkht h> * t

wSfh^^
fha, the wounds ,o hcfh Cock and

- 10-

h *W he rece,ved hls wounds. He told

injUrieS could lead a jufyJpJnferJbat-tbere-was-a-stfoqate-hfitwpTj-n-nhnk- an?<~.qtahiooUor atrj a
sexual assault.
[4] In a criminal case, a court can direct a verdict only when there is a complete failure of
evidence to establish an essential element of the crime charged or the evidence is so doubtful in
character, lacking probative value, that a finding of guilt based on such evidence cannot be
sustamed. State v. Segura, 265 Neb. 903, 660 N.W.2d 512 (2003). If there is any evidence which
will sustain a finding for the party against whom a motion for directed verdict is made the case may
not be decided as a matter of law, and a verdict may not be directed. Id.
We conclude that the evidence in the present case was sufficient to prevent a directed
verdict on the felony murder charge. The evidence noted by the State with respect to the element
at sexual penetration be without consent was sufficient to support a jury finding that sexual
without.consent aniwas instead aproductof sexual-assault, thus-precluding a
directed verdict. The jury could reasonably infer that the injuries indicated that the sexual intercourse
between Cook and Stahlecker was without Stahlecker's consent. There was not a complete failure
of evidence to establish the underlying felony of sexual assault as an element of felony murder and
e jury could reasonably have found Cook guilty of first degree murder under a felony murder
eory The district court therefore did not err in rejecting Cook's motion for directed verdict, and we
reject Cook s second assignment of error.
3. Prior Bad Acts With Amy Hoffmeyer and Yvette Carmen
his third assignment of error, Cook asserts that the district court erred in allowinq the iurv

Pr'°7r
°tS evidenc'e offered for an improper purpose, that the procedural requisites of
§ 27-404(3) were not followed, and that the court failed to give a limiting instruction with respect to
the purpose for which such evidence could be considered. Cook's arguments are limited to
admission under § 27-404, and accordingly we so limit our analysis. The evidence regarding

rwTSfe“3fdin9'Carmenarei"dif,erentPos'—P^-a,,y,and,here,ora
(a) Amy Hoffmeyer
N „ t5] Hoffmeyer testified at trial without objection by Cook. Cook complains on appeal that
Hoffmeyer's testimony was inadmissible as improper prior bad acts evidence. A party who fails to
make a timely objection to ev.dence waives the right on appeal to assert prejudicial error concerning
the evidence received without objection. State v. Harms, 263 Neb. 814, 643 N W 2d 359 (2002)
Because Cook did not object to Hoffmeyer's testimony at trial, Cook has waived the right to assert
prejudicial error regarding Hoffmeyer's testimony on appeal.
(b) Yvette Carmen

followed him to the parking lot and that they had briefly talked and kissed. Section 27-404(2) deals
with evidence of "other crimes, wrongs, or acts" admitted "to prove the character of a person in order
to show that he or she acted in conformity therewith." Whether or not the testimony regardinq Cook's
kissing an unnamed woman was evidence of an act admitted to prove his character, we conclude

-11 -

''

T.'

H "gintTan^
was harmless error. j,0.the.e)dent4hA-t^^timnr>»-rn:]^^j
had'T°Py 7h‘tCh C°°k °ffered 'n h'S own^irec9t exam ination J ncl ucHng0Cook's testimonyTha^he had

er firsts?
KTad

tlwrefore findntfmerrt to CooSird^assignmS ££"* ^ ^

4. Jeanette Cook's Letter

demonstrated no exception to the hearsay rule which would allow admission of the letter

■Jrjaat:gs=aasf“.,“s
ateoedlv Wte^Stohtort,. ®rP "I," C°°k'S fSons in coverin9 u»,or Hornbacher after Hornbach^
were made.
itsTntoducttan'imo eSnc?
tesTSa the S'1 "h§ ^ !? “ > Statemen*’ <*"*one made by the de^anfwht
Neb^Rev Stat « 27-snb mT9' °ffi SSLl" ev,dence t0 Prove lhe tru,h °< the matter asserted," and
bv othpr miPQ f ith °k l?eifSUe 1995^ Provides that hearsay is not admissible except as provided

not appear

=ri“jsss

fourtfTassigmnem of eno^ 'n

*“ ^ °bieC,i°" * the *«*■ *"d - '“o£

5. Presentence Investigation Report
ronk a.ALhlSi,fthf.Si9nment 0f error’ Cook asserts that the district court erred in failino to afford

opportunity to personally review the report or that Cook did in fact see the report prior to sentanrirfn

SrEr“—“sSB
merit to Cook'sassignmem of errof3'

den'eCl SU°h 3 reqUest’ We °0n0lude ,here is no

convirtii? nf6o'fR|SV' Stll § 29‘2261 (Cum- SuPP- 200°) requires that "when an offender has been
invesSon
® 5°^ Swa" "0t imp0Se sentence without first ordering
investigation of the offender and according due consideration
a a presentence
to a written report of such

-12-

investigation."
thejB

siSSSII

mmmmm
duty*;

court has no affirmative
not elf in failing to o^efa review, and we find no S^oSSlSm report. The district court did
assignment of error.
6. Excessive Sentence

=k£33S S“S?—
saasSESr—Rev'w

ony is a term
urn.
Supp.
2002).
Therefore,
Cook's
sentence was within statutory limits, and it will
not
be
overturned
on
appeal
unless
Cook
demonstrates an abuse of discretion.

and

-13-

r

7. Ineffective Assistance of Counsel
counsel*,tlanXlS

mmmmm

the following Instances of ineffective assistance of comsef™'

^

C°0l< Spe0i,ies

investigation report.

-pP--i.^^£^hL^£^ESS^;l2^

»

counsel's performance did not eaual that of a iautn,ohat£0U ^Se S Performance was deficient; that is,
the area. The defendant SI“SLfJ. ^2rw,th ordinary training and skill in criminal law in
defense in hfs o“aSa |L?“ L%£‘ZrTJI!0** performa"“ prejudiced the

pHSHli=ST"=

reasonable
outcome. Id. When a defendant
challenges a conviction, the question is whether there is a
. reasonable probability that absent the
errors, the fact finder would have had a
reasonable doubt concerning guilt. Id.

are
appeal. Massaro v U sinef,ec,^ve asslstan“ °< “unf(?' *«n» are suited to resolution on direct
Supreme Court has also noted: ^ —
S' Ct 1690’ 155 L Ed 2d 714 <2003). The U.S.

SSSsil^sS-SSSSS;
Er~“~rS5=S5
S£H“i=^“=s:=:
-14-

f
■

Vj

With respect to the nnmorru.,. „.......... .......

.

__ ______________

that Childs' testimony regarding what Ho?nbacher tddTt

Tedt0 ki"ing her'Cook ar9ues

tesjjmony was merely cumulative o, Hornbacher's testimony

argumenfwe^averejectedsupra^Triahtounselma^have^h cMh*' *ek)ny roPtdeMo^jury^an

ChilS,^^

record on appeal is not adequate forthis courtacb™°°unsel.»s conclude that the
.neffectrve. For each argument advanced by Cook we S'">h i00^86''5 assi^nce was
sufficient evidence to establish that counsel's performance w '^c 8131 Cook has not Prowled

address these matters on direct appeal. See State v.
8. Motions for Mistrial and for new Trial
evidentiary errors^n this case'aimbtned'wtth the deFcienf°0l<rfaSSe'rlE 8131 810 ’many and varied"

pt“^
granting of mistrial or new trial.

and does not sPeci’fy what errors required the

court and will not be distuibed on applal "n the absence rf
h 'S
" *he discretl°" °> the trial
264 Neb. 899, 662 N.W.2d 894 (2002) Because we ha™T5°,discretion' Stale v. Aguilar,
assignments of error and the record on appeal does nm n»
d no merit in Co°k,s other
received ineffective assistance of counsel we do noffina ,h
U? ‘° d9termine whether Cook
was inherently defective. We therefore find no meri in Co^°°, f$ established that his trial
onclude that the distnc, court did no, errin overruling Cook's

-15-

*

I. i f

,"N

VI. CONCLUSION.
susceptible

error is either without merit or not
atfirm Cook's convictions and sentences.

Affirmed.

-16-

